<html>
<title> - HEARING TO REVIEW THE LABOR NEEDS OF AMERICAN AGRICULTURE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
       HEARING TO REVIEW THE LABOR NEEDS OF AMERICAN AGRICULTURE

=======================================================================


                                HEARING

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                       THURSDAY, OCTOBER 4, 2007

                               __________

                           Serial No. 110-30


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
48-999                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 Fax: (202) 512-2250  Mail: Stop IDCC, Washington, DC 20402-0001



                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            BOB GOODLATTE, Virginia, Ranking 
    Vice Chairman                    Minority Member
MIKE McINTYRE, North Carolina        TERRY EVERETT, Alabama
BOB ETHERIDGE, North Carolina        FRANK D. LUCAS, Oklahoma
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 ROBIN HAYES, North Carolina
DENNIS A. CARDOZA, California        TIMOTHY V. JOHNSON, Illinois
DAVID SCOTT, Georgia                 SAM GRAVES, Missouri
JIM MARSHALL, Georgia                JO BONNER, Alabama
STEPHANIE HERSETH SANDLIN, South     MIKE ROGERS, Alabama
Dakota                               STEVE KING, Iowa
HENRY CUELLAR, Texas                 MARILYN N. MUSGRAVE, Colorado
JIM COSTA, California                RANDY NEUGEBAUER, Texas
JOHN T. SALAZAR, Colorado            CHARLES W. BOUSTANY, Jr., 
BRAD ELLSWORTH, Indiana              Louisiana
NANCY E. BOYDA, Kansas               JOHN R. ``RANDY'' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
TIMOTHY J. WALZ, Minnesota           VIRGINIA FOXX, North Carolina
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
STEVE KAGEN, Wisconsin               JEFF FORTENBERRY, Nebraska
EARL POMEROY, North Dakota           JEAN SCHMIDT, Ohio
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
JOHN BARROW, Georgia                 TIM WALBERG, Michigan
NICK LAMPSON, Texas
JOE DONNELLY, Indiana
TIM MAHONEY, Florida

                                 ______

                           Professional Staff

                    Robert L. Larew, Chief of Staff

                     Andrew W. Baker, Chief Counsel

                 April Slayton, Communications Director

           William E. O'Conner, Jr., Minority Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Baca, Hon. Joe, a Representative in Congress from California, 
  prepared statement.............................................     6
Cuellar, Hon. Henry, a Representative in Congress from Texas, 
  prepared statement.............................................     7
Goodlatte, Hon. Bob, a Representative in Congress from Virginia, 
  opening statement..............................................     2
Graves, Hon. Sam, a Representative in Congress from Missouri, 
  prepared statement.............................................     8
King, Hon. Steve, a Representative in Congress from Iowa, opening 
  statement......................................................     5
Kuhl, Jr., Hon. John R. ``Randy'', a Representative in Congress 
  from New York, prepared statement..............................     9
Lampson, Hon. Nick, a Representative in Congress from Texas, 
  prepared statement.............................................     7
Mahoney, Hon. Tim, a Representative in Congress from Florida, 
  opening statement..............................................     4
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     1
    Prepared statement...........................................     2
Smith, Hon. Adrian, a Representative in Congress from Nebraska, 
  prepared statement.............................................     9
Walberg, Hon. Tim, a Representative in Congress from Michigan, 
  prepared statement.............................................    10

                               Witnesses

Holt, Ph.D., James S., President and Principal, James S. Holt & 
  Co., LLC; Agricultural Labor Economist, Washington, D.C........    11
    Prepared statement...........................................    13
Stallman, Bob, President, American Farm Bureau Federation; Rice 
  and Cattle Producer, Columbus, TX..............................    19
    Prepared statement...........................................    21
Wicker, H. Lee, Deputy Director, North Carolina Growers 
  Association, Vass, NC..........................................    51
    Prepared statement...........................................    52
Herring, C. Scott, Executive Vice President and COO, Farm Credit 
  of Western New York, ACA, Batavia, NY..........................    53
    Prepared statement...........................................    55
Goldstein, Bruce, Executive Director, Farmworker Justice, 
  Washington, D.C................................................    57
    Prepared statement...........................................    58
Brown, Michael J., Senior Vice President, Legislative Affairs, 
  American Meat Institute, Washington, D.C.......................    61
    Prepared statement...........................................    63
Carnes, J Allen, President, Winter Garden Produce; Chairman, 
  Texas Vegetable Association; Director, South Texas Onion 
  Committee, Texas Produce Association; Vice President, Carnes 
  Farms Inc., Uvalde, TX.........................................    91
    Prepared statement...........................................    93
Smoak, Mason G., Citrus Producer and Cattle Rancher, Lake Placid, 
  FL.............................................................    97
    Prepared statement...........................................    98
Yates, Harry B., Past-President, North Carolina Christmas Tree 
  Association; Member, Board of Directors, National Christmas 
  Tree Association, Boone, NC....................................    99
    Prepared statement...........................................   101
Mouw, Randall D., Dairy Producer; Chairman, District 12, 
  California Milk Advisory Board, Ontario, CA; on behalf of 
  Western United Dairymen; Dairy Farmers of America; and National 
  Milk Producers Federation......................................   102
    Prepared statement...........................................   104
Atkinson, Keith, President, Virginia Agricultural Growers 
  Association; Apple and Tobacco Producer, Java, VA..............   106
    Prepared statement...........................................   108
Roth, Rick, President and Principal Owner, Roth Farms, Inc.; Vice 
  President and Member, Board of Directors, Florida Farm Bureau; 
  Member, Board of Directors, Florida Fruit and Vegetable 
  Association; Member, Board of Directors, Sugar Cane Growers 
  Cooperative of Florida, Belle Glade, FL........................   111
    Prepared statement...........................................   113

                          Submitted Statements

Agriculture Coalition for Immigration Reform, submitted article 
  entitled, Time Fast Running Out for American Agriculture . . ..   145
Hallstrom, Luawanna, Regelbrugge, Craig J., and Young, John, ACIR 
  Co-Chairs, Agriculture Coalition for Immigration Reform, 
  prepared statement.............................................   142
Herseth Sandlin, Hon. Stephanie, submitted prepared statement and 
  letters for Amber S. Brady, General Counsel/Director of 
  Agricultural Policy, South Dakota Department of Agriculture, 
  Pierre, SD.....................................................   136
King, Hon. Steve, submitted CRS report...........................   121
Kuhl, Jr., Hon. John R. ``Randy'', submitted report entitled, 
  Farm Labor Crisis: A New York State Perspective................   119


       HEARING TO REVIEW THE LABOR NEEDS OF AMERICAN AGRICULTURE

                              ----------                              


                       THURSDAY, OCTOBER 4, 2007

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 11:02 a.m., in Room 
1300 of the Longworth House Office Building, Hon. Collin C. 
Peterson [Chairman of the Committee] presiding.
    Members present: Representatives Peterson, Holden, 
McIntyre, Etheridge, Boswell, Baca, Cardoza, Scott, Herseth 
Sandlin, Cuellar, Costa, Salazar, Ellsworth, Boyda, Pomeroy, 
Kagen, Mahoney, Donnelly, Goodlatte, Lucas, Moran, King, 
Musgrave, Neugebauer, Foxx, Fortenberry, Conaway, Walberg, and 
Smith.
    Staff present: Alejandra Gonzalez-Arias, Tony Jackson, 
Tyler Jameson, Keith Jones, Rob Larew, John Riley, Sharon 
Rusnak, Lisa Shelton, April Slayton, Kristin Sosanie, Patricia 
Barr, Alise Kowalski, Stephanie Myers, and Jamie Weyer.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    The Chairman. The Committee will come to order. I want to 
start by welcoming everyone to this hearing of the House 
Agriculture Committee. As we have traveled across the country, 
we have experienced firsthand the great diversity of 
agriculture in this country. While some issues change depending 
on the region, in every part of the country we have traveled, 
the topic of labor always come up, and it is usually followed 
by the word ``crisis.'' This is a major problem for producers, 
and sooner or later, we must find a way to address it.
    I want to thank Congressman Mahoney for his leadership in 
requesting that we hold this hearing on this topic, and I know 
that this is an important issue for the citrus growers and 
other producers in his district that have experienced this 
labor crisis firsthand.
    Although the Judiciary Committee has an important role in 
this matter, I think that it is important for this Committee to 
review the significant impact that the situation has on the 
agriculture industry. For better or for worse, agriculture has 
been on the front line of this issue and has focused attention 
on the serious consequence of labor shortage this country 
continues to experience.
    I believe that before we can find a meaningful solution, 
Congress must understand the scope and the depth of the problem 
across many industries, agriculture included. So this hearing 
today will focus on improving our understanding of the labor 
shortage and its impact on agriculture. This is not a hearing 
to review specific legislation or proposals. We are here to 
document the problem so that we can move forward as a Committee 
to work with other committees that have jurisdiction on these 
issues to be sure that the needs of agriculture are addressed 
in whatever that final solution to this serious problem will 
be.
    I again want to thank the witnesses who have joined us 
today to provide an honest and complete picture of the labor 
situation in American agriculture. I recognize that these are 
controversial issues that are not easy to address, and I 
appreciate the information that you will be providing to the 
Committee today. So again, I thank the witnesses for being 
here, and I am pleased to recognize my good friend, the Ranking 
Member from Virginia, Mr. Goodlatte.
    [The prepared statement of Mr. Peterson follows:]

  Prepared Statement of Hon. Collin C. Peterson, a Representative in 
                        Congress From Minnesota
    I want to start by welcoming everyone to this hearing of the House 
Agriculture Committee.
    I've traveled across the country and have experienced first hand 
the great diversity of agriculture in this country. While some issues 
change, depending on the region, in every part of the country where 
I've traveled, the topic of labor always comes up, and it is usually 
followed by the word ``crisis.'' This is a major problem for producers, 
and sooner or later, we must find a way to address it.
    I want to thank Congressman Mahoney for requesting that we hold a 
hearing on this topic, and I know this is an important issue for the 
citrus growers and other producers in his district that have 
experienced this labor crisis first hand.
    Although the Judiciary Committee has an important role in this 
matter, I think that it is important for this Committee to review the 
significant impact that the situation has on the agriculture industry. 
For better or for worse, agriculture has been on the front line of this 
issue and has focused attention on the serious consequences of the 
labor shortage this country continues to experience.
    I believe that before we can find a meaningful solution, Congress 
must understand the scope and depth of the problem across many 
industries, agriculture included. So, this hearing today will focus on 
improving our understanding of the labor shortage and its impact on 
agriculture. This is not a hearing to review specific legislation or 
proposals--we are here to document the problem so that we can move 
forward as a Committee to work with the other Committees with 
jurisdiction on these issues to be sure that the needs of agriculture 
are addressed in whatever the final solution to this serious problem 
will be.
    I again want to thank the witnesses who have joined us today to 
provide an honest and complete picture of the labor situation in 
American agriculture. I recognize that these are controversial issues 
that are not easy to address, and I appreciate the information that you 
will be providing to this Committee today.

 OPENING STATEMENT OF HON. BOB GOODLATTE, A REPRESENTATIVE IN 
                     CONGRESS FROM VIRGINIA

    Mr. Goodlatte. Well, thank you, Mr. Chairman, and thank you 
for holding this hearing on this very important issue. 
Throughout the past 2 years as this Committee traveled the 
country and heard from farmers all over the nation regarding 
the farm bill we are working on right now, one of the common 
concerns shared by many farmers was the availability of 
reliable farm labor.
    What I have seen and heard leads me and many of my 
colleagues to conclude that the H-2A Temporary Agricultural 
Visa process is not working. I have talked face-to-face with 
producers who have had to deal with participating in a costly, 
time-consuming, and flawed program. Employers have to comply 
with a lengthy labor certification process that is slow, 
bureaucratic, and frustrating.
    In addition, they are forced to pay an artificially 
inflated wage rate. Many producers simply cannot afford the 
time and cost of complying with the H-2A Program. However, in 
order to find and retain the legal workers these employers 
depend on for the viability of their operations, they have no 
alternatives.
    In addition, as a long-time Member of the Judiciary 
Committee, I am aware of the illegal immigration crisis our 
country currently faces. It is estimated that there are 11 
million illegal aliens currently living in the United Stated 
with over one million working in agriculture. Instead of 
encouraging more illegal immigration, successful guest worker 
reform should deter illegal immigration and help secure our 
borders.
    It is possible to simultaneously streamline the guest 
worker program, reduce illegal immigration, and protect our 
borders. That is why, as the Ranking Member of the House 
Agriculture Committee, and a Member of the Judiciary Committee, 
I introduced H.R. 1792, the Temporary Agricultural Labor Reform 
Act, a bipartisan bill that will reform the H-2A Guest Worker 
Program and create a more streamlined and fair process for 
everyone involved in the agriculture industry.
    I do not believe in rewarding those who have broken our 
nation's immigration laws by granting them blanket amnesty. And 
H.R. 1792 would do no such thing. Instead my bill would 
encourage the large population of illegal farm workers to come 
out of hiding and participate legally in the guest worker 
program.
    Potential workers would be required to return to their home 
countries and apply for the program legally from there. This 
would provide a legal temporary workforce that employers can 
call on when insufficient American labor cannot be found and 
help ensure that those temporary workers entering the country 
are not threats to our national security.
    We also need to address the troublesome wage issue. 
Employers are currently required to pay an inflated wage called 
the Adverse Effect Wage Rate, or AEWR. The AEWR was originally 
designed to protect similarly situated domestic workers from 
being adversely affected by guest workers coming into the 
country on a seasonal basis and being paid lower wages.
    However, the shortage of domestic workers in the farm 
workforce forces employers to hire foreign workers and thus is 
also forcing them to pay artificially inflated wages. My bill 
abolishes this unfair wage rate and creates a prevailing wage 
standard under which all workers are paid the same wage as 
workers doing similar work in that region.
    The facts are simple. The agriculture industry needs 
reliable farm labor. Workers need access to stable, legal, 
temporary employment. It is in our nation's interest to create 
a sensible way for workers to come in on a temporary basis, 
fill empty jobs, and go back to their home countries.
    At this time, I would like to thank a member of our second 
panel, Mr. Keith Atkinson, for participating today. Mr. 
Atkinson is a tobacco grower from Virginia, and I appreciate 
the fact that he has taken time out from a busy harvest period 
on his farm to be here today to represent Virginia's 
agriculture industry.
    Mr. Chairman, I look forward to hearing from our witnesses 
today and appreciate your efforts to bring this important issue 
before the Committee for review.
    The Chairman. I thank the gentleman for his statement, and 
all Members will be allowed to put in a statement for the 
record. I, however, told Mr. Mahoney that because of his 
leadership and his interest, I want to tell the folks in 
Florida that you have somebody who is really focused on this 
and working hard. So I am going to allow Mr. Mahoney to make an 
opening statement, and I guess if other Members feel the need, 
we can deal with that as we go here. But Mr. Mahoney, we 
appreciate your leadership, and it was because of him bugging 
me that we got this hearing going. So, we are pleased to 
recognize you for a statement.

  OPENING STATEMENT OF HON. TIM MAHONEY, A REPRESENTATIVE IN 
                     CONGRESS FROM FLORIDA

    Mr. Mahoney. Thank you, Mr. Chairman. There has been a 
great debate in this country concerning the fact that middle 
and working class families are struggling. Average family 
income has declined while taxes, gasoline, homeowners and 
health insurance costs have skyrocketed. There has also been a 
great debate over the estimated 12 million illegal workers who 
are in this country and the urgent need to secure our borders.
    I am thankful to Chairman Peterson and Ranking Member 
Goodlatte for holding this important hearing today. It is 
critical that, as we debate what Washington needs to do to help 
American families prosper, we hear from the American farmer, 
rancher, and grower. We need to give voice to American 
agriculture's needs for labor, as there is much at stake for 
our nation, should we not understand the reality of rural 
America.
    We must not allow partisan politics, that is more 
interested in political power than in the safety and security 
of the American people, to foster unwise legislation that 
prevents our crops from getting picked, thereby creating an 
economic and national security crisis.
    We have seen that a safe and secure food supply is vital to 
protecting America in the war on terror. For too long, this 
nation has taken its ranchers, farmers, and growers for 
granted, entering into reckless international trade agreements 
that give preference to foreign agriculture. For too long, we 
have ignored the threats of pest and disease that threaten our 
food supply.
    Now, the President, after he has failed to lead his party 
and this nation in developing a comprehensive immigration 
policy that secures our borders; enforces our laws; ensures 
that those whose labor we rely on that are here illegally pay 
their fair share; he wants to precipitate a crisis with a 
change in policy that could jeopardize our ability to harvest 
our crops, thereby increasing the cost of food, ruining the 
livelihoods of those who feed us, and making America less 
secure by becoming more dependent on foreign producers.
    I am proud to represent a district in the great State of 
Florida, which is a powerhouse of American agriculture. Florida 
produces nearly 80 percent of the orange juice consumed in the 
United States. Our agriculture industry creates 648,000 jobs 
and contributes $97 billion to our economy annually. We are 
proud to be able to put dinner on the table for millions of 
Americans and be a reliable source of good, safe, and 
affordable food.
    Without enough workers, the crops will rot in our fields, 
and the United States will be forced to import potentially 
unsafe food from other countries. America could become a net 
importer of food, just like we are with oil. This is a 
dangerous prospect. It would put our farmers and the American 
people at risk. It is time to put rhetoric aside and let the 
American people understand the problem facing American farmers.
    Let me be clear. I am not suggesting that illegal aliens 
should be granted amnesty. We are here today to get a firsthand 
assessment of the labor needs of our agriculture industry. 
Before we talk about solutions, we need to understand the 
problem. Our farmers are facing a growing threat, not just from 
labor shortages, but also from piecemeal governmental policies 
more interested in scoring political points than addressing the 
problem.
    This hearing today came about in part due to the Social 
Security Administration and Department of Homeland Security's 
decision to change their policy, and issue and enforce No-Match 
letters to employers. This plan relies on inaccurate 
information contained in Social Security databases that could 
potentially jeopardize the jobs of American citizens.
    It is unfair to punish our farmers in a political effort to 
give the perception of getting tough on immigration without 
actually doing so. We need policies that do get tough on 
immigration by securing our borders, finding out who is here 
illegally, and making them pay their fair share, while 
punishing those who knowingly hire cheap, illegal labor. We 
need to develop solutions that work for our farmers instead of 
turning a blind eye on the broken system and forcing them to 
have to choose between feeding their families and breaking the 
law.
    I hope we all listen carefully today and understand it is 
time to stop playing politics and start looking for real 
practical solutions. This room and the Members of this 
Committee are committed to the American farmer. This is one of 
the very few places where partisan politics gets put away, and 
Members representing farmers, ranchers, and growers from around 
this great country come together to fight for agriculture.
    I want to thank the witnesses for coming forward and giving 
voice to this problem, and I look forward to working with my 
fellow Members on solutions that make America safe and all 
Americans prosper. Thank you, Mr. Chairman, I yield back my 
time.
    The Chairman. Thank you, Mr. Mahoney, and thank you for 
your leadership and your statement. Any other Members feel the 
need to make a statement? Otherwise, your statements will be 
made part of the record. You will be brief, Mr. King.

   OPENING STATEMENT OF HON. STEVE KING, A REPRESENTATIVE IN 
                       CONGRESS FROM IOWA

    Mr. King. I thank you, Mr. Chairman, and I didn't intend to 
offer a statement. I just think that it is appropriate for me 
to just say a few words. And I would just ask that we keep this 
discussion within the context of not the ``piecemeal,'' as the 
gentleman said, but the broader perspective here that we have 
with the immigration policy across the whole United States and 
all the industries that we have. We will recognize that 
industries compete against industries for labor; and we all 
want to uphold the rule of law, and most of us are opposed to 
amnesty.
    If we can meet some of those standards, talk about the 
impact of agriculture, maybe talk about how we could improve 
some recruitment lines coming from the unemployed, unskilled 
areas of the country over to the places where we need the 
labor, it would be appropriate for us to try to raise the 
overall average individual productivity of all of our workers 
in America. And within that context, I am interested in this 
testimony, and I thank the Chairman for yielding to me.
    The Chairman. I thank the gentleman for that statement. All 
other Members, your full statements will be made part of the 
record.
    [The prepared statements of Messers. Baca, Cuellar, 
Lampson, Graves, Kuhl, Smith, and Walberg follow:]

Prepared Statement of Hon. Joe Baca, a Representative in Congress From 
                               California
    I want to thank Chairman Peterson and Ranking Member Goodlatte for 
holding this important hearing today.
    I also want to thank each of our many witnesses for taking the time 
out of their schedules to come here today.
    I hope that you will be able to help us in Congress better 
understand the consequences of the current labor shortage in 
agriculture.
    I also look forward to hearing your views on what the Federal 
Government must do to help solve this problem.
    As Chairman of the Nutrition Subcommittee, Chairman of the 
Congressional Hispanic Caucus AND as a Member from California, farm 
labor is an issue I have worked on for many years.
    It's no secret that I am a firm believer in comprehensive 
immigration reform that reflects American values such as family, 
compassion, equal opportunity and security.
    The current system is broken. People continue to live in fear, and 
America continues to face a huge economic and humanitarian crisis.
    Yet Congress has STILL failed to pass this urgently needed reform, 
at the expense of American families.
    And nowhere has this crisis been more apparent than in agriculture.
    Make no mistake--a labor shortage in agriculture does exist.
    One farmer from California said to me, ``I am at a point where I am 
planting a seed in the ground and not knowing if I will be able to 
harvest it.''
    This problem not only affects our farmers, but our families as 
well. In the farm bill the Committee passed this summer, we invested 
significant resources into nutrition programs and fresh fruits and 
vegetables.
    But how much good can these programs do when California lost 30% of 
its pear crop last year because there weren't enough workers to pick 
them?
    All of this is leading to higher food prices for working families 
and increased dependence on foreign imports, potentially putting 
Americans in danger.
    Just this past summer the Agriculture Committee held hearings to 
address contamination in imported food products from China.
    This is unfortunate, because unlike many other issues we face, this 
is a problem we CAN solve.
    Our farmers NEED this workforce and we already HAVE people who want 
to fill these jobs. We simply need to create a fair process that will 
provide security for both employers and employees.
    Failure to address this situation will hurt all of us--whether it's 
the farmer, the worker or the consumer--because farm labor quite 
literally puts food on our tables.
    I look forward to working within and without the Committee, using 
all my abilities and whatever resources available to solve this crisis.
    Again, I want to thank Chairman Peterson and Ranking Member 
Goodlatte for addressing this important issue.
    I would also like to thank our witnesses for coming today and I 
look forward to hearing from all of you.
    Thank you.
                                 ______
                                 
Prepared Statement of Hon. Henry Cuellar, a Representative in Congress 
                               From Texas
    Mr. Chairman, thank you for holding this hearing. And I thank the 
witnesses for taking the time to come and testify here today.
    I want to extend a special welcome to J Allen Carnes, a south Texas 
vegetable producer who is here to testify today. J Allen is Vice 
President of Carnes Farms, Inc., President of the Texas Vegetable 
Association, Director of the Texas Produce Association, and Director of 
the South Texas Onion Committee.
    The labor needs of U.S. agriculture must be addressed by Congress. 
Immigration policy for agriculture needs to be brought up to date 
taking into account issues of homeland security, food safety, and food 
availability.
    Labor shortages are one of the most pressing issues facing U.S. 
agriculture today. According to the Congressional Research Service, 
more than half the seasonal workers working in agriculture are not 
authorized to hold jobs in the United States.
    South Texas and other border areas have unique problems and 
opportunities with regard to the availability of agriculture workers 
from Mexico. In addition, a long history of cross-border labor and 
current homeland security border issues in general give south Texas a 
unique perspective on this issue.
    Some sectors of agriculture are dependent on non-American labor 
sources to a greater extent than others.
    In my district horticultural crops have seasonal labor needs, 
generally peaking in June or July when fruits and vegetables are 
harvested.
    Ranchers also face seasonal demand for labor during periods when 
cattle are moved and shipped. Recent infestations of cattle fever ticks 
have dramatically increased labor needs for ranchers, even during what 
were formerly slow periods.
    It is difficult to meet seasonal demands with locally available 
labor. Local labor gravitates towards full-time, year-round employment. 
To facilitate the use of temporary, legal labor from other countries, 
the procedures for H-2A and other programs need to be streamlined and 
simplified.
    We all have heard stories about growers who have cut back acreage 
due to a lack of labor.
    We have recently heard stories of producers taking production to 
the worker by renting land in Mexico and shipping produce to the U.S.
    Within the context of national security, guaranteeing employment 
opportunities for American citizens, and providing a safe, dependable, 
and efficient source of food; new policies must be developed to allow 
agriculture to continue to serve the American people.
    The H-2A program is complicated, unresponsive, expensive, and 
litigation-plagued. It supplies only 2 percent of the agriculture labor 
force. It cannot meet the needs of American growers and producers 
unless it is substantially overhauled.
    I look forward to the testimony from today's panels.
                                 ______
                                 
 Prepared Statement of Hon. Nick Lampson, a Representative in Congress 
                               From Texas
    Chairman Peterson and fellow colleagues, I am glad we are here 
today to discuss the labor needs of American agriculture, and I thank 
all of our panelists for coming here today to discuss this critical 
issue with us. While this Congress has struggled the past few years to 
address a broken immigration system and the need to secure our borders, 
the needs of small business owners and farmers have been overlooked. 
While we all agree that securing our borders, enforcing our laws, and 
reforming immigration are immediate necessities, we must also realize 
what our inability to put aside partisan rhetoric in order to solve 
this problem is hurting our farmers, small business owners, their 
American employees, and the seasonal workers who want to come to this 
country to earn an honest living. And eventually, in the next few weeks 
or months, ordinary American consumers will start to feel the affects 
of our inaction.
    I am greatly dismayed by the state of affairs and the paralyzing 
affects our partisanship and lack of action are having on our nation's 
agricultural producers. This issue was brought directly to my attention 
2 days ago when an oyster farmer from my district called me 
frantically. Because Congress failed to extend the waiver allowing 
returning H-2B visa workers to be excluded from the cap, he will not be 
able to get the 300 temporary employees he depends on to keep his 
business open this season. He filled out all of the paperwork, got 
approval from the Department of Labor, and waited his turn to file his 
paperwork with USCIS. But on Monday he got the news that despite 
following the law and going through the proper procedures, he would be 
denied his temporary workers. Seasonal businesses throughout the 
country encountered the same problem this week when they were notified 
that as of September 27th the cap for H-2B visas had been reached for 
the first half of FY 2008. Unfortunately, the oyster season begins and 
ends within the first half the fiscal year and my constituent most 
likely will have to shut down his operation for the first time. Not 
only will this affect him and those temporary workers, but many other 
constituents of mine that he employs, his distributors, and the 
restaurants and consumers that buy oysters.
    The economy of southeast Texas not only depends on the fish and 
seafood harvested from the Gulf, but the rice, cotton, and sorghum 
harvested in our fields. Although farmers use a specific agriculture 
visa--H-2A--this affects all businesses that depend on seasonal workers 
to keep our economy going. These seasonal workers also depend on this 
income--which dwarves what they earn in their home countries--to get 
their families through the year. So not only do they help our economy, 
but their own by bringing home American dollars.
    For the sake of our farmers, their employees, consumers, and all of 
our constituents, we must put aside partisanship and rhetoric to reform 
our broken system. Otherwise we risk putting people out of business, 
losing jobs, and forcing higher prices for our food.
                                 ______
                                 
  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
                             From Missouri
    Thank you, Chairman Peterson and Ranking Member Goodlatte for 
holding this important hearing. I look forward to hearing from today's 
distinguished witnesses.
    Agriculture is the economic engine of Missouri; it is the state's 
top industry and it depends on labor. I believe we must work to fulfill 
agriculture's labor needs, while always remaining vigilant against the 
employment of illegal aliens.
    The employment of illegal aliens is a threat to the security of our 
food supply. Illegal aliens have already broken the laws of the United 
States at least once. We cannot reward illegal aliens for breaking our 
laws, but this goes even beyond that. We absolutely need to be able to 
verify who is handling our food supply. It is a national security issue 
without question. If we cannot do this, the potential for abuse and 
damage is tremendous.
    I strongly support efforts to give employers more tools to screen 
potential employees. Employers should not have to be looking over their 
shoulder for a discrimination lawsuit when they are just being diligent 
in pursuing and verifying the information of their potential employees. 
It is their duty and obligation to ask the tough questions, and they 
should not be penalized for ensuring that job applications are legal.
    Employers must have access to a system whereby they can immediately 
verify a job applicant's legal status and whether or not a Social 
Security Number is already in use by somebody else through the 
Department of Homeland Security and Social Security Administration. We 
must also enforce strict standards for what documents can be used and 
accepted for employment purposes.
    I have heard from many constituents that there is a shortage of 
labor in many agricultural sectors. And I have also heard from these 
very same constituents their abhorrence to employ illegal aliens. They 
have rightly pointed out that fewer illegal aliens would be applying 
for jobs in the United States if we successfully secured the border, so 
accomplishing that is certainly an important part of the equation.
    My only question to our witnesses today is what should we be doing 
in Congress to make sure workers in the agricultural sector are 
verifiable, eligible, and legal?
    Thanks again for holding this timely hearing, and I look forward to 
working with the Committee, the Executive Branch, and today's witnesses 
to develop a program to do just that.
                                 ______
                                 
       Prepared Statement of Hon. John R. ``Randy'' Kuhl, Jr., a 
                Representative in Congress From New York
    Mr. Chairman--I would like to offer an opening statement. Thank you 
Mr. Chairman.
    I rise today to address a serious issue that has steadily escalated 
in our Congressional districts over the last few months: the debate 
over immigration reform. While I recognize the importance of border 
security, and am a supporter of border security bills, we cannot 
sacrifice the needs of our farm community. At this time, it is 
imperative that we establish reasonable and effective farm worker 
programs in order to sustain our agricultural vitality.
    In an agriculture and tourism rich district, such as the 29th 
Congressional District in New York, many businesses depend on temporary 
migrant workers. There are over: 6,000 farms in my district alone, 
covering over 1.2 million acres and employing thousands of workers. New 
York State ranks third in the nation in dairy production, wine, and 
juice grape production. New York State also produces a variety of 
specialty crops, livestock, fruits and vegetables, as well as 
traditional row crops including hay, soybeans, corn, oats and wheat. 
Without workers, our farm community will close its doors, which we 
cannot allow to happen.
    The Farm Credit Associations of New York, the largest lenders to 
New York State agriculture, recently released a statement describing 
how the unprecedented and aggressive enforcement of U.S. immigration 
laws is hurting farmers in New York State. In the statement, the 
lenders said, ``Over the past months, the Immigration and Customs 
Enforcement agency raids attempting to identify illegal immigrants have 
been conducted on a number of New York farms. In some cases, farmers 
have been unable to harvest or market crops as a result of these 
disruptions.'' The lenders further state, ``If this continues, we 
conservatively estimate that New York State will lose in excess of 900 
farms, $195 million in value of agricultural production and over 
200,000 acres in production in agriculture over the next 24 months.''
    I have spoken to many farmers in my district over the past months 
on immigration, and rest assured, I know the critical importance of 
this issue to agriculture industry. I have worked for my entire career 
in public life to do all that I can to support the agricultural 
industry in New York, and I will absolutely support legislation that 
allows an available agricultural workforce while ensuring that our 
national security is also improved through appropriate controls. We 
must put everything on the table and move forward in a manner that does 
not harm the strength of the farm community. It is time that we, as 
Members of Congress, work together to find a real solution to the 
problem of illegal immigration.
    As a strong proponent of meaningful border security measures, I 
believe a non-amnesty agricultural guest worker program should be 
discussed, debated, and enacted. Such a proposal should reasonably 
address immigration reform in a way that protects our citizens while 
acknowledging the important economic contribution of these temporary 
workers.
    I look forward to working with the Committee as this process 
continues, and believe that we can establish an available agricultural 
workforce without compromising our national security.
    I would also like to submit into the Committee record a document 
prepared by the New York Farm Bureau entitled ``Farm Labor Crisis: A 
New York State Perspective,'' * which demonstrates the importance of 
immigration reform in New York.
---------------------------------------------------------------------------
    * The information referred to is at the end of the hearing on p. 
119.
---------------------------------------------------------------------------
    Thank you, Mr. Chairman; I yield back the balance of my time.
                                 ______
                                 
 Prepared Statement of Hon. Adrian Smith, a Representative in Congress 
                             From Nebraska
    Good morning. I would like to thank Chairman Peterson for holding 
today's hearing on an issue of great concern in my district.
    This hearing provides us the opportunity to address some of the 
challenges agriculture producers face in meeting their workforce needs.
    Our goal in this Committee today is to address employers' concerns 
in obtaining and maintaining a legal workforce. Agriculture producers, 
as with other employers, must have a stable and reliable workforce in 
order to produce safe products and be competitive in global markets. It 
is both untenable and irresponsible for Congress to abdicate its duties 
and instead make employers and business owners the sole source of 
enforcement of our immigration laws.
    I have long called for a comprehensive immigration plan which 
targets this problem at its source--the border--rather than in our 
fields and factories.
    Therefore, as this Congress addresses the issues of immigration 
reform and workforce needs, we must work to enforce our borders and 
address the H-2A visa program to remove future uncertainties for 
employers.
    Mr. Chairman, I thank you for your leadership in holding this 
hearing and I look forward to hearing from the witnesses.
                                 ______
                                 
 Prepared Statement of Hon. Tim Walberg, a Representative in Congress 
                             From Michigan
    While it looks like the once red-hot immigration debate may have 
cooled in Congress, immigration issues continue to affect most 
Americans, especially in the agriculture community, every day.
    This is especially true for the farmers of south-central Michigan. 
Earlier this year I conducted a seven county, 2 day listening tour with 
members of the agriculture community in south-central Michigan, and I 
heard from multiple folks about how the immigration issue affects them 
each day.
    As we consider the issue of immigration and how it relates to 
agriculture policy, it is important to first look to our past.
    The United States is a nation of immigrants and was founded on 
ideals that honor this tradition. For generations, freedom-loving 
people from around the world have come to America to make a better life 
for themselves and their families.
    Immigrants wanting to join our citizenry should be encouraged and 
assisted in doing so the same way millions of immigrants have legally 
done so for generations.
    Though the tenacity of individuals who immigrate to our nation is 
admirable, the government has a duty to secure our borders and ensure 
that those coming to our country do so legally. The U.S. Immigration 
and Customs Enforcement agency estimates that around 500,000 illegal 
immigrants enter the United States every year.
    Illegal immigration poses an unacceptable threat to our national 
security and must not be allowed to continue. It is my belief that any 
and all attempts to enact immigration reform must not include amnesty 
for illegal immigrants.
    However, merely opposing amnesty for illegal immigrants is not 
sufficient, especially if we want many of our local farms to survive. 
Throughout Capitol Hill debates on immigration and the farm bill this 
year, I have consistently stated that our country needs a work permit 
program that meets the evolving needs of today's agriculture industry.
    One of biggest problems in today's immigration system is 
bureaucratic red-tape for agriculture employees. The current H-2A 
program does not assist the average apple, dairy or corn farmer.
    The H-2A program is also not fair in comparison to the H-2B 
program. Although these two programs are very similar, the H-2A program 
requires more funding and paperwork, adversely impacting employers who 
rely upon this program.
    Agriculture has traditionally been in the forefront of this debate, 
but we must not forget that landscaping, construction, tourism and 
other industries employing temporary workers have also been impacted by 
the bureaucratic red-tape plaguing these programs.
    While we all agree there is a major need for immigration reform in 
the United States, this reform needs to ensure the security and economy 
of our nation is protected.
    If we can deny amnesty to illegal immigrants and eliminate the 
massive amount of inefficient bureaucracy in today's immigration 
system, we can successfully establish a work permit program that meets 
the evolving needs of today's agriculture industry.

    The Chairman. We are pleased to welcome the first panel, 
Dr. James Holt from Washington, D.C.; Mr. Bob Stallman, 
President of the American Farm Bureau Federation; Mr. Lee 
Wicker, Deputy Director, North Carolina Growers Association; 
Mr. Scott Herring, Executive Vice President and CEO of Farm 
Credit of Western New York; Mr. Bruce Goldstein, Executive 
Director, Farmworker Justice; and Mr. Mike Brown, Senior Vice 
President for Legislative Affairs, AMI.
    We have votes coming up. Five of them are 5 minute votes, 
so I guess we are talking about a little over a half hour or 45 
minutes. So I would recognize the first witness, and then we 
will probably have to take a break, and we will resume as soon 
as the votes are completed. So, Mr. Holt, welcome to the 
Committee.

        STATEMENT OF JAMES S. HOLT, Ph.D., PRESIDENT AND
    PRINCIPAL, JAMES S. HOLT & CO., LLC; AGRICULTURAL LABOR 
                  ECONOMIST, WASHINGTON, D.C.

    Dr. Holt. Thank you, Mr. Chairman, for the invitation to 
provide testimony for this hearing on the labor needs of U.S. 
agriculture, and, yes, I am going to follow the word ``labor'' 
with ``crisis.''
    The U.S. agricultural industry is in the midst of a labor 
crisis, and let me cite just a few statistics to illustrate it. 
More than 55,000 U.S. farmers hire labor and pay an estimated 
payroll of $21 billion. The cost of hired labor accounts for $1 
of every $8 of farm production expenses on average and 
significantly more in the labor intensive fruit, vegetable, and 
horticultural sectors.
    The more than three million agricultural jobs each year are 
filled by an estimated 2.5 million hired farm workers. Seventy-
eight percent of the U.S. seasonal agricultural workforce are 
foreign born. The U.S. Department of Labor documents that at 
least 53 percent of U.S. seasonal agricultural workers are not 
legally entitled to work in the United States. The actual 
percentage is much higher.
    One of every six seasonal agricultural workers is new to 
the U.S. hired agricultural workforce each year, and an 
astonishing 99 percent of those workers report they are not 
legally entitled to work in the United States. Forty percent of 
the U.S. seasonal agricultural workforce are international 
migrants who reenter the country each year to perform 
agricultural work.
    This system is no longer tenable. The reason for the U.S. 
agricultural labor crisis is that for more than 2 decades, 
economic growth and job creation in the U.S. have outpaced the 
expansion of the U.S. labor force through natural birth and 
legal immigration. There are now literally millions more jobs 
in our economy than there are American workers, natural born or 
legally admitted, to fill them.
    Not surprisingly, the legal workers have gravitated to the 
more attractive, easier, more permanent, more skilled jobs 
close to their urban home and environment. Seasonal jobs, 
manual jobs, rural jobs have suffered. In no industry has the 
impact been greater than in agriculture, which is largely 
seasonal, manual, and rural.
    The proportion of seasonal agricultural workers who are 
illegal has grown steadily for the past 2 decades, in spite of 
the fact that wage rates in agriculture have grown more rapidly 
than in non-agricultural wages. The average hourly wage for 
U.S. field and livestock workers in the United States is now 
$9.44 an hour.
    No informed person seriously contends that wages, benefits, 
and working conditions in seasonal agricultural work can be 
raised sufficiently to attract workers away from their 
permanent, non-agricultural jobs, and the numbers needed to 
replace the illegal alien agricultural workforce and maintain 
the economic competitiveness of producers. U.S. growers are in 
economic competition with foreign growers in both U.S. domestic 
and global agricultural markets.
    If there is upward pressure on U.S. producers' production 
costs from, for example, a shortage of labor, some domestic 
production will become uncompetitive, and farmers will be 
forced out of business. This adjustment will continue until the 
competition for the remaining supply of labor has diminished to 
the point where there is no longer upward pressure on farm 
production costs.
    Given the huge proportion of illegal workers in the current 
farm workforce, the downward adjustment in domestic 
agricultural production that would have to take place to clear 
the market of alien workers in agriculture is immense. 
Consumers will likely feel little impact from this adjustment 
because farm producers will quickly feel the void left by 
domestic producers.
    However, domestic workers in the upstream and downstream 
jobs will be heavily impacted, as will farmers. There are about 
3.1 such upstream and downstream non-agricultural jobs that are 
dependent on U.S. agricultural production. And many of these 
will disappear.
    Of even greater concern is that the U.S. will be 
substantially more dependent on foreign suppliers for our food 
and fiber. The only current program for legally employing 
foreign workers in the United States is the H-2A Temporary 
Agricultural Worker Program. Even though the H-2A Program has 
grown substantially in the past few years, it still accounts 
for a miniscule proportion of agricultural employment. Fewer 
than 2 percent of U.S. agricultural job opportunities and 
barely 1 percent of U.S. farmers are H-2A certified.
    In short, we currently have two agricultural guest worker 
programs operating in this country. A legal guest worker 
program that fills a miniscule 2 percent of agricultural jobs 
and an illegal guest worker program that fills at least half 
and likely more than \3/4\ of U.S. agricultural jobs.
    The nation's agricultural labor policy is in desperate need 
of reform. Reforms are needed in both the administration of the 
H-2A Program, the H-2A regulations, and the nation's basic 
agricultural immigration statutes. Congress has had before it 
for more than 6 years the Agricultural Job Opportunities and 
Benefits Act. AgJOBS represents an historic milestone in that 
it has brought together agricultural organizations, farm worker 
advocacy organizations, farm worker unions, ethnic groups, 
religious organizations that have historically battled over 
agricultural labor and guest worker policies.
    AgJOBS is a serious, well thought-out, well balanced 
response to the nation's agricultural labor crisis and has the 
support of the overwhelming majority of the agricultural 
organizations nationwide.
    The Administration also has before it an agenda of 
proposals for administrative and procedural streamlining of the 
H-2A Program offered in response to the promulgation of the 
Society Security mismatch regulations. These administrative 
reforms are urgently needed. They are not a substitute for 
legislative action. It is clear that the status quo , a U.S. 
agricultural industry almost completely dependent on 
unauthorized workers who have entered the U.S. illegally is 
untenable.
    It is equally clear the ceding U.S. production of food and 
fiber to foreign producers is untenable. Congress and the 
Administration have ignored this problem for far too long. The 
time to act is now. Thank you, Mr. Chairman.
    [The prepared statement of Dr. Holt follows:]

 Prepared Statement of James S. Holt, Ph.D., President and Principal, 
  James S. Holt & Co., LLC; Agricultural Labor Economist, Washington, 
                                  D.C.
    Mr. Chairman, thank you for the invitation to provide testimony for 
this hearing.
    I am an agricultural labor economist. I was a Professor of 
Agricultural Economics and Farm Management at The Pennsylvania State 
University for 16 years. For the past 30 years I have conducted 
research, consulted and lectured on agricultural labor and human 
resource management, immigration and employment issues, and the H-2A 
temporary agricultural worker program for government agencies, 
universities and private organizations. I have been a consultant to 
many grower associations, individual farming operations and other 
employers throughout the United States using the H-2A program, and to 
national agricultural organizations, including the National Council of 
Agricultural Employers (NCAE). However, I am not representing any 
specific organization here today.
    I do not speak lightly, nor engage in hyperbole, when I testify 
today that the U.S. agricultural industry is in the midst of a labor 
crises, the resolution of which will determine whether U.S. producers 
of fruits, vegetables, and horticultural and other specialty 
commodities are more than marginal participants in U.S. and global 
markets for the commodities they produce in future decades. The current 
agricultural labor crisis will also have a profound impact on the U.S. 
dairy and sheep industries, U.S. grain producers, the agricultural 
processing sector, and many other agricultural operations. It will also 
largely determine the future of the domestic upstream and downstream 
businesses that service these sectors.
    The labor intensive fruit, vegetable and horticultural sectors are 
already overwhelmingly dependent on foreign workers, the majority of 
whom are working in the U.S. illegally. The U.S. dairy, meat packing, 
and food processing sectors are significantly dependent on a foreign, 
and preponderantly illegal, workforce and becoming more so every year. 
U.S. custom combine operators who harvest the great plains grain crops, 
and sheep producers in the western states, are heavily dependent on 
foreign workers obtained through the nearly dysfunctional H-2A program. 
The labor problems of U.S. agriculture have been ignored and swept 
under the rug for decades, only to become more problematical with each 
passing year. At a minimum, several hundred thousand new farm workers 
have illegally entered the United States to work on U.S. farms, and 
fill the jobs vacated several hundred thousand illegally present farm 
workers who have moved into the non-farm workforce since the Members of 
this Committee were last elected or re-elected. The public is now 
insisting, and our national security demands, that our government and 
the Congress squarely face and resolve this problem. How you resolve it 
will determine the future of important sectors of U.S. agriculture.
Hired Farm Employment and the U.S. Hired Farm Work Force
    Hired labor is an essential input in U.S. agriculture. More than 
550,000 U.S. farmers hire workers to fill more than three million 
agricultural jobs each year. The farms that hire labor are the backbone 
of American agriculture, accounting for the overwhelming majority of 
U.S. agricultural production.
    Farmers pay an annual payroll estimated at $21 billion. Expenses 
for hired and contract labor account, on average, for $1 of every $8 of 
farm production expenses, and up to $1 of every $3 or more of farm 
production expenses on farms in the labor intensive fruit, vegetable 
and horticultural sectors.
    Because a high proportion of U.S. agricultural jobs are seasonal, 
the three million U.S. agricultural jobs each year are filled by a 
hired farm workforce of about 2.5 million persons. About 1.6 million of 
these are non-casual hired farm workers who perform more than 25 days 
of hired farm work a year. Approximately 1.2 million of the non-casual 
hired farm workforce are likely not authorized to work in the U.S.
    The fact that the U.S. hired farm workforce is overwhelmingly 
illegal is not speculative, it is well documented. Ironically, 
agriculture is the one sector of the U.S. workforce for which the 
Federal Government actually produces official statistics on illegal 
alien employment. These come from the National Agricultural Worker 
Survey (NAWS), a survey program begun after the enactment of the 
Immigration Reform and Control Act of 1986, and conducted biannually by 
the U.S. Department of Labor Among other questions, the survey asks 
seasonal agricultural workers whether they are authorized to work in 
the United States. In the first survey, conducted in FY 1989, 7% of 
U.S. seasonal agricultural workers said they were unauthorized. By FY 
1990-1991 the figure was 16%. By FY 1992-1993 it was 28%. By FY 1994-
1995 it was 37%. In the most recently published NAWS survey, 53 percent 
of all seasonal agricultural workers admitted they were not authorized 
to work in the U.S.  Experience on the ground, based on work place 
audits and other evidence, suggests that closer to 75 percent of U.S. 
farm workers are not legally entitled to work in the U.S.
    Even more significant for the future is that \1/6\ of seasonal 
agricultural workers are ``newcomers'', working their first season in 
U.S. agriculture. An astonishing 99 percent of these newcomers self-
identify that they are not authorized to work in the U.S. This means 
that for all practical purposes every new worker entering the U.S. 
hired crop workforce is illegal. The NAWS does not survey livestock 
workers, and the percentage of illegal workers and replacements may be 
somewhat lower than in the crop sector. However, it would be a huge 
mistake to assume that illegal workers are not a large and rapidly 
growing proportion of the hired workforce in the livestock sector as 
well. Dairying, in particular, is heavily dependent on foreign born, 
and likely preponderantly illegal, workers.
    Social Security Administration No-Match statistics also document 
the high level of illegal alien employment in agriculture. Agriculture, 
which accounts for only 1.2 percent of U.S. employment, accounts for 17 
percent of all Social Security no-matches, more than any other sector 
of the U.S. labor force.
    Some commentators blame U.S. agriculture for not attracting and 
retaining a legal U.S. workforce. I believe that is misplaced blame. 
The decade of the 1990's was a period of unprecedented economic growth 
and job creation in the U.S. But it was also a decade when the rate of 
growth in the native-born U.S. workforce continued to slow, and the 
number of new labor force entrants from the native born population and 
legally admitted foreign workers was far below the rate of new job 
creation. At the beginning of the decade, 31% of the U.S. seasonal 
agricultural workforce was still U.S. born. By the end of the decade, 
only 19% was U.S. born. During the decade of the 1990's the real hourly 
wage rate in agriculture increased at a more rapid rate than for the 
non-agricultural workforce. But the lure of year round work, easier 
jobs and more pleasant working conditions in most non-agricultural 
employment was obviously enough to attract many U.S. workers out of 
agriculture, even into jobs in which the nominal hourly wage was lower 
than in agriculture. By the FY 1997-1998 NAWS survey, 81% of U.S. 
seasonal agricultural workers were foreign born and 77% were born in 
Mexico. One-third had immigrated to the U.S. within the last 2 years. 
More than \1/3\ were under the age of 25, and \2/3\ were under the age 
of 35.
    The U.S. seasonal agricultural workforce is a very diverse 
workforce in many respects. One of the respects in which it is diverse 
is in its international migratory status. About 40% of U.S. seasonal 
agricultural workers are international migrants whose permanent 
residence is outside the United States and who come into the U.S. 
temporarily to perform agricultural work. This workforce is 
preponderantly young, single and illegal. The other 60% of the seasonal 
agricultural workforce are permanent residents of the U.S. This group 
includes most U.S. born farm workers, but is also majority foreign born 
and majority illegal. Over-all, only \1/2\ of the U.S. seasonal 
agricultural workforce are married, and only \1/4\ have children with 
whom they reside in the U.S.
    Agricultural migrancy within the U.S. is the exception rather than 
the rule. Almost \2/3\ of U.S. seasonal agricultural workers hold only 
one farm job in the U.S. during the year, and more than 90% hold three 
or fewer jobs per year. Only 1% hold as many as six different 
agricultural jobs during the year. Only 17% are what are traditional 
``follow-the-crop'' migrants, who hold two or more agricultural jobs 
during the year which are more than 75 miles apart and are more than 75 
miles from their residence.
The Impact of Immigration Policy on Agriculture
    Now let us relate this to immigration policy.
    Economic growth in the United States (or any other country in the 
world) is determined by two factors, growth in the labor force--the 
number of persons who are engaged in producing goods and services--and 
growth in productivity--the quantity of goods and services each worker 
produces each hour and each day they work. The story of how the United 
States has become the economic engine of the world is largely the story 
of an expanding labor force coupled with phenomenal improvements in 
worker productivity. Although often overlooked or taken for granted in 
this story, the phenomenal growth in U.S. agricultural productivity has 
been a critical contributor to U.S. economic growth. It has enabled an 
ever larger proportion of the U.S. labor force to engage in the 
production of other goods and services rather than food and fiber, to 
the point where less than 2 percent of the U.S. labor force is now 
engaged in agriculture.
    Immigration has also been an important historical factor in the 
nation's economic growth. It has enabled the expansion of the U.S. 
labor force far more rapidly than would have occurred through normal 
reproduction by the native born population. Imagine, for example, that 
we had stopped immigration in 1776 and relied only on natural birth 
after that, or that we had closed our borders in 1812, or 1865, or 
1910, or even 1950.
    Immigration is even more important to sustaining U.S. economic 
growth today than it was in any of those past periods. That is because, 
like Japan and Western Europe before us, and increasingly even Mexico, 
China, India, and second world countries, the birth rate of native born 
Americans is declining. In some developed countries birth rates have 
declined to the point where they are not even replacing, much less 
expanding, the labor force. It is important that we understand that 
even in the U.S. we long ago passed the point where we were producing 
enough native born workers to fill all the new jobs being created in 
the U.S. economy. In fact, we long ago passed the point where we were 
producing enough native born workers AND legally admitting enough 
aliens, to fill all of the jobs we were creating in the U.S.
    When I hear people say illegal aliens only take the jobs Americans 
won't do, I say that is a result, not a cause. Illegal aliens take the 
jobs there aren't enough American workers to fill. There are literally 
millions more JOBS in our economy than there are American workers to 
fill them, even if we include in the term ``American worker'' every 
person who is legally entitled to work in the United States, whether 
they were born here or not. Given this huge imbalance between jobs and 
workers, it is not surprising that American workers gravitate to the 
more attractive jobs, leaving the less attractive ones to be filled by 
illegal immigrants.
    The reality is that the U.S. is dependent on illegal immigration 
for economic growth, and growing more so by the year. The rate of 
growth in the native born labor force continues to decline, and could 
become negative as it already has in some developed economies. The only 
way we can sustain our current level of economic activity, much less 
expand it, is through in-migration of alien workers. That is why Alan 
Greenspan was so concerned about immigration policy while he was 
Chairman of the Federal Reserve. Job creation is one of the most 
important engines of economic growth. But job creation can not occur if 
there are not workers to fill the jobs. The economic slow down after 9/
11 provided a window on the importance of immigration to the national 
economy. One of the most important contributors to that slow down was a 
temporary reduction in both legal and illegal immigration, coupled with 
a small exodus of foreign workers already here, because some foreign 
workers were afraid to be in the United States.
    Imagine, therefore, what the economic impact of really effective 
border control that stopped illegal immigration would be. And then 
imagine, if you dare, what the economic impact would be of removing 
from the workforce, through effective work place enforcement or 
otherwise, the illegal workers who are already here.
    Some suggest that such a scenario would be a good thing. According 
to this view, agricultural employers should be left to ``compete in the 
labor market just like other employers have to do.'' Under this 
scenario, there would be strict workplace enforcement and no guest 
workers. To secure legal workers and remain in business, agricultural 
employers would have to attract sufficient workers away from competing 
non-agricultural employers by raising wages and benefits. Those who 
were unwilling or unable to do so would have to go out of business or 
move their production outside the United States. Meanwhile, according 
to this scenario, the domestic workers remaining in farm work would 
enjoy higher wages and improved working conditions.
    No informed person seriously contends that wages, benefits and 
working conditions in seasonal agricultural work can be raised 
sufficiently to attract workers away from their permanent 
nonagricultural jobs in the numbers needed to replace the illegal alien 
agricultural workforce and maintain the economic competitiveness of 
U.S. producers. With hired labor accounting, on average, for 12 percent 
of all farm production costs, a substantial increase in wage and/or 
benefit costs will have a substantial impact on growers' over-all 
production costs. U.S. growers are economically competitive with 
foreign producers at approximately current production costs. If U.S. 
producers' production costs are forced up by, for example, restricting 
the supply of labor, some U.S. production will become uncompetitive in 
the foreign and domestic markets in which U.S. and foreign producers 
compete. U.S. producers will be forced out of business until the 
competition for domestic farm workers has diminished to the point where 
the remaining U.S. producers' production costs are again at global 
equilibrium levels. The end result of this process will be that 
domestic farm worker wages and working conditions (and the production 
costs of surviving producers) will be at approximately current levels, 
while the volume of domestic production will have declined sufficiently 
that there is no longer upward pressure on domestic farm worker wages. 
Given the large proportion of illegal workers in the current farm labor 
market, the reduction in domestic production is likely to have to be 
very substantial to clear the labor force of illegal workers. Consumers 
will likely feel little impact, because the market share abandoned by 
U.S. producers will be quickly filled by foreign production.
    The domestic employment impacts of this adjustment will not be 
limited to alien farm workers and U.S. farmers. Since agricultural 
production is tied to the land, the labor intensive functions of the 
agricultural production process cannot be foreign-sourced without 
foreign-sourcing the entire production process. We cannot, for example, 
send the harvesting process or the thinning process overseas. Either 
the product is entirely grown, harvested, transported and in many cases 
initially processed in the United States, or all of these functions are 
done somewhere else, even though only one or two steps in the 
production process may be highly labor intensive. When the product is 
grown, harvested, transported and processed somewhere else, all the 
jobs associated with these functions are exported, not just the 
seasonal field jobs. These include the so-called ``upstream'' and 
``downstream'' jobs that support, and are created by, the growing of 
agricultural products. U.S. Department of Agriculture studies indicate 
that there are about 3.1 such upstream and downstream jobs for every 
on-farm job. Most of these upstream and downstream jobs are ``good'' 
jobs, i.e. permanent, average or better paying jobs held by citizens 
and permanent residents. Thus, we would be exporting about three times 
as many jobs of U.S. citizens and permanent residents as we would farm 
jobs filled by aliens if we restrict access to alien agricultural 
workers.
    The U.S. farm workers and workers in upstream and downstream jobs 
that would be displaced by the elimination of the alien farm labor 
supply would presumably be absorbed into the non-agricultural economy, 
which would be hungry for domestic workers to replace the foreign 
workers to whom they no longer had access. But the total volume of U.S. 
economic activity (and GDP) would have been reduced. And the U.S. would 
be substantially more dependent on foreign suppliers for food.
Background on the H-2A Temporary Agricultural Worker Program
    The only current program for legally employing foreign agricultural 
workers in the United States is the H-2A temporary agricultural worker 
program. This program was enacted 55 years ago as a part of the 
Immigration and Nationality Act of 1952. From 1952 until 1986, there 
was no statutory distinction between temporary agricultural and non-
agricultural workers--both entered under the ``H-2'' program. However, 
almost from the outset the Department of Labor promulgated separate 
regulations governing the requirements for H-2 agricultural and non-
agricultural programs, and this distinction was recognized statutorily 
in the division of the H-2 admission category into H-2A and H-2B in the 
Immigration Reform and Control Act of 1986.
    From 1970 through the late 1990's the number of H-2 and H-2A 
agricultural job opportunities certified fluctuated from about 15,000 
to 25,000 annually. In the past decade usage has increased 
substantially, with 59,112 H-2A agricultural job opportunities 
certified in FY 2006. Many alien workers fill two or more H-2A 
certified job opportunities within the same season, so only about half 
as many individual H-2A aliens are admitted each year as the number of 
job opportunities which are H-2A certified.
    Despite its recent dramatic growth, use of the H-2A program is 
miniscule in comparison with U.S. agricultural employment. Fewer than 2 
percent of the three million U.S. agricultural job opportunities are H-
2A certified, and only about 1 percent of the hired farm workforce are 
H-2A aliens.
    The above statistics underscore that we currently have two 
agricultural guest worker programs operating in this country--a legal 
guest worker program that fills a miniscule 2 percent of U.S. 
agricultural jobs, and an illegal guest worker program that fills at 
least half, and likely more than \3/4\, of U.S. agricultural jobs. This 
situation exists as a result of a cascade of failures--failure of our 
border control system, failure of our system for interior enforcement, 
failure of our work authorization documentation procedures, failure of 
our immigration laws to address realistic labor force needs, and the 
Labor Department's antagonistic administration of the H-2A program.
Benefits and Problems of the H-2A Program
    A legal, workable agricultural guest worker program benefits 
farmers, alien farm workers, domestic farm workers, and the nation.
    It benefits farmers by providing assurance of an adequate supply of 
seasonal workers at known terms and conditions of employment. In an 
industry where more than 80 percent of jobs are seasonal, and a 
workforce must be reassembled at the beginning of every season, it 
provides assurance that when farmers and their families invest millions 
in farm production assets, there will be a labor force to perform the 
work. It also promotes continuity, stability and productivity in 
agriculture. While there are no official statistics, anecdotal evidence 
is that \3/4\ or more of the H-2A workforce in any given year are 
returning workers, and H-2A employers almost universally find that this 
stable, experienced workforce is more productive, and employers can get 
by with fewer workers than when they are recruiting a new, 
inexperienced workforce every year.
    A workable guest worker program benefits alien workers by providing 
a legal, regulated way for aliens to work in the United States in jobs 
where their services are needed. It may surprise Members of the 
Committee to learn that the pressure on employers to participate in the 
H-2A program often comes from their illegal workers, who pay exorbitant 
costs to be smuggled into the U.S., often under life threatening 
conditions, and face fear and abuse while they are here. As H-2A guest 
workers, they enter legally and work with rights and guarantees. Not 
withstanding the allegations of opponents of the program, H-2A aliens 
value their jobs, are careful to comply with program requirements, and 
return as legal workers year after year. In the words of one former 
illegal alien whose employer got into the H-2A program, ``I thank God 
every day for the H-2A program''.
    The program also benefits domestic farm workers. It assures open 
recruitment for and access to H-2A certified job opportunities for 
local and non-local domestic workers who want such work. It assures 
that U.S. workers have preference in these jobs, even if they are 
already filled by aliens. It provides labor standards and employment 
guarantees that are above the norms for most agricultural jobs and for 
many rural non-agricultural jobs. Equally important, the H-2A program 
assures the viability of the jobs of U.S. workers in the upstream and 
downstream jobs that are dependent on agricultural production in the 
U.S.
    An adequate supply of legal labor also benefits the nation. Food 
and fiber are basic commodities. It is not in our national interest to 
be significantly dependent on foreign sources for such commodities. 
However, it is also clearly not in our national interest to have such a 
basic industry as food and fiber production almost entirely dependent 
on a workforce which has entered the U.S. and is living and working 
here illegally and without control. In a mature economy like that of 
the U.S., where the native born workforce is growing at a substantially 
lower rate than job growth, our only policy options are a workable 
agricultural guest worker program or dependence on foreign producers 
for our food and fiber.
    That is what works about the H-2A program. What often doesn't work 
are the cumbersome, bureaucratic procedures of the program. Farmers 
seeking to use the program must first apply for a labor certification 
from the U.S. Department of Labor and attempt to recruit qualified U.S. 
workers. If the employer's application meets the requirements of the 
Department of Labor and sufficient U.S. workers cannot be found, a 
labor certification is issued. The employer then files a petition with 
the U.S. Citizenship and Immigration Service (USCIS) for the admission 
of H-2A aliens. Meanwhile, a supply of alien workers must be recruited. 
If the employer's petition is granted, it is transmitted to the U.S. 
consulate where the aliens will apply for visas. The aliens complete 
visa applications and are interviewed. They must meet the same criteria 
as any other applicant for a non-immigrant visa. The aliens who are 
granted visas then travel to the port of entry and apply for admission 
to the U.S. Those who are admitted travel to the employer's farm. In 
order for workers to arrive at the by the employer's date of need, this 
entire process must take place in 45 days. Once the workers arrive, H-
2A employers face a barrage of compliance monitoring and enforcement 
officers, outreach workers, social service agencies and legal service 
activists. Nowhere else are so few monitored by so many. Lawsuits are 
commonplace.
    Many employers are daunted by the imposing H-2A administrative 
processes, and simply never try to use the program. Those who do use it 
must navigate a gauntlet of obstacles. Not withstanding statutory 
performance deadlines, H-2A labor certifications are often issued late 
and after interminable haggling over the wording of application 
documents. The problem of late labor certifications is compounded by 
processing delays in approving petitions at the Department of Homeland 
Security and in securing appointments for visa applicants at U.S. 
consulates. During the 2007 season, the arrival of many H-2A workers 
was seriously delayed, imposing substantial costs and potential losses 
on employers who are paying a premium to do things right and comply 
with the law. Even brief delays in the arrival of workers can be 
disastrous to producers of perishable agricultural commodities.
    The H-2A certification process is also unnecessarily complicated. 
Even though 97.5 percent of H-2A labor certification applications, and 
92 percent of the job opportunities on those applications, were 
certified in FY 2006, it nevertheless required an extremely labor 
intensive, paper intensive process for individually processing, 
recruiting on and adjudicating every single one of the 6,717 H-2A 
applications certified. This process is repeated annually, not 
withstanding the fact that approval rates have been in the 90 percent 
range for decades, and the availability of legal U.S. workers as a 
percentage of the need has been in single digits. This repetitious and 
labor intensive process for demonstrating annually that there are not 
sufficient able, willing and qualified eligible (i.e. legal) workers to 
take the jobs offered for each and every application, even when the 
same labor market is tested multiple times a week and month for 
identical job opportunities, and when the USDOL's own statistics show 
that more than half of the domestic agricultural workforce is illegal, 
is government bureaucracy at its worst.
The Need for Reform
    The nation's agricultural labor policy is in desperate need of 
reform. Reforms are needed in the administration of the H-2A program, 
the H-2A regulations, and the nation's basic agricultural immigration 
statutes.
    In August of this year the Administration announced its intent to 
incorporate Social Security No-Match information into its strategy for 
immigration enforcement, and the rules employers would be expected to 
follow upon receipt of No-Match notifications in order to protect 
themselves from charges of knowing hiring or continued employment of 
illegal workers. In recognition of the impact the No-Match regulation 
was likely to have on agriculture, the Administration also promised to 
make every effort to reform the H-2A administrative procedures and 
regulations in order to make it as useable an option as possible for 
agricultural employers to meet their needs for adequate legal labor.
    The National Council of Agricultural Employers has presented the 
Administration with a list of more than three dozen administrative and 
regulatory actions that need to be taken to remove obstacles and 
bottlenecks in the H-2A program and make it reasonably cost competitive 
for potential users. I understand that the NCAE is filing these letters 
with the Committee in a written statement for the record, and I will 
not reiterate them here. Suffice it to say here that the labor 
certification process, in particular, is predicated on woefully 
outdated assumptions with respect to the demographics of the U.S. 
agricultural workforce and labor supply and U.S. agricultural labor 
markets. This is compounded by a culture of hostility toward the 
program and program users within the Department of Labor. The H-2A 
petition adjudication and visa issuance processes are bogged down by 
the shear volume of other work these agencies are mandated to perform.
    Unless the No-Match regulation is blocked by the courts, it will 
begin having an immediate impact on agriculture in the southern growing 
areas this winter, and its effects will quickly march northward with 
the 2008 growing season. It is imperative that the Administration make 
a good faith effort to quickly implement the administrative reforms, 
and immediately begin work on regulatory reform. However, it is also 
imperative that Congress realize that administrative and regulatory 
reform of the H-2A program is not enough. Many of the most important 
long term reforms of our broken agricultural labor system can only be 
made statutorily. The responsibility for these statutory reforms lies 
squarely with the Congress.
The Agricultural Job Opportunities and Benefits Act (AgJOBS)
    In 2001 agricultural employers and farm worker advocates and unions 
achieved an historic milestone in negotiating an H-2A reform 
legislation package known as the Agricultural Job Opportunities and 
Benefits Act, or AgJOBS. AgJOBS has broad bipartisan support in 
Congress as well as among ethnic groups, religious groups, and farm 
worker and agricultural organizations that have historically battled 
over agricultural guest worker policy and procedures. It is intended to 
address many of the economic, justice and administrative problems with 
the current H-2A program.
    AgJOBS reforms the administrative structure of the H-2A program to 
make it more efficient and more reliable as a source of timely legal 
labor. It also reforms the conditions for use of the program, making it 
more economically accessible to agricultural employers. It does this in 
a way that protects U.S. farm workers and assures access to 
agricultural jobs for those who want them. It also protects alien farm 
workers. Finally, it addresses the heavy reliance of U.S. agriculture 
on a currently illegal workforce by providing a pathway to adjustment 
of status for illegal farm workers that is humane, and which will not 
cause chaos and disruption in the U.S. agricultural economy.
    It is impossible to overstate the significance of the broad support 
AgJOBS has among historic adversaries. AgJOBS has the support of the 
two major U.S. farm worker unions, the United Farm Workers and the Farm 
Labor Organizing Committee, hundreds of other immigrant advocacy and 
labor advocacy groups, religious organizations, and the overwhelming 
majority of agricultural employer organizations.
Conclusion
    The United States faces a serious economic, labor market and 
security challenge. The demographics of the U.S. population are such 
that we are barely replacing the existing workforce through native born 
workers. We are not coming close to producing enough native born 
workers to meet the requirements of our growing economy. This has been 
true for more than a decade. Yet our legal immigration policies have 
been largely blind to the labor force needs of the economy. As a 
consequence, we now have millions of persons living and working in the 
U.S. illegally. And a good thing for us that this is so. Our economic 
growth over the past decade has been sustained and nourished by our 
failed immigration policies.
    Agriculture has been particularly affected by the shortage of legal 
native born and immigrant workers, for reasons that are obvious on 
their face. With more available jobs than legal workers, the legal 
workers have migrated to the more skilled, year round, more pleasant, 
urban, higher paying jobs. This is not an indictment of U.S. 
agricultural jobs. It is a reflection of the reality that when there 
are more jobs than workers, the less attractive jobs are more likely to 
go unfilled. If these jobs were not critical to our national economy 
and security, this would not necessarily pose a problem. But when they 
are in an industry as critical as the food and fiber sector, it poses a 
serious problem.
    It is clear that the status quo--a U.S. agricultural industry 
almost completely dependent on unauthorized workers who have entered 
the U.S. illegally, is untenable. It is equally clear that ceding U.S. 
production of food and fiber to foreign producers is untenable. 
Congress and the administration have ignored this problem far too long.

    Mr. Holden [presiding.] Thank you, Dr. Holt. And on 
consultation with the Ranking Member, we believe we better 
adjourn now for the votes and return in about 45 minutes. The 
Committee stands adjourned.
    [Recess]
    The Chairman. The Committee will come back to order. Now we 
are pleased to recognize a good friend and somebody who has 
been a real leader on this issue, bringing this forward all 
over the country. Mr. Bob Stallman, the President of the 
American Farm Bureau Federation. Thank you, Bob.

  STATEMENT OF BOB STALLMAN, PRESIDENT, AMERICAN FARM BUREAU 
       FEDERATION; RICE AND CATTLE PRODUCER, COLUMBUS, TX

    Mr. Stallman. Mr. Chairman, Members of the Committee, I am 
a rice and cattle producer from Columbus, Texas and President 
of the American Farm Bureau Federation. And thank you for the 
invitation to testify. This hearing could not come at a more 
crucial time. As I travel around the country, I am constantly 
asked by farmers when is Congress going to fix our labor 
problem. Of course, I can't answer that question, only you can.
    But I am here today to ask you to find an answer and find 
it quickly. Why is that? Today, agriculture hires about one 
million hired workers. It is the highest proportion in our 
history, and it has been that way for nearly 2 decades, but the 
stability of that labor force is now in doubt.
    The U.S. Department of Labor estimates that at least half 
our workers lack authorization. Some people put that figure 
much higher. Demand for workers is tight and growing tighter. A 
significant disruption in the supply of workers will increase 
farmers' costs, put more foreign-grown produce in our 
supermarkets, strengthen our international competitors, weaken 
our nation's food security, and put many farmers out of 
business as they lose their workers or the costs of labor get 
beyond their reach.
    We shouldn't let that happen, and I hope you won't. To 
those who say if you only paid more, we wouldn't have this 
problem, I say look at the facts. We are paying workers more 
today than we ever have. The average hired farm worker wage in 
2005 was $9.50 an hour. With a benefits package, the average 
cost per worker was in the $11 to $12 an hour range. For 
farmers who use the H-2A Program, labor costs are even higher. 
And there are ten million people working in our economy today 
who work for lower wages than they could get working in the 
fields.
    To those who say we turn a blind eye to the law, I say look 
again and see what the law makes us do. Go to the U.S. 
Department of Agriculture website today, and you can read for 
yourself what advice they are giving farmers. To quote from the 
U.S. Government, ``employers with four or more employees are 
prohibited from document abuse. Document abuse occurs when an 
employer requests an employee or applicant to produce a 
specific document or more or different documents than are 
required to establish employment eligibility or rejects valid 
documents that reasonably appear genuine on their face. 
Applicants should not be asked where they were born or whether 
they're legally entitled to work in the United States.''
    Some people say the No-Match rule issued by the Department 
of Homeland Security will fix this. In fact, it won't. The rule 
raises significant concerns. The DHS rule tells an employer 
what he must do if he wants to avoid having DHS charge him with 
knowingly employing an illegal worker. If he follows the DHS 
steps but keeps the employee, the DHS says it may charge him 
with breaking the law. But if he follows those same steps and 
discharges the employee, he can be sued by the employee. And 
DHS says it won't even shield employers from such a result. And 
this type of legal jeopardy is in addition to the threat 
constantly posed by legal services attorneys who dislike the H-
2A Program and are only too ready to take farmers to court.
    We all know the law needs to be changed. Farmers know that. 
We support it. Our nation must secure its borders. We must 
assure that those who are working here are entitled to do so, 
but don't cripple agriculture in the process. Last year, the 
American Farm Bureau Federation released a report, a copy of 
which is attached to our submission, detailing the impact to 
our sector, if we were to lose our current supply of labor.
    Let me highlight just two figures for you. Without a 
stable, legal supply of labor to replace the presence of 
currently unauthorized workers, the fresh fruit and vegetable 
sector could see U.S. production decline by up to $9 billion a 
year. Similarly, an abrupt loss of our labor supply would cause 
net farm income to drop by up to $5 billion annually. We cannot 
let this problem continue.
    Let me outline five suggestions that should frame your 
approach. One, don't make matters worse. The No-Match rule 
issued by DHS has the potential to put farmers in legal 
jeopardy even when they follow the regulation. That is wrong. 
It should not happen.
    Two, do what you can now. The Administration is attempting 
to reform the H-2A Program through regulation to make it more 
efficient, more responsive, and more readily usable by growers 
while protecting the rights of workers. We urge all Members of 
Congress to support this effort.
    Three, face reality. U.S. agriculture depends on migrant 
labor. We all know that. Don't make farmers check boxes and 
jump through meaningless hoops only to get their workers weeks 
after they need them. Expedite the visa process for guest 
workers by using creative solutions. For instance, we have 
suggested an expedited process whereby an appropriate entity in 
a state could certify at the start of the year that an 
agricultural labor deficit exists in that state. Such a 
certification could trigger expedited handling and processing 
of guest workers up to a certain limit.
    Four, take up legislation without delay. We all recognize 
the difficult issues that arise in the immigration debate. 
Ignoring them will not solve them. Any legislation solution for 
agriculture must be a fair, balanced approach that does provide 
an opportunity for current workers in agriculture to legalize 
their status while laying the foundation for a long-term 
solution. Above all, we do not want a Band-Aid fix that means 
we will have to revisit this issue in a few years.
    And five, don't let state and local governments fill the 
void. Immigration is a national issue. Policy should be set in 
Washington, D.C. The longer the issue is left unresolved, the 
more likely it is that we will see states and localities step 
in to fill that void. We need a national policy with national 
guidelines. Only Congress can give us that.
    Mr. Chairman, Members of the Committee, thank you for 
allowing me to be here today, and I look forward to answering 
questions.
    [The prepared statement of Mr. Stallman follows:]

  Prepared Statement of Bob Stallman, President, American Farm Bureau 
           Federation; Rice and Cattle Producer, Columbus, TX
    My name is Bob Stallman. I am a rice and cattle producer from 
Columbus, Texas and I am president of the American Farm Bureau 
Federation. On behalf of Farm Bureau, the nation's largest general farm 
organization, I want to express my appreciation for the invitation to 
testify this morning on a topic that is on the minds of farmers and 
ranchers across the country--the critical need in agriculture for a 
legal, stable supply of labor.
    This hearing could not come at a more crucial time. I make frequent 
trips around the country, meeting with producers from every facet of 
the agricultural community--dairy producers, fruit and vegetable 
growers, poultry and hog farmers, row croppers, nurserymen and others. 
Because of the nature of agriculture, our labor situation is closely 
linked with the issue of immigration reform. I do not think there is 
any question I get asked more frequently than: When is Congress going 
to fix our labor issues?
    Of course, I can not answer that question. It is one that only the 
Members of this Committee and your colleagues in the House and Senate 
can answer. But I am here today to ask you--to urge you--to find an 
answer. We know it is tough. We respect the fact that Members from both 
sides of the aisle, from all over the country look at the problem 
differently. But all of us need to come together, to work through our 
differences, to appreciate one another's perspective and to find a 
solution that works for our country, for our cities and communities, 
and for our national security and for our economy.
    Nowhere is the problem more acute than in agriculture. In many 
ways, we are on the front lines of this debate. Let me take a moment to 
share with you a few facts--to give you an idea of the reality farmers 
and ranchers face today.
    Periodically, the U.S. Department of Labor conducts a survey--known 
as the National Agricultural Worker Survey, or NAWS--that gives a 
profile of labor in the agricultural sector. In the NAWS report, the 
department stated that in 2001 and 2002, 53 percent of the hired crop 
labor force lacked work authorization. (See Figure 1.) Economists at 
Farm Bureau believe this is probably a lower-bound estimate because the 
figure is based on a response volunteered by individuals to government-
authorized questioners. In other words, it seems reasonable that at 
least some individuals would not, and did not, volunteer the fact that 
they were not legally authorized to work.
Figure 1
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Looking at another government survey, this one from the National 
Agricultural Statistics Service or NASS, which is a part of the U.S. 
Department of Agriculture (USDA), you will get a fuller picture of the 
employment situation in agriculture.
    After almost a century of shedding excess labor to the rest of the 
economy, agricultural labor demand stabilized over the last 20 years at 
about three million workers. (See Figure 2.) This is due to multiple 
factors, such as increased mechanization, the aging of the farm 
operator pool, decreasing farm family size, economic opportunities 
elsewhere in the economy and the continued movement of people off the 
farm. Of the three million workers required to operate the sector, 
approximately two million are drawn from farm families. About one 
million are hired from non-family sources. Thus, pairing NASS labor 
figures and DOL's statistic indicating that at least 50 percent of 
hired workers in agriculture are unauthorized, Farm Bureau estimates 
there are at least 500,000 agricultural workers who lack proper 
authorization.
    This change in the balance between farm labor supply and demand is 
reflected in increased hired worker wages (See Figure 3.) USDA's 
National Agricultural Labor Survey indicates the average hired farm 
worker wage in 1985 was $4.50 per hour. By 2005, the wage had increased 
to $9.50 per hour and included an improved benefits package that pushed 
the average cost up to $11 to $12 an hour. (Please note that wages and 
benefits for H-2A workers are higher.) Compare this with a 2005 minimum 
wage of $5.15 per hour and DOL survey results showing starkly different 
wages in jobs with similar skill requirements, ranging from $6.65 per 
hour for food preparation, $11 per hour for janitorial workers and 
$14.35 per hour for construction labor.
Figure 2
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Figure 3
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Overall worker numbers and wages do not tell the whole story. 
Recent quarterly labor trends published by NASS paint a more disturbing 
picture. When considering the third quarter--the quarter in which 
farmers require the most labor--data indicate there has been 
progressive tightening in the supply of agriculture labor. (See Figure 
4.) The quarter-to-quarter difference from 2005 to 2006 shows a decline 
of 60,000 hired workers. For farmers in need of additional labor, that 
fact is the story behind this hearing today. It demonstrates quite 
clearly the difficult situation farmers face as they scramble for 
additional labor in an economy with a relatively low unemployment rate 
and a lack of individuals willing to work in the agriculture industry.
Figure 4. Number of Hired Workers in Agriculture by Quarter
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    That trend should be put in perspective by mentioning agricultural 
production, because labor is one of the major inputs for the sector. In 
recent years, the agriculture sector has realized significant gains in 
productivity, while enduring a decline in the overall agriculture labor 
force. (See Figure 5.) Productivity gains may be attributed to a number 
of factors such as better management practices, better technology, and 
the residual effects of mechanization in previous decades.
    These productivity gains have allowed the United States to meet the 
strong demand for agricultural products in both domestic and 
international markets. However, sustaining our current level of 
productivity is contingent on a stable, reliable and legal workforce. 
America's farmers have proven time and again they can grow two blades 
of grass where there was only one before--but this requires workers. 
The bottom line is this: a significant disruption in the supply of 
agricultural workers will increase farmers' costs, put more foreign-
grown produce in our supermarkets, strengthen our international 
competitors, weaken our nation's food security and put many farmers out 
of business as they lose their workers or the costs of labor get beyond 
their reach.
Figure 5
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As you can see, production is up. We are now producing almost 20 
percent more than we did a decade ago. Demand for our products is high. 
Labor is tight. Wages are rising.
    Some might look at that picture and say, ``What are you complaining 
about? It shows a healthy, robust agricultural sector.'' But you must 
put these numbers together with those we discussed earlier from the 
NAWS survey.
    Remember, the lower-bound estimate for our labor force shows that a 
significant proportion, probably more than half, is not authorized to 
work. Over the last few years, and particularly since 9/11, we have 
seen a significant change in the nation's response to terrorist 
threats. That response includes--quite appropriately--tightening our 
borders to prevent illegal entry. Farm Bureau supports this national 
effort. First and foremost, we want our nation to be secure. We do not 
want our laws to be ignored. We also want to make sure that the workers 
we hire are legal. We want to be a part of the solution to this 
problem, because it affects us more than most.
    How we make these adjustments is critical. Twenty years ago, 
Congress substantially revised our immigration laws. They laid down the 
ground rules that employers follow today. We all recognize that those 
ground rules must change.
    But let me refresh the Members' recollections about exactly what 
the current law requires. I want to do this for a simple reason. There 
are some misconceptions that have developed into conventional wisdom, 
but like a lot of conventional wisdom, it is wrong. For instance, you 
often hear the statement that ``if farmers would just pay more, we 
would not have that problem.'' The statistics I cited earlier clearly 
show that is not the case. Right now, in our economy, there are ten 
million workers--over 7 percent of the entire nation's workforce--who 
work for lower wages than they could make in agriculture. They have 
made a conscious decision not to work in the fields. That is their 
choice. People should not lose sight of the fact that in America today, 
low wages are not keeping people out of agriculture.
    I want to put another big misconception to rest. Many people 
believe farmers know exactly what they are doing when they hire illegal 
workers, that they simply do not care about the law and that they know 
perfectly well the individuals they hire are here illegally.
    Let me also draw your attention to another government document, 
this one from USDA. It is a website hosted by USDA's chief economist. I 
have attached a copy of a page from the website to my testimony 
(Attachment #1), but you and your staff can access it easily (at http:/
/www.usda.gov/oce/labor.ina.htm). This page offers advice to farmers on 
what they must do to comply with the 1986 Immigration Reform and 
Control Act (IRCA). Despite what many people think, farmers simply 
cannot turn away potential workers if they suspect those workers are 
here illegally.
    To quote the U.S. Government:

        Employers with four or more employees are prohibited from 
        committing document abuse. Document abuse occurs when an 
        employer requests an employee or applicant to produce a 
        specific document, or more or different documents than are 
        required, to establish employment eligibility or rejects valid 
        documents that reasonably appear genuine on their face. 
        Employers must accept any of the documents or combination of 
        documents listed on the back of the INS Form I-9 to establish 
        identity and employment eligibility. Examples of document abuse 
        include requiring immigrants to present a specific document, 
        such as a ``green card'' or any INS-ISSUED document, upon hire 
        to establish employment eligibility, and refusing to accept 
        tendered documents that appear reasonable on their face and 
        that relate to the individual.
          * * * * *
        Applicants should not be asked where they were born or whether 
        they are legally entitled to work in the United States.

    Mr. Chairman and Members of the Committee, this is the United 
States Department of Agriculture advising farmers how to act. Farmers 
naturally view this as authoritative. Moreover, remember that the 
farmers we are talking about are not Fortune 500 companies. They do not 
have in-house legal counsel and a human resources department advising 
them about what to do. The average fruit and vegetable grower has a 
gross income that does not even equal the Members Representational 
Allowance (MRA) each Member of Congress is provided to run their D.C. 
and district offices. Yet, they face these employment situations 
constantly. The fact is a farmer cannot turn away an applicant because 
the worker does not speak English or does not present a green card or 
appears to lack proper authorization. If he does, the farmer can be--
and is--sued by legal activists. Farmers and ranchers do not ask to be 
in this situation. But we are in it. It is based on the law Congress 
passed 21 years ago. It is up to you to help us get out of it.
    Some people say all this will be fixed by the proposed No-Match 
rule published by DHS. Let me caution you about this regulation. In one 
fell swoop, the Federal Government seems to be making a 180 degree turn 
on employers. From providing farmers with no tools whatsoever to check 
for legal authorization, they are practically deputizing them as 
unofficial document checkers for the Immigration and Customs 
Enforcement agency.
    The reality is that we may be in a worse situation after the rule 
than before it. Let me explain.
    Under the DHS rule, employers' obligations under the law are not 
changed at all. The rule merely provides employers a `safe harbor' from 
prosecution, provided they follow a series of steps laid out by the 
department. In others words, if they receive from the Social Security 
Administration a notice that a name and Social Security Number do not 
match, they have 30 days to identify the cause (for instance, 
transposition of a letter or number). If the cause is identified, the 
matter is resolved. If not, the employer must approach the employee to 
ask that the employee rectify the matter with SSA. If, after 90 days, 
the employee maintains that the documentation he has provided is 
correct, then the employer has 3 days in which to re-verify that 
employee with new documentation. If the employee is indeed unauthorized 
and the employer does not follow these steps and discharge the 
employee, DHS says it may impute to the employer `constructive 
knowledge' that he has knowingly employed an illegal worker.
    What should an employer do? If he follows those steps and retains 
the employee, he runs the risk of prosecution by DHS. But if he 
discharges the employee out of fear he will be charged by DHS with a 
crime, the employee may file a lawsuit against the employer for 
discrimination based on a separate statute. Of course, DHS has said it 
will not shield employers from such a consequence if they take the step 
of discharging the employee, yet DHS's rules tell them to do so anyway.
    This is a Hobson's choice for farmers. Last year, when DHS proposed 
this rule, AFBF filed comments with the agency on the problems the rule 
poses for farmers. These problems are real, and they are not yet 
resolved. I have attached to my statement (Attachment #2) a copy of the 
comments we submitted to the agency last year in connection with this 
rule. I urge the Members to familiarize themselves with these comments 
because they will affect farmers, and you will be hearing from your 
constituents about it.
    This type of legal jeopardy is in addition to the threat constantly 
posed by legal services attorneys who dislike the H-2A program and are 
only too ready to take farmers to court. Congress needs to reaffirm 
support for this program and not see it killed by a thousand cuts from 
activists who are pursuing their own agendas.
    There is no question the law must be changed. We must secure our 
borders. We must assure that those who are working here are entitled to 
do so. But nothing is more critical than how we go about this 
transition.
    Early last year, AFBF released a report prepared by our economists 
on the impacts to our sector if we were to lose our current supply of 
labor. A copy of that report is included with this testimony as an 
attachment (Attachment #3). Let me highlight just a couple of points 
because I think they are sobering:

  c Without a stable, legal supply of labor to replace the presence of 
        currently unauthorized workers, the fresh fruit and vegetable 
        sector could see U.S. production decline by up to $9 billion a 
        year.

  c Similarly, an abrupt loss of our labor supply would cause net farm 
        income to drop by up to $5 billion annually.

    Mr. Chairman, these are direct effects on agriculture--in other 
words, workers directly involved in production agriculture. But 
indirect effects are also substantial. For instance, if the processing 
plant that is supposed to receive your hogs is raided by ICE the day 
you are supposed to get those hogs to market, this can have a 
devastating impact on your operations.
    The longer you delay, the more likely it is that states and 
localities will take matters into their own hands. We are already 
seeing that across the country. It makes it more difficult for farmers 
to do their business and it strains relations within our communities. 
The only reason we are seeing these initiatives is because Congress has 
not acted and people feel the need to fill the vacuum. That's not how 
we're going to solve this problem.
    Farmers need to plan their futures. We have reports that some 
apricot growers have decided not to replant their orchards because they 
fear the labor will not be there. One blueberry farmer in Mississippi 
has gotten out of the fresh fruit business--even though it is more 
profitable--because she doesn't want to deal with labor issues. One 
cooperative has decided that next year it will plant 30 percent fewer 
acres of pickling cucumbers because they simply won't be able to 
harvest when the time comes. Most disturbingly, The New York Times 
recently ran a story about a farmer who has leased land in Mexico 
because he is not sure he will be able to harvest his crop in the U.S.
    Clearly, agriculture today is desperately in need of a solution to 
this problem. Let me outline a few suggestions that, in our view, can 
help us through these problems.


    1. Do not make matters worse. The No-Match rule issued by DHS has 
        the potential to tighten labor markets further or, even worse, 
        put farmers in legal jeopardy as they follow the law. That is 
        wrong. It should not be allowed to happen.

    2. Some things can be done now. DO THEM! The existing H-2A program 
        is broken. The Administration recently announced it would 
        attempt to reform the program through regulation to make it 
        more efficient, more responsive and more readily usable by 
        growers while protecting the rights of workers. We agree with 
        and support this initiative. We are in the process of preparing 
        an exhaustive list of recommendations to submit to the 
        administration for its consideration. We urge all Members of 
        Congress to support this effort as well.

    3. Face reality. U.S. agriculture depends on migrant labor. We all 
        know that. Do not make farmers jump through meaningless hoops 
        to prove something that we all recognize. Expedite the visa 
        process for H-2A workers by using creative solutions. For 
        instance, we have suggested an expedited process whereby an 
        appropriate entity in a state--a Governor, a State Secretary of 
        Agriculture or labor, or a combination of the three--could 
        certify at the start of the year that an agricultural labor 
        deficit exists in that state. Such a certification could 
        trigger expedited handling and processing of guest workers up 
        to a certain limit. By placing such a certification in the 
        hands of a public official, you would build in a fail-safe 
        mechanism whereby a state could limit the number of guest 
        workers that receive expedited processing (for instance, when 
        there is a slowdown in the state's economy).

    4. Take up legislation without delay. We recognize the difficult 
        issues that arise in the context of the immigration debate. 
        Ignoring them, however, will not solve them. We urge all 
        Members, from both sides of the aisle and from around the 
        country, to put aside partisan or ideological biases with the 
        goal of doing what is right for the country. U.S. agriculture 
        simply cannot wait any longer for a solution. Any legislative 
        solution for agriculture must be a fair, balanced approach that 
        provides an opportunity for current workers in agriculture to 
        legalize their status and provides a framework for a long-term 
        solution, such as a revamped H-2A program, that assures we will 
        not have to revisit this issue in the future.

    5. Don't let state and local governments fill the void. Immigration 
        is a national issue; policy should be set in Washington, D.C. 
        The longer the issue is left unresolved, the more likely it is 
        we will see states and localities step in to fill the void. For 
        example, we should not have a situation under which some states 
        require employers to use E-verify while other states prohibit 
        it. We need a national policy with national guidelines. Only 
        Congress can give us that.

    Mr. Chairman and Members of the Committee, thank you for providing 
me this opportunity to testify this morning. I will be pleased to 
answer any questions the Members may have.
                             Attachment #1
IRCA Anti-descrimination Provisions
Summary
    The Immigration Reform and Control Act of 1986 (IRCA) was enacted 
to control unauthorized immigration to the United States. Under IRCA, 
employers may be sanctioned by the Immigration and Naturalization 
Service (INS) for knowingly hiring non-U.S. citizens who are not 
authorized to work in the United States. To address the fear that 
employers would overreact to the threat of sanctions and discriminate 
against individuals who sounded or appeared ``foreign,'' Congress also 
passed IRCA's anti-discrimination provisions.
    The Office of Special Counsel for Immigration-Related Unfair 
Employment Practices (OSC), Civil Rights Division, U.S. Department of 
Justice, enforces the anti-discrimination provisions. The OSC 
investigates and prosecutes employers charged with national origin and 
citizenship status discrimination with respect to hiring, firing and 
recruitment or referral for a fee, unfair documentary practices 
concerning the hiring process (document abuse), and retaliation under 
the anti-discrimination provisions of the Immigration and Nationality 
Act (INA), 8 U.S.C.  1324b. The OSC may be reached by telephone at 
202-616-5594 and 1-800-255-7688.
    Employers with four or more employees are prohibited from 
discriminating on the basis of citizenship status, which occurs when 
adverse employment decisions are made based upon an individual's real 
or perceived citizenship or immigration status. Examples of citizenship 
status discrimination include employers who hire only U.S. citizens or 
U.S. citizens and green card holders, employers who refuse to hire 
asylees or refugees because their employment authorization documents 
contain expiration dates, and employers who prefer to employ 
unauthorized workers or temporary visa holders rather than U.S. 
citizens and other workers with employment authorization.
    Employers with four or more employees are prohibited from 
committing document abuse. Document abuse occurs when an employer 
requests an employee or applicant to produce a specific document, or 
more or different documents than are required, to establish employment 
eligibility or rejects valid documents that reasonably appear genuine 
on their face. Employers must accept any of the documents or 
combination of documents listed on the back of the INS Form I-9 to 
establish identity and employment eligibility. Examples of document 
abuse include requiring immigrants to present a specific document, such 
as a ``green card'' or any INS-ISSUED document, upon hire to establish 
employment eligibility, and refusing to accept tendered documents that 
appear reasonable on their face and that relate to the individual. U.S. 
citizens and all immigrants with employment authorization are protected 
from document abuse.
    The anti-discrimination provisions also prohibit small employers 
(e.g., those with four to fourteen employees) from committing national 
origin discrimination against any U.S. citizen or individual with 
employment authorization. Larger employers are already covered by Title 
VII of the Civil Rights Act of 1964, which is enforced by the Equal 
Employment Opportunity Commission. In addition, employers may not 
retaliate against workers who file a complaint, cooperate in an 
investigation or testify at a hearing.
Requirements
    IRCA requires all farm employers to complete and retain an I-9 form 
for each new hire. Employees are required to complete the first section 
of the form and provide a document or documents that establish identity 
and employment eligibility. Acceptable documents are listed on the back 
of the I-9 form.
    Employers are required to complete the second section of the I-9 
form and must accept the proffered documents if they ``reasonably 
appear to be genuine on their face'' and relate to the individual. 
Remember, it is unlawful for an employer to practice ``document abuse'' 
by requiring prospective employees to present specific employment 
documents.
    For purposes of completing tax documentation, employers may ask new 
employees for their social security cards. To avoid allegations of 
document abuse, the employer should do this separate and apart from the 
I-9 process.
    To avoid potential charges of discrimination, it is recommended 
that employers not initiate the I-9 process until after the decision to 
hire has been made and communicated to the employee. Applicants should 
not be asked where they were born or whether they are legally entitled 
to work in the United States.
    Subsequent to employment, an employer who has reason to believe 
that a fraudulent document has been presented, perhaps as a result of 
an INS investigation, should not terminate the employee without first 
discussing the allegations with him or her. Depending upon the 
circumstances, the employee can be given an opportunity to provide 
other documents or additional information for employment verification 
purposes.
    If the I-9 form is a photocopy of an original, be sure to copy both 
sides of the form to provide to newly hired employees and the separate 
instruction page. It is good practice to retain copies of employees' 
eligibility documents. But if this is done, copies should be made of 
the documents of all employees in order to avoid charges of 
discrimination.
Enforcement
    The Office of Special Counsel for Immigration Related Unfair 
Employment Practices enforces the statute prohibiting employment 
discrimination under IRCA, and has the responsibility for handling 
complaints against all employers alleging citizenship status 
discrimination, document abuse, retaliation and, if the employer has 
four to 14 employees, national origin discrimination. The Equal 
Employment Opportunity Commission handles national origin 
discrimination complaints against employers with fifteen or more 
employees.
Penalties
    Back pay (for lost wages), instatement or reinstatement, etc., may 
be awarded to victims of unlawful discrimination.
    Penalties for discrimination range between $275 and $2,200 for each 
victim for the first offense, $2,200 to $5,500 for the second offense, 
and $3,300 to $11,000 for the third offense. Fines for document abuse 
range from $110 to $1,100 for each victim.
    U.S. citizens and work authorized immigrants who are victims of 
workplace discrimination based upon immigration status, national origin 
discrimination or document abuse may file complaints with the Office of 
Special Counsel for Immigration-Related Unfair Employment Practices 
(OSC) at the U.S. Department of Justice. The OSC has multilingual 
personnel, produces educational materials in up to seven different 
languages, and provides language services and information in more than 
100 languages via the AT&T Language Line. The OSC may be reached by 
telephone at 202-616-5594 and 1-800-255-7688 (toll free) or contacting 
the U.S. Department of Justice, Office of Special Counsel.

            Last Modified: 05/16/2006.
            http://www.usda.gov/oce/labor/ina.htm.
                             Attachment #2
August 14, 2006

Director, Regulatory Management Division,
U.S. Citizenship and Immigration Services.
DHS Docket No. ICEB-2006-0004
Department of Homeland Security,
111 Massachusetts Avenue, NW, 2nd Floor,
Washington, D.C. 20529

Subject: Proposed Rule; Safe-Harbor Procedures for Employers Who 
        Receive a No-Match Letter, 71 Fed. Reg. 34281 (June 14, 2006)
    To Whom It May Concern:

    The American Farm Bureau Federation (AFBF) appreciates the 
opportunity to offer the following comments on the above referenced 
proposed rule.
    Under current law, it is illegal for a U.S. employer knowingly to 
hire or continue to employ a person who is not authorized to work in 
the United States (8 U.S.C.  1324a). ``Knowing'' is a term defined in 
current regulations that goes beyond actual knowledge to include that 
``which may fairly be inferred through notice of certain facts and 
circumstances which would lead a person, through exercise of reasonable 
care, to know about a certain condition'' or, in other words, to have 
``constructive knowledge'' (8 C.F.R. 274a.1(l)). The proposed rule 
would further define this second category or ``constructive knowledge'' 
to provide that employers would become subject to a finding upon 
failing to take reasonable steps after receiving written notice from 
either the Social Security Administration (SSA) or the Department of 
Homeland Security (DHS) that a wage report or document does not match 
agency records. The rule also describes a set of ``reasonable steps'' 
employer may take to avoid a finding of constructive (but not actual) 
knowledge; employers following the outlined steps would obtain a ``safe 
harbor'' from prosecution over a finding of ``constructive knowledge.''
    AFBF commends DHS for proposing a safe harbor for employers who do 
not knowingly employ unauthorized workers. For more than a decade, the 
SSA No-Match notice has raised questions about an employer's 
obligations under the employment authorization provisions of 
immigration law after that employer has taken all appropriate steps to 
verify employment eligibility. U.S. agriculture has repeatedly 
requested guidance on whether and how an employer is to respond to such 
a notice without putting the employer in legal jeopardy due to the 
employer's obligation under anti-discrimination provisions of the same 
law (8 U.S.C.  1324b). In part, this proposed rule represents an 
attempt to address those concerns and provide employers with guidelines 
in hiring and firing decisions. We appreciate DHS efforts. 
Unfortunately, there are a number of situations--many of which are 
unique to the agricultural sector--that may not have been fully 
considered during development of the safe harbor provisions. With these 
comments, we identify such situations and strongly urge that the final 
regulation incorporate our recommended changes to ensure that the safe 
harbor provisions are equally available to all employers and all parts 
of agriculture.
Apply the Safe Harbor to Seasonal Employers
    The proposed rule states that employers would be deemed not to have 
constructive knowledge and thus obtain a safe harbor from prosecution 
if the employers take the following steps in response to a No-Match 
notice. Upon receiving notice, employers would have 14 days to check 
records and report to SSA or DHS regarding any necessary corrections 
or, if records cannot be corrected, to instruct the worker to go to the 
local SSA or DHS office to fix the problem. A Social Security mismatch 
would not be resolved until the employer has first verified the new 
information with SSA. If the employee does not return with new or 
corrected information within 60 days of the employer's receipt of the 
mismatch letter, the employer then has 3 days to complete a new Form I-
9. When completing a new form, the employer would not be allowed to use 
documents containing the Social Security or alien identification number 
that was subject to the earlier No-Match notice. At the same time, no 
document without a photograph could be used to establish identity or 
identity and employment authorization. (71 Fed. Reg. 34285.)
    Our reading of the proposed regulation is that each step would need 
to be followed as spelled out in the rule in order for the employer to 
become eligible for the safe harbor. This is important because while 
DHS acknowledges that there may be other reasonable steps that could 
lead to a safe harbor, the employer, in following procedures other than 
the ones outlined in the rule, could ``face the risk that DHS may not 
agree'' (71 Fed. Reg. 34283). The practical effect of this approach 
could have a significant detrimental effect on seasonal employers and 
effectively vitiate the protections of the safe harbor for a large 
segment of agriculture. One set of employers should not be given the 
certainty of a prescribed safe harbor while another is forced to define 
one on a case-by-case basis with DHS approval; seasonal employers 
should not be denied the benefit of safe harbor provisions just because 
their business is seasonal in nature.
    There are several situations, in which an agricultural employer may 
not be able to take all of the required steps to obtain the safe 
harbor, including:

    1. Single season workers. While timing will vary with crop, season, 
        and other criteria, seasonal farmers (in the Midwest, for 
        example) generally submit wage reports to the IRS (Forms W-2) 
        in February for employees who were employed during the previous 
        harvest season and, in most instances, are no longer employed. 
        Should a report on such an employee generate an SSA No-Match 
        notice, such a notice in all likelihood would not be sent to an 
        employer until late winter or the following spring--well over a 
        year since the individual was employed. In many instances, such 
        employees do not return to the original place of employment. 
        For those who do, depending on crop and nature of work, such 
        employees would not be re-hired until 14, 60, or 63 days after 
        the employer has received the notice. Further, many farm 
        workers may ``follow the crops'' by migrating from state to 
        state, and these workers may not permanently reside locally. 
        Few such workers leave forwarding information since the 
        prevailing practice is to terminate, not layoff, the worker 
        between seasons. While the employer could meet the safe harbor 
        requirement to check his or her records, the employer would not 
        be able to meet the other requirements. The employer would not 
        be able to reach employees despite making every reasonable 
        effort. We strongly believe that these employers should not be 
        denied the safe harbor for reasons that are beyond employer 
        control. Recommendation: We urge DHS to clarify in the final 
        rule that the safe harbor extends to employers who, in addition 
        to meeting the requirement to check records, can document 
        attempts to reach a former employee who is the subject of a No-
        Match notice.

    2. Off-season workers. As stated in 1. above, some workers listed 
        on a previous No-Match notice may not be re-hired until 14, 60, 
        or 63 days after the employer has received the notice. Few farm 
        workers leave forwarding information and therefore may not be 
        reachable off-season. Recommendation: If an employee who is 
        subject to a previous No-Match notice returns in a following 
        season, we would recommend that the clock start ticking on the 
        first day of re-hire after receipt of the notice. For off-
        season workers who fail to return in a subsequent season, we 
        would offer the same recommendation as stated in 1. above.

    3. Short season workers. The duration of a season may vary widely 
        across the United States depending on crop and location. For 
        example, in the State of Washington, approximately 75,000 
        migrant and seasonal workers are employed each year on small 
        family-owned farms; many of these workers are employed for 
        periods as short as 2 weeks. Under these circumstances, an 
        employer may be able to check records, ask the employee to 
        confirm those records and in the event there are no errors, 
        instruct the employee to follow up with SSA or DHS all within 
        14 days. But, if the employee migrates from crop to crop, there 
        may not be an opportunity for the employee to resolve the issue 
        with SSA or DHS within the 60 days prescribed by the rule. Once 
        the employee has moved on, there would not be an opportunity 
        for the employer to take the next step, which is to complete a 
        new Form I-9. Recommendation: The 14, 60, and 63 day periods 
        should toll only while the employee is employed with the 
        employer. For example, if the employee moved on to the next 
        crop on day 15, the clock would stop. Upon re-hire in the next 
        season, the clock would re-start and the employee would have 45 
        days (for a total of 60 days) in which to follow up with DHS or 
        SSA and report any corrections to the employer. Again, for 
        short season workers who fail to return in a subsequent season, 
        we would offer the same recommendation as stated in 1. above.

    All of the above examples pertain to situations in which an 
employer is not able to follow every one of the necessary steps to 
obtain the safe harbor. The reverse situation could also occur: The 
employer follows every step outlined in the regulation but the No-Match 
issue is not resolved.

    1. Wage Report Mismatch. For I-9 Form purposes, an employee may 
        provide documents that do not contain a Social Security or 
        alien identification number--a birth certificate and driver's 
        license with a photograph, for example. But because the 
        employer has submitted a Form W-2, the employer may receive a 
        No-Match notice from the SSA if there are sufficient numbers of 
        mismatches. It is not clear from the proposed rule whether the 
        employer could simply re-use the same documents on the new Form 
        I-9 in this instance. It is also not clear whether the employer 
        would be held liable if the employee writes in Section 1 of the 
        new form a Social Security Number that is the subject of a 
        notice but does not provide a Social Security card. 
        Recommendation: DHS should clarify whether an employer would be 
        deemed to have constructive knowledge under these 
        circumstances; if so, DHS should specify the employer's legal 
        obligations under immigration law including the anti-
        discrimination provisions (8 U.S.C.  1324b).

    2. Multiple Season Mismatches. An employer may take every step 
        outlined in the proposed rule, up to and including completing a 
        new I-9 Form, yet receive a No-Match notice next season. During 
        a 2 week harvest when producers are working nearly round the 
        clock to harvest a perishable crop in a short time-frame when 
        every day is precious, it may be difficult for larger seasonal 
        employers (e.g., 500-750 employees) to keep track of every one 
        of the returning employees. Even if the employer recognizes and 
        can keep track of every single worker, the rule does not appear 
        to preclude the employer from obtaining the safe harbor if the 
        employee keeps responding with new information to each document 
        request. For example, an employee might provide one Social 
        Security card the first year which triggers a No-Match notice 
        the following year, provide another Social Security card in the 
        second year in response to the original notice which cannot be 
        verified with SSA in 60 days and then provide yet a third 
        Social Security card for the new I-9 Form between day 61 and 
        day 63. Recommendation: DHS should clarify whether an employer 
        under these circumstances could still obtain the safe harbor 
        from a constructive knowledge finding. If so, DHS should 
        clarify whether it would deem such employer as having actual 
        knowledge of the worker's unauthorized status.

    Many farmers hire and pay an independent contractor to provide 
workers during the season, with the understanding that the contractor 
will be the employer for all purposes, including employment eligibility 
verification. Yet the Department of Labor could determine that both the 
farmer and the contractor are ``joint employers'' under the Fair Labor 
Standards Act (29 U.S.C.  201 et seq.) or the Migrant and Seasonal 
Agricultural Worker Protection Act (29 U.S.C.  1801 et seq.). However, 
it is not clear from the rule whether the farmer or the contractor 
would have to obtain the safe harbor to avoid prosecution. 
Recommendation: DHS should clarify the employer's obligations under 
immigration law relative to the agricultural joint employment 
standards.
    Some seasonal agricultural employers hire non-immigrants with a 
temporary work authorization (e.g., under the H-2A program) or 
immigrants with permanent work authorization. The proposed rule 
expressly identifies a ``labor certification or application for 
prospective employer'' as information that could prompt a constructive 
knowledge finding. But while the rule would describe the steps for an 
employer to take upon receipt of written notice from SSA or DHS over a 
wage report or document, it does not include any steps for a labor 
certification. An employer should not be denied the certainty of a 
prescribed safe harbor just because the employer hires a worker 
requiring a labor certification. Recommendation: DHS should specify a 
safe harbor for employers of workers requiring a permanent or temporary 
labor certification.
Apply the Safe Harbor to Hiring Decisions
    In the notice of proposed rulemaking, DHS expressly states that 
following the safe harbor requirements ``will eliminate the possibility 
that DHS . . . will allege, based on the totality of relevant 
circumstances, that an employer had constructive knowledge that it was 
employing an alien not authorized to work in the Unites States'' (71 
Fed. Reg. 34282). However, it is not clear whether the safe harbor 
would also apply to hiring decisions.
    As outlined above, there are several reasons why an employer would 
be prevented from meeting all of the steps necessary to obtain the safe 
harbor. A good example is when the worker quits: some employees, when 
confronted with the No-Match notice, will quit without offering a 
reason. The employer would have checked his or her records and found no 
errors, meeting the first step. He or she may be asking the employee to 
confirm records or instructing the employee to follow up with SSA or 
DHS, which is the second step. Nevertheless, the employee would fail to 
respond within 60 days (the third requirement), and the employer would 
not be able to comply with the final requirement to fill out a new I-9 
Form within 63 days.
    While we are confident that DHS would not prosecute this employer 
for continuing to employ the worker (after all, the employee quit in 
this instance), there is still a question as to whether the employer's 
receipt of the No-Match letter would still be grounds for a finding 
that the employer had constructive knowledge of hiring an unauthorized 
worker. A reasonable person might infer from the worker quitting that 
the worker is avoiding detection as an unauthorized worker.
    However, we do not believe a constructive knowledge finding can or 
should be imputed to an employer merely based on the fact that the 
employer has received a No-Match notice. Because the worker did not 
offer a reason for quitting, the employer could not have actual 
knowledge that the worker quit to avoid detection. And if the employer 
had properly completed the Form I-9, the employer would not have reason 
to suspect that the employee was not employment eligible.
    Recommendation: We recommend that DHS clarify that the safe harbor 
would apply to previous hiring decisions under these circumstances.
Extend the 14 and 60 Day Deadlines
    Under the proposed rule, upon receiving notice employers would have 
14 days to check records and report back to SSA or DHS or instruct the 
worker to follow up directly with SSA or DHS. If the employee does not 
return with corrected information within 60 days, the employer would 
then have 3 days to complete a new Form I-9. (71 Fed. Reg. 34285.)
    In the agricultural sector, more than 90 percent of operations are 
family owned and operated. The size of the operation may vary from a 
single hired worker up to 500 or more workers. Some operate year round 
while others plant, cultivate or harvest during seasons that may range 
from as few as 2 weeks to as many as 48 weeks a year. For example, in 
Washington, where there are approximately 75,000 seasonal and migrant 
workers employed each year on small family farms, many are employed for 
periods as short as 2 weeks. At a typical operation, one office person 
will hire more than 100 workers at one time.
    On the farm, the grower's spouse often constitutes the ``Human 
Resources Department'' and the spouse may not work full time. Access to 
a computer or to a local branch of SSA or DHS may be limited in more 
remote areas of the country. Mail may not be processed at a frequency 
greater than once a week or the notice might arrive when the grower is 
off-season, on vacation or at a trade conference. While employers with 
a dedicated H.R. department and staff may be able to check and correct 
records or notify the employee within 14 days, not every agricultural 
employer would be able to do so. Recommendation: We recommend extending 
the timeframe for the first deadline (in which an employer must check, 
correct or inform) to at least 30 days.
    Similarly, 60 days may be too short a time period for farm workers 
to comply with the second requirement (to respond with new or corrected 
information). On a grape farm in New York State, for instance, the 
workers are working nearly round-the-clock for about 2 months in the 
spring and about 3 months solid in the fall between harvest, crushing, 
fermenting, and subsequent ``cellaring.'' Asking them to take a long 
time out to drive to the nearest SSA office may not be completely 
practical. Recommendation: DHS should extend the second deadline to at 
least 90 days.
Address Discrimination Issues
    The current regulatory definition of ``knowingly'' includes the 
following provision:

        ``Nothing in this definition should be interpreted as 
        permitting an employer to request more or different documents 
        than are required under [8 U.S.C.  1324a(b)] or to refuse to 
        honor documents tendered that on their face reasonably appear 
        to be genuine and to relate to the individual.'' 8 C.F.R. 
        274a.1(l)(2).

    In the proposed rule, DHS adds a clause to this provision to 
exclude documents that are subject to a No-Match notice: ``, except a 
document about which the employer has received a notice described in 
paragraph (l)(1)(iii) of this section and with respect to which the 
employer has received no verification as described in paragraph 
(l)(2)(i)(B) or (l)(2)(ii)(B).'' The proposed rule would not address 
the anti-discrimination provisions under Title VII of the 1964 Civil 
Rights Act (``Title VII'') (42 U.S.C.  2000e-2).
    AFBF applauds DHS for attempting to provide employers with some 
certainty in their hiring and firing decisions, beyond the limited 
protection afforded by completing an I-9 Form. Under current law, an 
employer who is not sufficiently aggressive in examining documents 
would run the risk of violating the employment authorization provisions 
of immigration law (8 U.S.C.  1324a). But, by being too aggressive, 
the same employer would run the risk of violating the anti-
discrimination provisions in the same law, and there have been more 
growers charged with discrimination under the immigration law than with 
employer sanctions. Excluding No-Match documents from anti-
discrimination provisions would make it much easier for employers to 
meet the employer authorization provisions.
    However, AFBF strongly urges DHS to make whatever changes to the 
proposed rule necessary to ensure the rule will not lead to additional 
discrimination lawsuits under Title VII.  For decades, agriculture has 
been plagued with nuisance suits, the purpose of which has been not 
necessarily to win on the merits but to outspend the grower so as to 
make an example for the wider agricultural community. If the legal and 
social costs are high enough, farmers will settle instead. The 
questionable tactics of these lawyers have been well documented in Rael 
Jean Isaac's Harvest of Injustice (please see http://www.nlpc.org/
harvest.asp). For a more recent example, please see Malacara v. Garber 
(5th Cir. December 9, 2003) (LSC-funded lawyers sued a 70-year-old Ohio 
vegetable farmer under a Federal law that did not even apply to small 
family farmers; the farmer won in lower court and at appeal but it cost 
him more than $100,000 of his hard-earned money to prove the complaint 
lacked merit.). If history is any indication, we would expect activist 
attorneys to test the boundaries of the proposed rule in court, and 
agricultural employers are the most likely test subjects; agriculture 
should not have to pay additional legal expenses because the proposed 
rule fails to address considerable legal issues.
    There also may be legal arguments against the rule in its proposed 
form.
    For example, the Tenth Circuit Court of Appeals in Zamora v. Elite 
Logistics, Inc. (10th Cir. June 6, 2006) recently reversed a lower 
court decision for the employer and let a Title VII national-origin 
claim go to a jury. The employer was acting on a tip he could have 
received from DHS (i.e., an employee was using a Social Security Number 
for I-9 Form purposes that another had used multiple times in another 
state). He responded by taking precisely the step required to qualify 
for the safe harbor (i.e., the employer requested another document). 
The safe harbor would not protect employers from Title VII. And all 
some lawyers need is an argument, not even a strong one, to compel 
growers to settle. If DHS does not adequately address these issues, it 
will defeat the purpose of the proposed rule, which is to facilitate 
compliance with 8 U.S.C.  1324a.
Clarify Whether Name Or Number Trigger Constructive Knowledge Finding
    Employers would be subject to a constructive knowledge finding if 
failing to take reasonable steps upon receiving written notice from SSA 
that the ``combination'' of name and Social Security Number does not 
match agency records. But SSA has sent several forms of the No-Match 
letter in the past; one takes the form of a simple list of numbers with 
no corresponding identifying names. If the employer receives this form 
of the letter, one could not conclude that the name also mismatches 
agency records. It appears that both the name and the number must not 
match to become subject to the rule. Recommendation: DHS should clarify 
precisely what is meant by a ``combination'' mismatch.
Apply the Final Rule Prospectively
    The proposed rule does not stipulate when the regulation would 
apply to employers. Given the many resource and other issues that are 
unique to agriculture, we would not support applying the rule on a 
retroactive basis. Recommendation: DHS should apply the rule 
prospectively from its effective date.
Delay the Final Rule Pending Congressional Efforts
    Both the U.S. Senate and House of Representatives have approved 
separate legislation (S. 2611 and H.R. 4437) that would address many of 
the same issues addressed in this proposed rule and reform of this part 
of the law is a high priority for the Administration. Thus, it is 
possible that there may be new law respecting exactly these matters 
before the end of the year. Farmers do not want to be in position of 
having to change their operating procedures twice--once to accommodate 
this proposed rule and once again to accommodate a subsequent rule 
prompted by a new immigration law. Employers require certainty in 
Federal regulations in order to continue to grow and thrive.
    While we recognize that employers need not use the safe harbor, if 
employees are not able to present documents consistent with the 
proposed rule, employers will be compelled to terminate those workers 
or risk a constructive knowledge finding and prosecution. AFBF has 
conducted an extensive economic study of the immigration impacts on 
agriculture. The study shows that of all the sectors of the U.S. 
economy, domestic agricultural production could be most severely and 
disproportionately affected on the order of $5 to $9 billion annually 
if labor restrictions take effect before growers have access to an 
adequate legal workforce. Federal surveys suggest that between a high 
percentage of agriculture's hired workforce may lack proper 
documentation, and we have already mechanized to a large extent. We 
would somehow have to replace those workers at a time when few 
Americans have shown a willing to take farm jobs. The impact of this 
proposed rule could be devastating, prompting many farmers to raise 
their prices at a time when the United States is opening its produce 
markets to significant foreign competition under North and Central 
American Free Trade Agreements.
    Recommendation: We strongly urge DHS to postpone further action on 
a final regulation until Congress acts on this issue.
Conclusion
    AFBF appreciates the opportunity to comment on this proposed rule 
and would be happy to assist you in any way we can. Please feel free to 
contact me or Austin Perez at 202-406-3669 (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a5c4d0d6d1cccbd5e5c3c78bcad7c2">[email&#160;protected]</a>) if you have 
any questions or require additional information.
            Sincerely,

Mark Maslyn,
Executive Director,
Public Policy.
                             Attachment #3
Impact of Migrant Labor Restrictions on the Agricultural Sector
American Farm Bureau Federation--Economic Analysis Team
February 2006
Preface
    This report assesses the impact on U.S. agriculture of eliminating 
access to migrant farm labor.\1\ The report concludes that the 
agricultural sector would suffer significant economic losses if the law 
that governs the hiring of migrant labor were changed without providing 
for a viable guest worker program and a reasonable transition into such 
a program.
---------------------------------------------------------------------------
    \1\ The term ``migrant labor'' as used in this report refers to 
foreign-born workers who travel to the U.S. for employment in the 
agricultural sector. The report does not consider migrant labor working 
in agriculture-related industries such as the livestock slaughter and 
packing industry. This definition is consistent with the definition 
used in USDA survey activities but differs from the definition of 
migrant labor (any and all workers who routinely move to different work 
sites) used in the Department of Labor survey activities and reporting.
---------------------------------------------------------------------------
I. Introduction/Summary
    Of all the major sectors of the U.S. economy, agriculture is the 
most dependent on migrant labor. After almost a century of transferring 
excess labor to the rest of the economy, agriculture's demand for labor 
has stabilized at approximately three million workers. Of these three 
million workers required to operate the sector, approximately two 
million are drawn from farm families and about one million are hired 
from non-family sources. An estimated 500,000 or more of this one 
million would be affected by restrictions on the hiring of migrant 
labor.
    This report concludes that if agriculture's access to migrant labor 
were cut off, as much as $5-$9 billion in annual production of 
primarily import-sensitive commodities most dependent on migrant labor 
would be lost in the short term. Over the longer term, this annual loss 
would increase to $6.5-$12 billion as the shock worked its way through 
the sector. This compares to an annual production average for the 
entire agricultural sector of $208 billion over the last decade.
    Production of fresh fruits, vegetables, and nursery products would 
be hit hardest as 10-20 percent of output would shift to other 
countries, and increasing the U.S. trade deficit on virtually a dollar-
for-dollar basis. A fifth to a third of production for the fastest 
growing fresh component of the fruit and vegetable market would be 
lost. An adequate labor force is critical to the economic health of our 
fruit and vegetable industry. Fruit and vegetable production is labor 
intensive and producers are already confronted with competitiveness 
issues due to low cost labor available in competing markets.
    Costs would rise and production would fall in the other field crop 
and livestock sectors which are not as sensitive to imports or as 
dependent on migrant labor. With higher costs, these farm operators 
would produce a smaller volume of products ranging from grains, 
oilseeds and cotton to meat and milk. However, with labor accounting 
for a smaller share of costs, the drop in production would be more 
limited than in the fruit and vegetable sector. In addition, with the 
U.S. a major exporter rather than importer of most of these products, 
import displacement would be minimal. Hence, most of the impact on 
field crop and livestock operations would be concentrated in higher 
costs on remaining production.
    The impact of this combination of lower production and higher costs 
on the farm sector as a whole would be a $1.5-$5 billion loss in farm 
income in the short term and a $2.5-$8 billion loss in the longer term 
(Table 1). The drop in production would reduce market receipts and net 
farm income. With farmers being price-takers rather than price-makers, 
much of the increase in production costs would also have to be paid for 
out of farm income. Aside from the specialty crop sector, this combined 
farm income impact would be most pronounced in livestock operations 
(such as dairy) where structural changes have increased dependence on 
hired labor. In dairy and many other livestock categories, the typical 
farm family workforce has simply become too small to operate 
enterprises large enough to capture economies of scale. These losses 
compare to a sector income average of $56 billion per year over the 
last decade.
Table 1. Losses in Farm Production and Income With the Elimination of 
        Migrant Labor
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    The reason for these losses is simple. There is no readily 
available pool of excess labor in the farm sector, the rural economy, 
or the general economy to draw upon to replace 500,000 or more migrant 
workers. The sector has already exhausted most on-the-shelf 
mechanization alternatives and next-generation robotics are decades 
away. Hired farm worker wages would have to increase significantly 
above and beyond the increases necessary over the last 2 decades to 
attract and hold workers in an increasingly tight labor market. This 
effort to replace lost migrant farm workers would be complicated by the 
demanding and often seasonal nature of many hired jobs in agriculture. 
It would be further complicated by similar efforts by employers in 
other sectors of the economy affected by migrant worker restrictions to 
attract and hold their own replacement workers. At a minimum, hired 
farm worker wages would have to increase from the current $9.50 average 
to possibly $11 to $14 per hour or more in order to attract and hold 
labor currently employed in other jobs requiring comparable skills.
    The analysis reported here draws on farm labor data developed by 
USDA and the Department of Labor (DOL) and basic labor supply and 
demand relationships to estimate the wage impact of replacing lost 
migrant labor.\2\ The analysis then uses farm income accounts developed 
by USDA as part of the income reporting program as well as Census of 
Agriculture data on the distribution of farm income to estimate sector 
vulnerability to higher labor costs.\3\ The relationships built into 
the agricultural sector model developed at the University of Missouri's 
Food and Agricultural Policy Research Institute (FAPRI) were then used 
to estimate farm economy impacts.
---------------------------------------------------------------------------
    \2\ The two most important sources of data are the National 
Agricultural Labor Survey (NALS) conducted by USDA's National 
Agricultural Statistics Service and the National Agricultural Workers 
Survey (NAWS) conducted by the Department of Labor.
    \3\ USDA's farm income information is available at 
www.ers.usda.gov/data/FarmIncome and www.usda.gov/data/ARMS while the 
Census of Agriculture data is available at www.nass.usda.gov/census.
---------------------------------------------------------------------------
    The main body of this report looks first at the changing supply and 
demand for hired farm labor. The second section looks at several of the 
factors driving farm labor demand. The third section looks at the 
impact of bidding for hired farm labor, and the fourth section looks at 
mechanization as a possible answer to labor shortages. The report then 
looks at the key components of a viable guest worker program from an 
agricultural economic perspective. The report closes with a methodology 
section.
Table 2. State Impacts of Migrant Labor Reduction
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In the mid-l980s, after almost a century of transferring surplus 
labor to the rest of the economy, the farm labor market shifted into 
balance, with the supply of readily available labor roughly equal to 
the labor needed to operate the sector. Figure 1 makes this point 
drawing on USDA data collected as part of its agricultural labor survey 
activities. As recently as the l960s and l970s, the farm workforce 
declined by 100,000-200,000 workers per year. From l985 forward, 
however, the sector has operated with a more or less steady workforce 
of just under three million. About two million of these workers come 
from within the farm sector and include farm operators and their family 
members. About one million are hired from non-family sources.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Census Bureau's population estimates indicate that average farm 
family size has also decreased sharply over this same period, 
reflecting both a general trend in the overall population and the fact 
that older farmers generally have fewer family members to draw on in 
operating the farm. In addition, the Census Bureau's population 
estimates show that the farm population continued to shift to jobs 
elsewhere in the rural economy or the urban sector. Combined, these 
factors translate into the smallest family farm labor pool on record.
    In absolute terms, the labor force hired to augment farm family 
labor has also declined over time. As many as two million hired workers 
(less than a fourth of the total) were drawn from the rural economy as 
recently as the l960s. Since 1985, the number has stabilized at the 
current level of one million. Measured as a share of the total farm 
workforce (\1/3\), this figure is at an all-time high.
    This change in the balance between farm labor supply and demand has 
been reflected in increased hired worker wages (Figure 2). USDA's 
National Agricultural Labor Survey indicates that the average hired 
farm worker wage in l985 was $4.50 per hour. This was close to the 
minimum wage in effect for the general economy and included a very 
limited benefits package. By 2005, the wage had increased to $9.50 per 
hour and included an improved benefits package that pushed the average 
cost up to $11-$12 an hour. This compares with a 2005 minimum wage of 
$5.15 per hour and DOL survey results showing wages in representative 
jobs with similar skill requirements ranging from $6.65 per hour for 
food preparation to $11 for janitorial workers and $14.34 for 
construction labor, according to DOL surveys.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This farm sector demand for three million workers reflects several 
factors. The long-standing substitution of capital for labor reduced 
the demand for labor. Sustained increases in labor productivity allowed 
farmers to operate with less labor. Offsetting this, however, were 
changes in consumer demand, farm structure, and farm size that worked 
in reverse to increase demand for labor.
    For example, consumer demand for farm products has changed 
dramatically since l985. The change has been especially pronounced in 
the fruit and vegetable sector, where demand for fresh products has 
increased from 30-45 percent of an expanding produce consumption total 
(Figure 3). Where possible, growers have met this demand using existing 
resources--particularly machinery resources. However, the fresh market 
puts a premium on top quality, peak ripeness and visual appeal. This 
limits the extent to which functions such as picking and packing can be 
mechanized. Existing mechanization technology often cannot meet added 
technical concerns such as lack of uniform maturity, incomplete fruit 
removal, and differences in readiness criteria common in the specialty 
sector. Simply stated, human dexterity and judgment are necessary in 
the fresh produce sector.
    This dependence on labor is reflected in produce costs and prices. 
Fresh fruits and vegetables meeting stringent consumer expectations can 
receive a 50-100 percent premium over produce used for processing. 
However, hired labor costs for operations specializing in production 
for the fresh market also range from \1/3\ to over half of the total 
cost of production. This compares to an agricultural sector labor cost 
average of 14 percent.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    For example, the typical dairy farm identified in the Agricultural 
Resource Management Survey conducted by USDA's Economic Research 
Service (ERS) reported spending $21,000 on hired labor as recently as 
l995 (Figure 4). However, the same operation spent $40,000 in 2004 as 
machinery operation and livestock management jobs grew more demanding. 
While relatively slower, growth in dependence on hired labor in the 
field crop sector has been significant as more mechanized operations 
require more labor to run high-cost machinery than most operators can 
provide.
    Looking more broadly across the entire agricultural sectors, growth 
in the average size of farm enterprises indicates that commercial 
production has simply outgrown family labor. The typical commercial 
enterprise (i.e., farms selling more than $100,000 in products per 
year) increased from sales of about $335,000 per year to over $480,000 
over the last decade. Supplementing this USDA survey data with Census 
of Agriculture data suggests size in the mid-l980s was below $275,000. 
These farms produce about 85 percent of the sector's output and account 
for an equally large share of labor. In a growing number of cases, even 
after adjusting for inflation, these operations are simply too large to 
operate with family labor alone (Figure 5).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Perhaps even more telling, however, is the fact that farm jobs are 
difficult to fill with either the rural or urban unemployed given the 
nature of the work involved. This is particularly true in the fruit, 
vegetable and nursery sector where approximately half of hired workers 
are employed and where the work requires difficult manual labor. Nor is 
it a ``job'' in the conventional sense that some take it to be. The 
work at any one location can be temporary, and sustained employment 
often requires the willingness and ability to move from site to site 
over a broad area and work for more than one employer, coinciding with 
the crop-harvesting calendar. But even site-specific jobs in the 
livestock and field crop sectors are difficult to fill despite the 
significantly lower wages that the DOL reports for jobs elsewhere in 
the economy with comparable skill requirements.
IV. Bidding for Hired Labor
    In this setting of balanced farm labor supply and demand, a change 
in Federal law that effectively cuts off farmers' access to migrant 
labor would necessarily force the agricultural sector to bid in the 
general economy for replacement workers. While there is no precise 
count of the migrant workers that would be affected, DOL's National 
Agricultural Worker Survey suggests that 500,000--50 percent of 
agriculture's hired workforce--would be affected. Other, less formal, 
counts put the number affected significantly higher.
    How high agriculture would have to bid to replace this large a 
share of its workforce would depend on labor supply and wages in the 
general economy for jobs with similar skill requirements. DOL surveys 
of wages and employment identify large pools of workers and the average 
wages for these pools. Figure 7 shows representative pools and wages 
for a range of jobs with skills comparable to those typically required 
of hired farm workers.
    The DOL surveys indicate that the number of workers now employed in 
food preparation at wages averaging $6.65 per hour far exceed the 
number that would be needed in agriculture. As already noted, farm 
wages average $9.50 per hour. Food preparation workers could raise 
their earnings today by switching to farm employment, yet very few do. 
Agricultural employers have not been able to enlist these workers in 
farm employment, and that fact is buttressed by widespread, anecdotal 
reports from farm operators about recruitment difficulties. In short, 
the perception of farm jobs is such that a large segment of the native 
worker population apparently prefers to take lower paying food 
preparation jobs rather than higher paying farm jobs. 
[GRAPHIC] [TIFF OMITTED] EMENT NEEDS: A JANITORIAL CLASSIFICATION WITH WAGES AVERAGING $11 PER HOUR AND A`_5�CONSTRUCTION LABORER CLASSIFICATION WITH WAGES AVERAGING $14.%x

per hour. With workers in lower paying jobs such as the food 
preparation classification choosing not to work in agriculture, farm 
operators would have to bid for workers in these higher-paid categories 
to replace migrant workers. This would entail raising wages from the 
    current average of $9.50 to possibly $11-$14 per hour.While there 
are more than enough workers in the janitorial category with $11 per 
hour wages to fill agriculture's replacement needs, several 
considerations suggest that replacement wages would have to tend toward 
the upper end of this $11-$14 range. First, the number of replacement 
workers needed would be large compared to the number of workers in this 
pool. Many workers in this pool would likely choose to stay in their 
current jobs. This suggests that agriculture would have to be prepared 
to tap the higher paid construction worker pool. This replacement 
effort would be complicated by the fact that, as already noted, farm 
work is often perceived as less desirable work.
    Second, employers in these higher wage pools would likely respond 
to any significant loss of labor to agriculture with wage increases of 
their own to maintain their workforce. Equally important, these other 
sectors also employ migrant workers and would be affected by hiring 
restrictions. Hence, they would face the same replacement pressure--
albeit less acutely than agriculture given the smaller proportion of 
migrant labor in their overall workforces--as farm operators.
    As Figure 8 indicates, this broader pressure to find replacement 
workers would tend to drive up wages generally. Theoretically, the 
labor supply curve describing the number of workers available at 
specific wages would shift up and to the right. This means that, all 
other factors constant, the cost of the same number of workers 
providing the same services would be higher even before a specific 
sector such as agriculture moved to attract workers from elsewhere in 
the economy. 
[GRAPHIC] [TIFF OMITTED] 49.50 

into this $11-$14.35 per hour range on the sector would vary depending 
on producers' use of migrant labor. As already noted, half of this 
replacement labor would be demanded by fruit, vegetable and nursery 
producers, particularly for fresh produce operations. This dependence 
on migrant labor combined with their exposure to imports suggests that 
    the greatest impact would be in this sector.USDA's Agricultural 
Resources Management Survey provides a snapshot of the financial health 
of these fruit, vegetable, and nursery producers and an indication of 
the impact a significant increase in labor costs would have. Surveys 
from 2003 indicate that, on average, about 10 percent of producers in 
the specialty crop category are financially vulnerable (Figure 9). That 
is, these producers report negative farm incomes and debt-to-asset 
ratios over 40 percent. They are currently generating too little 
revenue to pay all of their bills and have essentially borrowed what 
most banks will lend on farm assets.
    USDA's farm income records and farm financial analysis indicate 
that, historically, operations in this category are most dependent on 
continuation of the status quo--in this case continuation of a $9.50 
wage. However, while operating at the margin, these producers supply a 
significant share of sector production. And with year-to-year 
developments in weather and local marketing circumstances, producers 
can shift in and out of this category over time.
    With migrant labor eliminated and replacement labor costs up 16-51 
percent, the situation would worsen significantly for these vulnerable 
producers. Fresh fruit and vegetable producers most dependent on hired 
migrant labor would be the most severely affected. However, the rest of 
the specialty crop sector would also face sharp cost increases. We 
expect that the 11 percent of fruit, vegetable and nursery producers 
who fall into this ``vulnerable'' category would ultimately fail with 
the replacement of $9.50 per hour labor with $11-$14 per hour labor 
(Figure 9).
[GRAPHIC] [TIFF OMITTED] 49.50 

per hour labor into the vulnerable category with $11-$14 labor. USDA 
research on farm financial vulnerability and Census of Agriculture data 
on the distribution of farm income suggest that raising wages to $11 
per hour would move an additional 2 to 3 percent of fruit, vegetable 
and nursery producers into this vulnerable category (Figure 10). The 
same data indicate that raising wages to $14.35 would likely put 
another 10 percent of these producers in this vulnerable category 
    (Figure 11).It is important to note that this 10-20 percent loss 
would be for the fruit and vegetable sector as a whole. A fifth to a 
third of the fastest growing fresh fruit and vegetable component would 
be affected as production shifted abroad.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The loss in U.S. production would be roughly comparable with the 
loss of producers. USDA vulnerability research suggests that smaller 
producers make up a larger share of at-risk farmers. In this case, 
however, the challenge of finding replacement labor would tend to favor 
small producers. Small producers could, in theory, improvise by using 
overtime family labor, part time laborers or local replacement workers 
to a greater extent than larger operators faced with a much larger 
labor deficit. Hence, migrant labor restrictions would pull larger 
producers into the vulnerable category and keep the drop in production 
and producers roughly comparable.
    The resulting loss of $5-$9 billion in fruit and vegetable 
production reflects not only wage increases but also the availability 
of large replacement supplies of fruits and vegetables from outside the 
U.S. The rapid growth in imports over the last decade indicates the 
readily available supply of foreign fruit and vegetables with U.S. farm 
wages at the current $9.50 per hour (Figure 12). 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    With a significant share of U.S. specialty crop production 
essentially out-sourced, the affected farm resources would be available 
for alternative uses. Normally, at least some of the resources of 
displaced producers are bought up by generally larger, more profitable 
operators. This works to reduce the net drop in production. Given USDA 
survey indications of the value of the resources (such as land and 
water) in question, the resources affected would generally have to 
continue to be used in high return activities such as specialty 
cropping. However, this potential for offsetting resource shifts would 
be limited in the migrant worker case since other operators normally 
looking to expand would themselves be under pressure due to higher 
labor costs.
    The much smaller role played by hired labor and the more limited 
potential for imports would translate into a different adjustment in 
the rest of the agricultural sector. Loss of migrant labor would 
translate into higher production costs and the loss of a small 
proportion of field crop and livestock producers, most of whose 
resources would likely be bid away by more profitable operators. The 
agricultural sector models used at FAPRI and USDA to develop 
agricultural baseline projections suggest that the responsiveness of 
field crop and livestock sectors to increases in cost is approximately 
0.2 (i.e., a 10 percent increase in costs is associated with a 2 
percent decrease in production). Consequently, the drop in production 
would be small.
    However, the vast majority of field crop and livestock producers 
who remained in business would face higher costs for their ongoing 
production activities. Given the farm sector's historical role as a 
price-taker rather than a price-maker, most of the cost increase 
associated with $11-$14 per hour labor could not be passed on in the 
form of higher prices. Historically, half or more of cost increases 
come out of farm income.
    In conclusion, overall agricultural production would fall $5-$9 
billion in the short term and $6.5-$12 billion in the longer term as 
the shock of a labor shortage and wages increases worked through the 
sector. This would be due to large losses in the fresh fruit and 
vegetable sector and smaller losses in the rest of the fruit and 
vegetable sector and in the field crop and livestock sectors (Table 1). 
Producers who remained in production would face a sector-wide increase 
in costs of $2.5-$7 billion in the short term and $3-$9 billion in the 
longer term.
    These two impacts can be converted into a farm income loss using 
USDA's farm accounts to estimate the share of production dollars that 
normally accrue to farmers as income and the share of production 
expenses that typically come out of farm income. The farm accounts data 
suggest that 20-30 percent of production receipts accrue to farmers as 
income. The same accounts and the agricultural sectors models used here 
suggest that 50-66 percent of an increase in production expenses 
normally is paid out of income. These parameters change with the size 
of the change in production and expenses considered. Using them as 
guidelines, the production losses and cost increases estimated here 
translate into a $1.5-$5 billion income loss in the short term and 
$2.5-$8 billion loss in the longer term (Table 1).\4\ These estimates 
compare to an annual farm income average of $56 billion over the last 
decade.
---------------------------------------------------------------------------
    \4\ Note: For example, the $1.5-$5 billion in short term income 
loss assumes that $4 billion out of the $5-$9 billion in lost 
production would have generated no income and that the income loss on 
the remaining $1-$5 billion ($5-$9 billion minus $4 billion) would be 
$250 million to $1.25 billion. The $2.5-$7 billion in higher costs 
translate into $1.25-$3.5 billion in income loss, assuming farmers can 
only pass along half of their cost increase. This puts the total short 
term loss, after rounding to the nearest $500 million, at $1.5-$5 
billion. Over the longer term, the $2.5-$8 billion in income loss 
assumes that $4 billion out of the $6.5-$12 billion in lost production 
would have generated no income and that the income generated on the 
remaining $2.5-$8 billion ($6.5-$12 billion minus $4 billion) would be 
$625 million to $2 billion. The $3-$9 billion in higher costs 
translates into $2-$6 billion in income loss using a .66 long term 
ratio versus a .5 short term ratio for cost increases absorbed by 
farmers. Rounding to the nearest $500 million puts the total income 
loss for the long term at $2.5-$8 billion per year.
---------------------------------------------------------------------------
Table 1. Losses in Farm Production and Income With the Elimination of 
        Migrant Labor
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Given the limited experience agriculture and the broader economy 
has had with labor disruptions even approaching the magnitude involve 
in restricting migrant labor, these production and income estimates 
could prove conservative. Several factors could work to raise them 
substantially. For example, underlying the analysis is the assumption 
that labor moves freely and immediately between jobs in the U.S. 
economy. In other words, agriculture would pay more to bid labor away 
from the general economy while the majority of operators continue to 
function with higher costs but without interruption. Vulnerable 
producers leave the sector. In actual fact, labor markets are far more 
rigid and the adjustments more complicated. Moving 500,000 replacement 
workers between sectors would require considerable time and involve 
significant disruption.
    This is a particularly important assumption in the agricultural 
sector, given production cycles that make many producers sensitive to 
short term disruptions. This potential for disruption is most marked in 
the fruit and vegetable sectors--i.e. the sector with the most 
perishable product and greatest dependence on migrant workers. However, 
vulnerability to labor disruption extends to livestock operations, such 
as dairy, and field crop operations faced with harvest-time labor 
needs. As a result, an analysis based solely on wage rates may 
seriously understates farm impacts. How restrictions on migrant labor 
were implemented would also be of critical importance. The estimates 
outlined here assume implicitly that restrictions were implemented with 
enough lead-time for the sector to adjust. Without this lead-time, the 
impact would be significantly greater than estimated here.
    In addition, the analysis makes no provision for the upward 
pressure on wages above the $14.35 per hour level that eliminating 
migrant workers could have. While there is no precise count of the 
total number of migrant workers currently in the U.S., even the 10-11 
million estimates at the low end of the range would be large enough to 
spark an economy-wide increase in wages. In this setting, agriculture 
would have to match the new wages in effect rather than the old $11-$14 
per hour wages. This could also increase farm sector adjustment costs 
significantly.
    Other factors could potentially work to lower adjustment costs. For 
example, the estimates describe here also make no provision for the 
sector's capacity to make structural changes that minimize the need to 
hire replacement labor. This would work to lower adjustment costs. 
While limited in the short term, the sector has adjusted to input cost 
increases in the past by modifying production technologies and changing 
the mix of inputs used in the production process. The adjustment that 
comes to mind immediately is falling back on the substitution of 
machinery for labor. As the following discussion suggests, however, the 
potential in the short term of 1 to 5 years is limited at best.
V. Mechanization
    One alternative to the adjustments identified in this report often 
cited by supporters of restricting migrant workers is increased 
mechanization. However, a closer look at the supply of mechanization 
technology on the shelf, the long lead-time involved in developing new 
technology and the changing nature of hired labor demand suggests that 
mechanization would have a very limited role to play in the short and 
intermediate term.
    Farmers have historically favored development and adoption of 
mechanization technology as a means of controlling costs, boosting 
incomes and minimizing the difficulties involved in hiring and 
retaining non-family labor. Consequently, most of the ready stock of 
mechanization technology has already been adopted. Decreased public and 
private investment in research and development over the last 2 decades 
has also worked to limit new technology in the pipeline. Given the farm 
sector's past experience with mechanization, the lead-times in question 
could be 10-15 years.
    Mechanization of processing tomatoes, for example, took 10-15 years 
from the late 1940s through the early l960s. There were none of the 
challenges associated with fresh fruits and vegetables where quality 
and appearance are at a premium. The process involved a concerted 
effort by several universities' agricultural engineering departments, 
USDA support and strong grower interest. Once available, the technology 
was quickly adopted and proved to be a major factor in making the U.S. 
one of the most competitive producers of processing tomatoes in the 
world. But the quick adoption once there was a prototype may be the 
exception, not the rule.
    Mechanization in other commodity markets has made sense only at 
scales large enough to rule out adoption for all but a minority of 
operators. The livestock sector, such as dairy, is a good example. 
Advances have been made in mechanical milking with the use of robotics 
but the technology generally requires 1,000 or more milk cows to reach 
the minimum scale necessary to justify the investment. Robotic milkers 
were introduced several years ago, yet costs are still so high that 
such a chance is prohibitive for 95 percent of all dairy operators.
    While there is certainly potential for some added mechanization 
over the long term, the potential for many commodities is very limited 
or non-existent, regardless of the time frame. The fresh fruit and 
vegetable market is a good example. As already noted, human dexterity 
and judgment is needed in the picking and packing of produce to meet 
consumer demand and to address concerns about the lack of uniform 
maturity, incomplete mechanical fruit removal, mechanical bruising, and 
differences in readiness criteria. Next generation technology that 
addresses these needs is not even on a drawing board at this time.
    Hence, advanced mechanization alternatives would require a revival 
of public-private investment in public-private research and development 
and a long-term Congressional funding commitment. Even then, the 
contribution would likely be limited to some products and not others, 
concentrated in the longer term, and economically viable only at large 
enough scale to further restrict its impact.
VI. Designing a Viable Guest Worker Program
    One approach to meeting U.S. homeland security concerns while 
accommodating agriculture's need for labor is to develop a viable guest 
worker program as an integral part of any legislation affecting migrant 
labor. The economic considerations identified earlier in this report 
suggest that such a program would have to have several critical 
components.
    First, a viable guest worker program would have to accommodate a 
large number of workers efficiently. Providing just the agricultural 
sector with an uninterrupted supply of guest workers would require a 
program capable of handling 500,000 workers each year. The current H-2A 
program accommodates about 30,000. Handling the much larger volumes 
needed in agriculture would require streamlining the application and 
review process in both the U.S. and the country of origin in order to 
protect homeland security and facilitate worker flow.
    Second, a viable guest worker program would allow the open market 
to determine wages and benefits. The existing program's ``adverse 
effect'' provisions have led DOL to issue arbitrary guidelines to 
protect the American worker from an influx of low-cost foreign labor 
that would bid down wage rates. Such has not been the case. As noted 
earlier, agricultural wages are well above the minimum wage and wages 
in other industries such as food preparation. The DOL provisions in 
question do, however, work to raise wages and benefits for foreign farm 
workers above market-clearing levels without leading to any increase in 
Americans seeking farm jobs. Migrant farm labor hired through the 
program often costs $14-$17 per hour compared to the $9.50 average for 
the sector. The increase in hired farm worker wages shown in Figure 2, 
combined with farm operator difficulties in securing American workers 
even at the higher wages paid over the last decade, indicate that any 
adverse impact on American workers is minimal at best. Market forces 
would prevent any widespread abuse in the future as Americans vote with 
their feet for jobs elsewhere in the economy even at substantially 
lower wages. Access to administrative remedies would be sufficient to 
address any isolated cases of abuse.
    Third, a viable program would include provisions designed to meet 
agriculture's unique labor needs. For example, farmers generally need 
to lock in labor well in advance as part of their farm management 
plans. However, fluctuations in weather could move up or push back the 
dates labor is actually needed. Given the perishable nature of 
agricultural production, many farmers in question would not be able to 
``wait in line'' behind other employers with non-perishable products. 
Many farmers' labor needs are also concentrated in short periods of 
time centered around harvest. Hence, a viable program would allow for 
worker movement between employers to provide a guest worker with long 
enough employment to make the program worthwhile. Many other farmers 
need year round labor that would not ``fit'' into a seasonal worker 
program.
    Fourth, the NAWS survey indicates that migrant workers typically 
have an established work history with specific employers. The NAWS 
survey indicates that the average migrant worker has worked for the 
same employer/employers for more than 4 years and has been doing farm 
work in the U.S. for up to 10 years. A viable guest program would 
provide for continuing these established employer-employee links.
Note on Methodology
    This analysis is subject to several limitations relating to data 
and methodology. On balance, these limitations suggest that the impact 
ranges cited in the text are best interpreted as orders of magnitude 
rather than precise estimates.
    Regarding data, there are several sources with often conflicting 
observations. While the data tend to paint the same general picture, 
they can differ on specifics in any 1 year. For the purposes of this 
report, the National Agricultural Labor Survey conducted by USDA and 
the National Agricultural Workers Survey done by the Department of 
Labor were treated as definitive. Hence, for example, the report 
assumes than 53 percent of agriculture's hired workforce would be 
affected by restrictions on migrant labor despite indications from 
other largely anecdotal sources that the number affected would be 
higher and the impact of restrictions consequently greater.
    Regarding methodology, there has been relatively little research on 
farm labor markets done by USDA or the land grant universities. Hence, 
the econometric basis for doing impact analysis does not exist. The 
same is true for the broader labor market, particularly for the range 
of jobs relevant for this analysis. The analysis here is based on the 
assumption that farmers would have to bid in the open market for labor 
to replace lost migrant workers. This makes understanding how labor 
markets operate and how the agricultural sector adjusts to across-the-
board increases in labor costs critical.
    Regarding operation of labor markets, this analysis assumes that 
the Department of Labor's surveys of wages and employment can be used 
to develop a rough approximation of the labor supply curve for the 
range of jobs relevant for a farm labor analysis. There are undoubtedly 
many other job categories with wages that fall between Figure 7's 
benchmarks, but not with sufficient numbers likely to shift to fill 
agriculture's job vacancies. In addition, the wages shown are averages, 
with distributions including significantly higher and lower wages. 
However, it was assumed that Figure 7's benchmarks could be used to 
sketch out a rudimentary schedule of the higher wages agriculture could 
expect to pay to attract and hold replacement workers.
    As already noted, the analysis also assumes that labor moves freely 
between categories, and that labor movement between categories is based 
solely on relative wages as opposed to a combination of wages and job 
characteristics. And as already noted, the analysis makes no provision 
for the generalized upward pressure on wages above the $14.35 per hour 
level that eliminating migrant workers across the economy could have. 
All of these labor assumptions work to reduce and ``smooth out'' the 
labor adjustment in agriculture.
    These are particularly important assumptions for the agricultural 
sector, given production cycles that make producers sensitive to short 
term disruptions. This potential for disruption is most marked in the 
fruit and vegetable sectors--i.e. the sector with the most perishable 
product and greatest dependence on migrant workers. However, 
vulnerability to labor disruption extends to livestock operations faced 
with day-to-day operational needs and field crop operations faced with 
harvest-time labor needs. This suggests that an analysis based solely 
on replacement wage rates understates farm impacts. It also suggests 
that how restrictions on migrant labor are implemented is also of 
critical importance. The estimates outlined here assume implicitly that 
restrictions were implemented with enough lead-time for the sector to 
adjust--to find replacement workers. Without this lead-time, the impact 
would be significantly greater than estimated here.
    Regarding operation of the agricultural economy, this analysis 
assumes that farmers have little flexibility in substituting other 
inputs for hired labor. The analysis also assumes that the farm sector 
would have difficulty passing higher labor costs on to consumers. The 
elasticities for the short and long term were .50-.66, indicating that 
half or more of the impact of a labor cost increase would take the form 
of an added production expense and income deduction. The analysis also 
assumes that the long term relationship between production receipts and 
income holds--that is, farmers loose $.25 in income for every dollar in 
production displaced. These assumptions are consistent with the 
relationships at work in the Food and Agricultural Policy Institute's 
agricultural sector model and the USDA analysis underpinning the 
Department's Baseline. While these assumptions about the labor market 
and the agricultural economy suggest that this report's estimates of 
the costs of restricting migrant labor could be low, several factors 
suggest that they could be high. For example, the estimates describe 
here make no provision for the sector's capacity to make structural 
changes that would minimize the need to hire replacement labor. While 
limited in the short term, the sector has adjusted to input cost 
increases in the past by modifying production technologies and changing 
the mix of inputs used in the production process. The materials 
presented here suggest, however, that the potential in the short term 
of 1 to 5 years is limited at best.
    The analysis also provides for a distinction between short and long 
term impacts. The short term impacts are defined as 1-2 year impacts 
and do not provide for the full effect of a sustained across-the-board 
labor cost increase. The longer term impacts--3 years or more--provide 
for the full impact of higher wages as agriculture moves up toward the 
top end of the $11-$14.35 range discussed in the text. The longer term 
impacts also incorporate the full impact of cost increases working 
through the vulnerability analysis to reduce production and raise 
costs.
    These assumptions can be varied to establish a range around the 
income estimates described here. A lower bound on the income loss 
estimate can be established by assuming labor replacement costs would 
be lower, that farmers can pass along more of a cost increase to 
consumers, and that less production will exit the sector. This would 
lower the $1.5-$5 billion estimate to $1-$3.5 billion in the short term 
and the $2.5-$8 billion estimate for the long term to $1.5-$5 billion. 
Alternatively, assuming replacement wages are higher, that farmers are 
less able to pass along cost increases to consumers, and that more 
producers are forced to exit, the short term income loss would be $2-
$6.5 billion and $4-$9.5 billion in the longer term.
    In short, the impact of restricting agriculture's access to migrant 
labor is significant even with alternative more favorable assumptions 
for key parameters.
                             Attachment #4
Legal, Stable Workforce Critical for Agriculture
    Washington, D.C., October 4, 2007--Agriculture is on the front 
lines of the immigration debate in America and farmers, ranchers and 
growers desperately need a solution to the labor challenges they face, 
the American Farm Bureau Federation told Congress today.
    ``Sustaining our current level of productivity is contingent on a 
stable, reliable and legal workforce. Nowhere is the problem more acute 
than in agriculture,'' AFBF President Bob Stallman testified at a House 
Agriculture Committee hearing on the labor needs of American 
agriculture. ``The labor situation on America's farms and ranches is 
closely linked with the issue of immigration reform.''
    To illustrate the severity of the problem, Stallman cited Labor 
Department surveys indicating that in 2001 and 2005, 53 percent of the 
hired crop labor force was not authorized to work in the U.S.
    ``We believe this is probably a low estimate because it is based on 
responses volunteered by individuals to government-authorized 
interviewers,'' Stallman said. ``It seems reasonable that at least some 
individuals surveyed did not volunteer that they were not legally 
authorized to work.''
    Using National Agricultural Statistics Service figures that peg the 
number of non-family farm workers at one million, Farm Bureau estimates 
at least 500,000 agricultural workers in the U.S. lack proper 
authorization.
    Analysis of additional NASS data reveals a progressive tightening 
in the supply of agricultural labor, according to AFBF. Farmers 
normally require the most labor for their operations during the third 
quarter of each year. But a comparison of the third quarter of 2005 to 
the third quarter 1 year later indicates there were 60,000 fewer farm 
workers during this critical time period in 2006.
    The change in the balance between farm labor supply and demand is 
reflected in higher average wages for hired farm workers compared to 
other types ofworkers. According to the Labor Department, in 2005, 
hired farm workers earned an average of $11 to $12 per hour, compared 
to workers earning $6.65 per hour for food preparation, $11 per hour 
for janitorial jobs and $14.65 for construction labor. In fact, there 
are currently 10 million workers--more than 7 percent of the total U.S. 
workforce--who work for lower wages than they could earn in 
agriculture.
    ``Clearly, farmers are facing a difficult situation as they 
scramble for additional labor in an economy with a relatively low 
unemployment rate and a lack of individuals willing to work in 
agriculture,'' Stallman said.
    ``Without a stable, legal supply of labor to replace currently 
unauthorized workers, the fresh fruit and vegetable sector could see 
U.S. production decline by up to $9 billion a year,'' Stallman said. 
``Similarly, an abrupt loss of our labor supply could cause net farm 
income to drop by up to $5 billion annually.''
    AFBF continues to urge Members of Congress to set aside their 
partisan and ideological differences and do what is right for 
agriculture, and the U.S. as a whole, by approving national immigration 
legislation reform legislation without delay.

    The Chairman. Thank you very much, Mr. Stallman, for that 
testimony. We now will recognize Mr. Lee Wicker, the Deputy 
Director of North Carolina Growers Association. Welcome to the 
Committee.

  STATEMENT OF H. LEE WICKER, DEPUTY DIRECTOR, NORTH CAROLINA 
                 GROWERS ASSOCIATION, VASS, NC

    Mr. Wicker. Mr. Chairman, thank you for the opportunity to 
participate in this important hearing. I am Lee Wicker, Deputy 
Director of the North Carolina Growers Association, the largest 
H-2A Program user in the nation.
    North Carolina growers has 725 members this year and will 
employ nearly 7,500 workers. I represent the best, most 
compliant farmers in the nation, and I am extremely proud of 
them. I am the only person on this distinguished panel of 
experts who is a former government bureaucrat, a consultant, an 
advocate, a farm worker, a farmer, and an H-2A Program user. I 
am uniquely qualified to talk about this issue from a clinical 
and practical perspective.
    Unfortunately the issue of farm labor has become hyper 
politicized, due in part to the amnesty provisions contained in 
the AgJOBS bill. Farmers need workers to grow food, not 
amnesty. To ensure that growers have an adequate and legal 
labor force, the solution is not amnesty but rather repair of 
the broken H-2A Program so that growers will use it.
    Currently H-2A is too litigious, too expensive, and too 
much of a bureaucratic morass at the three Federal agencies 
that oversee the program. In order to fix H-2A so that it is 
workable for farmers, there are four crucial areas of the 
program that must be corrected.
    Number one, change the wage rate to prevailing. Every other 
visa program pays prevailing wage. Why should agriculture with 
its entry-level, low skill jobs be treated differently? The 
current H-2A minimum wage in North Carolina is $9.02 per hour. 
In the last 16 years, the wage is North Carolina has gone up a 
staggering 76 percent. Farmers cannot afford to pay that much, 
especially on top of the free housing, utilities, and 
transportation required by law.
    Number two, require binding mediation and arbitration. 
Growers and workers should be required to resolve legal issues 
through mediation and arbitration. Growers sign contracts all 
the time that contain mandatory mediation agreements. If it is 
okay for farmers, then it should be okay for farm workers. 
Since 1989, the growers of NCGA have been sued over 30 times 
and have paid over $5 million in attorneys' fees and settlement 
costs.
    This is a common experience among H-2A Program users around 
the country. I believe that you can protect farm workers 
without being sued by an attorney with a political and social 
agenda, and I am deeply troubled that growers who are making a 
good faith effort to do things legally and responsibly are 
being attacked.
    Number three, visa cost and transportation reimbursement. 
Cost associated with the worker applying for the visa should be 
paid for by the worker. Inbound transportation should be 
reimbursed to the worker upon completion of 50 percent of the 
contract. If the money is reimbursed upon arrival, the 
financial incentive for the worker to remain on the farm is 
removed. And guess where the workers will be. Gone.
    Number four, streamline and simplify the H-2A process. 
There are many delays with the U.S. Departments of Labor, 
Homeland Security, and most problematic has been the issue of 
getting enough appointments from the State Department for the 
one-on-one interviews and background checks. The system needs 
to be streamlined and simplified, eliminating redundant 
needless rubber stamping by bureaucrats.
    Most experts agree that if the number of H-2A workers were 
to double, the program would collapse under its own 
bureaucratic weight. The infrastructure is not in place for 
significant expansion.
    In summary, without these four changes, the H-2A Program is 
simply too expensive and too litigious for most growers to use. 
Most farmers prefer to employ illegals because it is cheaper, 
and they remain off the Federal and legal radar screens. If you 
employ H-2A workers, you can expect to have investigations by 
the U.S. Departments of Labor, Homeland Security, Justice, 
State, the FBI, the IRS, reporters, attorneys, and farm worker 
advocates.
    As Agriculture Committee Members, you have the forum and 
the ability to articulate the problem and offer policy 
solutions that will ensure American agriculture has an adequate 
and legal labor force. Please remember our growers need a 
workable H-2A Program, not amnesty. Amnesty did not work in 
1986, and AgJOBS, with its amnesty provisions, will not work 
today. It will only make matters worse.
    The North Carolina Growers Association supports H.R. 1792, 
the Temporary Agricultural Labor Reform Act of 2007. I thank 
you for your attention.
    [The prepared statement of Mr. Wicker follows:]

 Prepared Statement of H. Lee Wicker, Deputy Director, North Carolina 
                     Growers Association, Vass, NC
    Mr. Chairman, thank you for the opportunity to participate in this 
important hearing. I'm Lee Wicker, Deputy Director for the North 
Carolina Growers Association, the largest H-2A program user in the 
nation. The NC Growers Association has 725 members and will employ 
nearly 7,500 H-2A farmworkers in 2007. I represent the best most 
compliant farmers in the nation and I am extremely proud of them. I am 
the only person on this distinguished panel of experts who is a former 
government bureaucrat, a consultant, an advocate, a farmworker, a 
farmer and an H-2A program user. I am uniquely qualified to talk about 
this issue from a clinical and practical perspective.
    Unfortunately, the issue of farm labor has become hyper 
politicized--due, in part, to the amnesty provisions contained in the 
AgJOBS bill. Farmers need workers to grow food, not amnesty.
    To ensure that growers have an adequate and legal labor force, the 
solution is not amnesty, but rather repair of the broken H-2A program 
so that growers will use it. Currently, H-2A is too litigious, too 
expensive and too much of a bureaucratic morass at three Federal 
agencies that oversee the program.
    In order to fix H-2A so that it is workable for farmers, there are 
four crucial aspects of the program that must be corrected:

    1. Change the wage rate to prevailing. Every other visa program 
        pays prevailing wage. Why should Agriculture, with its entry 
        level, low skill jobs, be treated differently? The current H-2A 
        minimum wage rate in NC is $9.02 per hour. In the last 16 years 
        the wage in NC has gone up a staggering 76%. Farmers cannot 
        afford to pay that much, especially on top of the free housing, 
        utilities, and transportation required by law.

    2. Require Binding Mediation and Arbitration. Growers and workers 
        should be required to resolve legal issues through mediation 
        and arbitration. Growers sign contracts all the time that 
        contain mandatory mediation arbitration agreements. If it is 
        okay for farmers, then it should be okay for farmworkers. Since 
        1989, the growers' of NCGA have been sued over 30 times and 
        have paid over $5 million in attorneys fees and settlement 
        costs. This is a common experience among H-2A program users 
        around the country. I believe that you can protect farm workers 
        without being sued by an attorney with a political and social 
        agenda. I am deeply troubled that growers who are making a good 
        faith effort to do things legally and responsibly are being 
        attacked.

    3. Visa Costs and Transportation Reimbursement. Costs associated 
        with the worker applying for the visa should be paid for by the 
        worker. Inbound transportation should be reimbursed to the 
        worker upon completion of 50% of the contract. If the money is 
        reimbursed upon arrival, the financial incentive for the worker 
        to remain on the farm is removed--and guess where the workers 
        will be . . . gone.

    4. Streamline and Simplify the H-2A Process. There are many delays 
        with U.S. DOL, Homeland Security and most problematic has been 
        the issue of getting enough appointments from the State 
        Department for the one-on-one interviews and background checks. 
        The system needs to be streamlined and simplified, eliminating 
        redundant and needless rubber-stamping by bureaucrats. Most 
        experts agree that if the number of H-2A workers were to 
        double, the program would collapse under its own bureaucratic 
        weight. The infrastructure is not in place for significant 
        expansion.

    In summary, without these four changes, the H-2A program is simply 
too expensive and too litigious for most growers to use. Most farmers 
prefer to employ illegals because it is cheaper and they remain off the 
Federal and legal radars. If you employ H-2A workers you can expect to 
have investigations by the U.S. Departments of Labor, Homeland 
Security, Justice, State, the FBI, the IRS, reporters, attorneys, and 
farmworker advocates.
    As Agriculture Committee Members you have the forum and the ability 
to articulate the problem and offer policy solutions that will ensure 
that American Agriculture has an adequate and legal labor force. Please 
remember, our growers need a workable H-2A program, not amnesty. 
Amnesty did not work in 1986 and AgJOBS, with its amnesty provisions, 
will not work today, it will only make matters worse.
    Thank you for your attention.

    The Chairman. I thank the gentleman. I am now pleased to 
recognize--if I can get organized here--Mr. Scott Herring, the 
Executive Vice President and CEO of Farm Credit of Western New 
York. Welcome to the Committee.

         STATEMENT OF C. SCOTT HERRING, EXECUTIVE VICE
   PRESIDENT AND COO, FARM CREDIT OF WESTERN NEW YORK, ACA, 
                          BATAVIA, NY

    Mr. Herring. Mr. Chairman, Members of the Committee, thank 
you for the opportunity to testify on the labor needs of 
American agriculture. My name is Scott Herring, and I am the 
Chief Operating Officer for Farm Credit of Western New York, 
and we extend credit and other financial services to over 3,500 
customer members.
    The current farm labor situation is of great concern to our 
farmer members and to our organization. During the past decade, 
farm businesses have had difficulty hiring local workers to 
meet their needs and, as a result, have employed growing 
numbers of immigrant labor.
    Over the past few years, there have been more labor 
disruptions in western New York as a result of actions by ICE, 
local police, or simply because farm workers believe that the 
farm that they worked on would be targeted for enforcement 
actions.
    In light of the concern of farm labor availability, the New 
York Farm Credit Associations have estimated the economic 
impact of the loss of immigrant labor on New York farms. New 
York agriculture includes significant production in dairy, 
vegetables, fruit, and the greenhouse nursery sector. These 
sectors can be the most vulnerable to shortages in labor. The 
fact is that labor disruptions can quickly result in severe 
financial problems on many farms. Most farms simply do not have 
the financial resources to survive if they cannot fully harvest 
their products.
    With the increasing consumer demand for quality products, a 
delay in harvesting can also have a dramatic negative impact. 
While farmers must deal with natural disasters and with wide 
farm price fluctuations, a labor shortage causes farms to go 
out of business, shrink in size, and if possible move to more 
mechanization.
    Our analysis indicates that a prolonged severe disruption 
in labor availability as a result of enforcement actions 
without enhanced worker programs would have the following 
impact: We estimate that about 800 New York farms are highly 
vulnerable to going out of business or will be forced into 
part-time farms with severe labor shortages.
    The primary impact would be on dairy farms, with fruit, 
vegetable, and greenhouse nurseries also severely impacted. 
These farms have total sales estimated to be in excess of $700 
million, and realistically as many as 7,000 full-time 
equivalent positions would be impacted. These farms operate 
approximately 750,000 acres of cropland, and if these farm's 
businesses were to cease operating, some of this acreage would 
switch into less intensive agriculture, but hundreds of 
thousands of acres would be vulnerable to being discontinued 
from crop production and be converted to non-farm uses.
    The economic impact goes beyond the farm gate and could 
undermine in part the state's ag infrastructure that all farms 
depend on. In addition to the loss of farm employment, jobs 
would decline in the farm service input processing and 
marketing sectors. From a farmer or a lender perspective, not 
having a stable and reliable labor supply to harvest 
production, milk dairy cows, or undertake other necessary 
production and marketing tasks could be a catastrophic 
situation.
    Farms can deal with low prices and poor production for at 
least 1 and sometimes 2 years. The same could be said of a 
severe labor shortage that reduces harvest for a year or 2. But 
after a year or 2, the farm's cash reserves are exhausted, the 
line of credit is used up, and the farmer is likely eroding 
their equity.
    When this happens, the business is looking seriously at its 
options. The farm simply cannot risk making future investments 
if they don't feel that they can be successful in the harvest 
and in other areas of bringing production to market. As a 
lender, we are concerned, and we know that many other lenders 
share that concern. Farm businesses have significant capital 
investment and limited financial resources to deal with labor 
shortages. They must also compete in a highly competitive world 
market.
    It is critical to New York, the American farmers, and 
ultimately for the American consumer that agriculture 
immigration reform be adopted. We support the need to secure 
our nation's border and control the entry of immigrants on 
America's terms. A critical part of that solution is a workable 
program for agriculture that meets those objectives while 
providing America's farms with a reliable source of farm labor.
    Any reform solution must deal with certain realities. 
First, it must provide means for seasonal workers to enter, 
work, and then return to their homeland in an efficient and 
timely manner. Second, it must provide a means to hire workers, 
many who have years of service and have advanced into key 
positions yet lack proper legal status. Providing these year-
round, experienced workers a way to earn legal status is 
essential. We believe the urgency is real. The uncertainty 
surrounding it makes it very difficult for farmers to plan for 
the future. And we thank you for your consideration.
    [The prepared statement of Mr. Herring follows:]

 Prepared Statement of C. Scott Herring, Executive Vice President and 
         COO, Farm Credit of Western New York, ACA, Batavia, NY
    Thank you for the opportunity to testify on the labor needs of 
American agriculture. My name is Scott Herring, I am the Executive Vice 
President and Chief Operating Officer for Farm Credit of Western New 
York. Farm Credit of Western New York extends credit and other 
financial services to over 3,500 customer-members in a 16 county area 
in western New York.
---------------------------------------------------------------------------
    Farm Credit of Western New York is part of the nationwide Farm 
Credit System. This analysis on farm labor and the potential impact of 
labor shortages was done by Farm Credit of Western New York, First 
Pioneer Farm Credit and Yankee Farm Credit. The analysis is based on 
data from the New York State 2002 Census of Agriculture and covers the 
entire state. As customer-owned cooperatives, Farm Credit institutions 
are owned and governed by farmers. In New York State, these Farm Credit 
institutions serve 8,500 members with in excess $1 billion in loans and 
have a market share of institutional farm debt of approximately 60%.
---------------------------------------------------------------------------
    The current farm labor situation is of great concern to our farmer-
members and to our organization. We are the largest lender to 
agriculture in western New York. During the past decade, farm 
businesses in New York have had increasing difficulty hiring local 
workers to meet their needs and as a result have employed growing 
numbers of immigrant labor.
    Over the past few years there have been more labor disruptions in 
western New York as a result of actions by Immigration and Customs 
Enforcement, local police departments or because farm workers believed 
that the farm that they worked on would be targeted for enforcement 
actions. In light of the concern with farm labor availability, Farm 
Credit of Western New York and the other New York Farm Credit 
associations estimated the economic impact of the loss of immigrant 
labor on New York farms last year. We recently modified our estimates 
as we have received more input from farmers and our farm business 
consultants. Attempting to establish impact numbers requires making a 
number of assumptions and should be viewed as estimates only.
    New York agriculture is very diverse and includes significant 
production in dairy, vegetable, fruit and the greenhouse-nursery 
sectors. These sectors can be most vulnerable to shortages of labor. 
The fact is that labor disruptions can quickly result in severe 
financial problems on many farms. Most farms simply do not have the 
financial resources to survive if they can not fully harvest their 
products. With the increasing consumer demand on quality production, a 
delay in harvesting can also have a dramatic negative impact. While 
farmers must deal with natural disasters and with wide farm price 
fluctuations, a labor shortage causes farms to go out of business, 
shrink in size or if possible move more to mechanization.
    Our analysis, which is based on New York State agricultural Census 
data, indicates that a pro-longed severe disruption in labor 
availability as a result of enforcement actions without enhanced guest 
worker initiatives would have the following impact:

  <bullet> We estimate that about 800 New York farms are highly 
        vulnerable to going out of business or forced to part-time 
        farms from a severe labor shortage. The primary impact would be 
        on dairy farms with fruit, vegetable and greenhouse-nursery 
        operations also severely impacted. Larger farms would feel the 
        impact of this first, but many mid-sized farms could also be 
        severely affected and have to change or cease operations.

  <bullet> These farms have total sales estimated to be in excess of 
        $700 million.

  <bullet> Thousands of on-farm jobs would be lost if these farms go 
        out of business. Realistically, as many as 7,000 FTE positions 
        (Full Time Equivalents) could be impacted.

  <bullet> The economic impact of this situation goes well beyond the 
        farm-gate and could undermine, in part, the state's 
        agricultural infrastructure that all farms depend on. In 
        addition to the potential loss of farm employment, jobs would 
        decline in the farm service, input, processing and marketing 
        sectors. Some economists estimate that three to four jobs in 
        the upstream and downstream economy are created by the 
        production associated with each farm worker job.

  <bullet> The vulnerable farms operate approximately 750,000 acres of 
        cropland. If these farm businesses were to cease operating, 
        some of this acreage would switch into less intensive 
        agriculture, but hundreds of thousands of acres would be 
        vulnerable to being discontinued from crop production and 
        converted to non-farm uses.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    As a lender we are concerned and we know that many other lenders 
share that concern. Farm businesses have significant capital investment 
and limited financial resources to deal with a severe labor shortage 
situation. They also must compete in a highly competitive world market. 
It is critical to New York State and American farmers and ultimately 
for the American consumer that agricultural immigration reform with 
appropriate farm worker provisions be adopted.
    We support the need to secure our nation's borders and control 
entry of immigrants on America's terms. A critical part of that 
solution is a workable program for agriculture that meets those 
objectives while providing America's farms with a reliable source of 
farm labor. Any reform solution must deal with several realities. 
First, it must provide means for seasonal and migrant workers to enter, 
work, and return to their homeland in an efficient and timely manner. 
Secondly it must provide means to hire workers, many who have years of 
service and have advanced into key positions, yet lack proper legal 
status. Providing these workers a way to earn legal status is 
essential.
    Thank you for your consideration of our views.

C. Scott Herring,
Executive Vice President and Chief Operating Officer,
Farm Credit of Western New York, ACA.

    The Chairman. Thank you very much. I will recognize Mr. 
Bruce--is it Goldstein?
    Mr. Goldstein. Goldstein.
    The Chairman. Goldstein, I'm sorry. Executive Director of 
the Farmworker Justice from Washington, D.C. Welcome to the 
Committee.

 STATEMENT OF BRUCE GOLDSTEIN, EXECUTIVE DIRECTOR, FARMWORKER 
                   JUSTICE, WASHINGTON, D.C.

    Mr. Goldstein. Thank you very much for the opportunity to 
testify today on the labor needs of American agriculture. 
Farmworker Justice is a 26-year-old national advocacy group 
that seeks to empower migrant and seasonal farm workers to 
improve their labor rights, immigration policy, and 
occupational safety and health. Over 100 farm workers are on 
Capitol Hill this week visiting Members of Congress to discuss 
the issues in this hearing today.
    Congress needs to address the farm labor problem in this 
country now. A conflict over policy has been festering since 
1995. A remarkable compromise endorsed by farm worker unions, 
agricultural employers, and a wide array of other 
constituencies has won substantial support from Republicans and 
Democrats across the ideological spectrum. It deserves to be 
enacted.
    The majority of farm workers in the United States today are 
undocumented. Out of about 2.5 million agricultural workers in 
the United States, probably 60 percent or 1.5 million, possibly 
more, are immigrants who are not authorized to work.
    The presence of so many undocumented workers in an 
occupation translates into weak bargaining power for all farm 
workers. Farm workers' income is very low, usually less than 
$13,000 a year. Housing is scarce and often decrepit. Very few 
farm workers receive even basic fringe benefits such as paid 
sick leave or holidays. Agriculture is ranked among the three 
most dangerous jobs in the United States. Without legal 
immigration status, farm workers find it difficult to win 
better job terms or government policy.
    Employers who hire farm workers now face a greater threat 
of immigration rates, border control, and other immigration 
enforcement that can deprive them of an adequate labor force. 
Of course, agricultural employers should improve wages and 
working conditions to attract job applicants and retain them. 
Congress should end the discrimination in overtime pay, safety 
and health regulations, and other laws that deprive farm 
workers of needed labor protections that other employees enjoy. 
The government also needs to substantially improve its labor 
law enforcement efforts.
    The reality, however, is that if we deported a substantial 
number of undocumented farm workers, there would be a 
tremendous labor shortage. Robots and other machines are not 
yet available to replace human beings in harvesting many of the 
fruits and vegetables we consume. America needs its farm 
workers. We are eating healthier and are buying more fruits and 
vegetables. In fact, the USDA has good news for us on trade. We 
are exporting more and more fruits and vegetables to consume in 
other nations. The people who create this bounty and place the 
food on the world's dining tables should be treated with 
dignity.
    A responsible solution to this farm labor problem would 
also allow our law enforcement agencies to focus on finding 
criminals and terrorists, rather than on deporting poor 
immigrants simply seeking to support their families by 
producing Americans' food.
    For years, there has been a stalemate in Congress that had 
three main warring positions. First, farm worker advocates 
wanted a legalization program like the 1986 law that permitted 
1.1 million undocumented workers to become permanent 
immigrants. We were not able to pass that.
    Second, many agribusiness groups lobbied for changes to the 
H-2A Program. We view the H-2A Program as abusive and overly 
skewed towards employers' interests and against the workers' 
interests. These proposals would have drastically reduced wage 
rates, minimized workers' opportunities for jobs if they are 
U.S. citizens, weakened housing requirements, and they would 
prevent guest workers from obtaining legal aid.
    H-2A workers lack the economic freedom and democratic 
rights that this country prides itself on. The grower groups 
that sought these reforms failed to pass their bill, and most 
of them eventually began to discuss a compromise.
    Third, there is a group that seeks to do nothing except 
perhaps allow the problem to worsen as immigration enforcement 
expands and both farm workers and employers suffer the 
consequences. Doing nothing, in our view, is irresponsible, end 
the stalemate.
    There is a reasonable solution that has widespread support. 
AgJOBS is the nickname for the bill. The united farm workers 
played the leading role in negotiating on behalf of farm 
workers with major agribusiness groups to resolve years of 
harsh conflict.
    A bipartisan group of legislators in both Houses spent 
many, many hours ironing out the settlement of hard-fought 
positions among organizations that have traditionally refused 
to negotiate with one another.
    The compromise is a win-win solution. Farm workers who earn 
immigration status would increase their bargaining power with 
employers to be treated fairly. Businesses would obtain a 
legal, stable labor supply of experienced farm workers. And if 
labor shortages were to occur in the future, the H-2A Program 
would be available.
    This is a practical, reasonable solution. The opponents 
would preserve the unacceptable status quo. AgJOBS may not be 
perfect, but it is a responsible, balanced approach to meet the 
labor needs of American agriculture. Thank you.
    [The prepared statement of Mr. Goldstein follows:]

 Prepared Statement of Bruce Goldstein, Executive Director, Farmworker 
                       Justice, Washington, D.C.
    Mr. Chairman and Members of the Agriculture Committee, thank you 
for the opportunity to testify today on the labor needs of American 
agriculture. My organization, Farmworker Justice, is a 26-year old 
national advocacy group that seeks to empower migrant and seasonal 
farmworkers to improve labor rights, immigration policy, and 
occupational safety and health. We have numerous publications on the 
issues the Committee is considering; I invite Members to visit our 
website, www.farmworkerjustice.org, to take advantage of these 
resources.
    Congress needs to address the farm labor problem in this country 
now. A conflict over policy has been festering since 1995. A remarkable 
compromise endorsed by farmworker unions, agricultural employers, and a 
wide array of other constituencies has won substantial support from 
Republicans and Democrats across the ideological spectrum. The majority 
of responsible legislators should assert themselves and end the 
stalemate.
    The principal farm labor problem is that the majority of farm 
workers in the United States are undocumented. Out of about 2.5 million 
agricultural employees in the U.S., probably 60% or 1.5 million, 
possibly more, are immigrants who are not authorized to work.
    The presence of so many undocumented workers in an occupation 
translates into weak bargaining power for all farmworkers. Most are too 
fearful of deportation to challenge unfair or illegal conduct or join a 
labor union. Even the citizens and authorized immigrants are reluctant 
to make demands on their employers if they won't have the support of 
their exploitable co-workers. The consequences of this untenable 
situation are serious. Farmworkers' incomes are very low, usually less 
than $13,000 a year. Housing is scarce and often decrepit. Very few 
farmworkers receive even basic fringe benefits, such as paid sick leave 
or holidays. Health care is rarely offered to farmworkers by their 
employers, and the undocumented and even new authorized immigrants to 
the U.S. are not eligible for Medicaid or other public benefits. 
Agriculture is ranked among the three most dangerous jobs in the United 
States. Without a legal immigration status, farmworkers find it 
difficult to win better job terms or government policy.
    Employers who hire farmworkers now face a greater threat of 
immigration raids, border control and other immigration enforcement 
that can deprive them of an adequate labor force. Many growers have 
sought to evade immigration law sanctions by using farm labor 
contractors to recruit and supervise workers in the fields. Some 
growers frivolously claim that they are not the ``employer'' of the 
farmworkers in their fields and that only the labor contractor is 
liable for violations of immigration and labor laws.
    Of course, agricultural employers should end labor contracting 
abuses and improve wages and working conditions to attract job 
applicants and retain them. Congress should end the discrimination in 
overtime pay, safety and health regulations, and other laws that 
deprive of farmworkers of needed labor protections that other employees 
enjoy. The government also needs to increase its labor law enforcement 
efforts drastically.
    The reality is, however, that if we deported a substantial number 
of undocumented farmworkers there would be a tremendous labor shortage. 
Robots and other machines are not yet available to replace human beings 
in harvesting many of the fresh fruits and vegetables we consume.
    America needs its farmworkers. We are eating healthier and are 
buying more fruits and vegetables. In fact, the U.S. Department of 
Agriculture has good news for us on trade: we are exporting more and 
more fruits and vegetables to consumers in other nations. The people 
who create this bounty and place the food on the world's dining tables 
should be treated with dignity.
    We as a nation are concerned about security. We should want to know 
who is living and working in this country, but we don't really know who 
is performing more than half the farm work in this country. A 
responsible solution to this farm labor problem would allow our law 
enforcement agencies to focus on finding criminals and terrorists, 
rather than on deporting poor immigrants simply seeking to support 
their families by producing America's food.
    For years, there had been a stalemate in Congress that had three 
main warring positions. First, we farmworker advocates wanted Congress 
to follow the precedent of the 1986 immigration law that permitted 
undocumented farmworkers, after proving their recent agricultural work 
in the U.S. and complying with other immigration law obligations, to 
obtain a temporary immigration status and later a permanent status with 
a path to citizenship. Our argument being that if we need workers in 
America to perform jobs, we should invite people in as immigrants, 
rather than as exploitable indentured servants. This country 
experimented with the massive Bracero guest worker program for 22 
years, ending in 1964. Despite significant labor protections in the 
Bracero program, it was widely recognized as abusive and a national 
embarrassment. We farmworker advocates had not been successful in our 
legislative advocacy for a replay of the 1986 legalization program.
    Second, many agribusiness groups lobbied heavily in the 1990's for 
changes to the H-2A agricultural guest worker program. They sought to 
make it easier for employers to hire guest workers on temporary work 
visas with no path to immigration status (or citizenship), lower the 
program's wage rates dramatically, minimize U.S. workers' opportunities 
to obtain jobs, weaken housing requirements, prevent guest workers from 
obtaining legal aid, and reduce government oversight. The growers 
sought to transform the farm labor system into a system of exploitable 
guest workers and set their wages and other job terms at unconscionably 
low levels. H-2A workers have little bargaining power: they may not 
switch employers; they must leave the country when their job ends; if 
they wish to return the following season they must hope that their 
employer will apply for a visa for them. Thus, guest workers lack the 
economic freedoms and democratic rights that this country prides itself 
on. The grower groups failed to pass their bill and most eventually 
began to discuss a compromise. However, some legislators, egged on by 
some employer organizations and others, have continued efforts to pass 
similar legislation that also have failed.
    Third, there is a group that seeks to do nothing except perhaps 
allow the problem to worsen as immigration enforcement expands and both 
farmworkers and employers suffer the consequences.
    Doing nothing, in our view, is extraordinarily irresponsible. 
Congress should end its stalemate. A vocal minority of opponents should 
not be permitted to perpetuate this absurd status quo. There is a 
reasonable solution that has widespread support. AgJOBS is the nickname 
for the Agricultural Job Opportunity, Benefits and Security Act. The 
United Farm Workers played the leading role in negotiating on behalf of 
farmworkers with major agribusiness groups to resolve years of harsh 
conflict. A bipartisan group of legislators in the House and the Senate 
spent many, many hours ironing out the settlement of hard-fought 
positions among organizations that had traditionally refused to 
negotiate with one another.
    The bill contains two parts. First, it would create an ``earned 
legalization'' program. Applicants could obtain a temporary immigration 
status by proving that they been employed in U.S. agriculture in the 
past 2 years, either as a legal guest worker or as an undocumented 
worker. If the temporary resident then performs a specified amount of 
agricultural work, during a 3 to 5 year period, he or she could convert 
to lawful permanent resident status and receive a ``green card.'' 
Security checks would prevent terrorists, criminals and other unwanted 
individuals from using the program. During the 3 to 5 years of the 
future work requirement, the participants would be permitted to work 
for any employer and in any occupation as long as the agricultural work 
was performed. The farmworker's spouse and minor children also would 
eventually become eligible to be immigrants. Several hundred thousand 
current farmworkers would be eligible for this program.
    Second, AgJOBS would revise the existing H-2A agricultural guest 
worker program, which allows employers to hire foreign citizens on 
temporary, nonimmigrant work visas. The H-2A program's history of 
abuses made negotiations by farmworker advocates with employers 
difficult. The reforms would benefit employers by making the program 
easier and quicker to use and lowering the wage rates. The compromise 
would retain important wage protections that employers had sought to 
eliminate. AgJOBS also retains or expands other important labor 
standards to prevent job losses and wage cuts among U.S. workers 
(including the participants in the new earned legalization program) and 
protect foreign workers from exploitation. Regrettably, the compromise 
would not permit H-2A workers to earn a path to citizenship.
    The compromise is win-win-win solution even though (or, perhaps, 
because) it required painful concessions all around. Farmworkers who 
earn immigration status would increase their bargaining power with 
employers. Businesses would obtain a legal, stable labor supply of 
experienced farmworkers. If labor shortages were to occur in the 
future, the H-2A program would be available. Moreover, the U.S. 
government would know who resides within our borders and would be 
better able to enforce immigration and labor laws in agriculture.
    Some object to AgJOBS saying that it's not a good enough deal for 
agricultural employers; they want the H-2A wage rates lowered even 
further, the housing requirement stripped out, the elimination of the 
job preference for U.S. workers, and other changes. These selfish 
demands were made in earlier legislation and failed. Congress needs to 
move forward.
    Some opponents argue that people who crossed our borders illegally 
should not be rewarded with an ``amnesty.'' AgJOBS is not an 
``amnesty.'' It contains tough, multi-year work requirements, financial 
costs, and other obstacles to earn immigration status.
    The opponents would preserve the current unacceptable situation. 
They have no reasonable solution. They certainly have no legislation 
that could pass Congress. In the meantime, farmworkers face terrible 
choices, employers risk losing their businesses and this nation 
continues to allow a situation in which a majority of the employees of 
an entire economic sector lack authorized immigration status.
    We need solutions, not hollow rhetoric or more ideological 
stalemate. AgJOBS is not perfect but it is a responsible, balanced 
approach to meet the needs of American agriculture.
    Thank you for the opportunity to present testimony on behalf of 
farmworkers.

    The Chairman. Thank you very much, Mr. Goldstein. And now 
our last panelist on this panel is Mr. Mike Brown, the Senior 
Vice President for Legislative Affairs of the American Meat 
Institute. Welcome to the Committee.

           STATEMENT OF MICHAEL J. BROWN, SENIOR VICE
         PRESIDENT, LEGISLATIVE AFFAIRS, AMERICAN MEAT
                  INSTITUTE, WASHINGTON, D.C.

    Mr. Brown. Mr. Chairman, thank you very much, and Members 
of the Committee. I appreciate the honor and privilege to 
appear here before you today. I will abbreviate my remarks but 
hope that my full testimony, written testimony, will be in the 
record. I would also like to thank my son, Dan, who has joined 
me today to offer support and to watch this Committee do its 
work. Thank you, Dan.
    And just to elaborate on Mr. Goldstein's testimony, I want 
to point out to the Committee that we are also producing, 
consuming and exporting more meat today than we ever have 
before.
    AMI would like to express its appreciation to the Committee 
for holding this hearing on the critical issue of agricultural 
labor. This is one of the most important issues facing AMI 
members in our nation. It is clear that the employment and 
immigration laws that govern the hiring and employment process 
in this country are dysfunctional and in urgent need of reform.
    In the mid 1990s, AMI members in the Midwest had their meat 
packing operations disrupted when they were audited by the 
Immigration and Naturalization Service and informed that many 
of their experienced employees, who were vital to their 
operations, had provided fraudulent documents at the time of 
hire.
    Given these circumstances, many AMI members sought to more 
carefully scrutinize employment authorization documents, and, 
ironically, faced discrimination charges at the same time for 
being too vigilant in seeking to employ authorized workers.
    Employers are required to walk an impossible legal 
tightrope, due to the failures in the immigration laws to 
provide bright lines for compliance. AMI and its members took 
the initiative to address this problem by successfully urging 
Congress in 1999 to extend the scope of the basic pilot program 
beyond the original five states that were approved, to include 
the State of Nebraska, where many AMI members are located.
    This tool enabled a number of meat packing companies to 
enter into agreements with INS to participate in the basic 
pilot program. Nearly 5 years ago, AMI members lobbied to have 
the program expanded to all 50 states, allowing all industries 
and all meat and poultry companies the opportunity to use the 
program.
    The experience of AMI members participating in the basic 
pilot program has been mixed. While the electronic verification 
mechanisms of the program have screened out a number of 
unauthorized workers at the point of hire, the mere fact that 
the company is participating in the program deters many 
individuals from even applying for work.
    The program nonetheless is only partially effective. It 
does not solve the problem of identity theft. In addition, 
there are delays by DHS in updating its databases to include 
the most recent change in status of aliens. These delays can 
result in an employer receiving false information regarding the 
legal work status of an individual.
    Moreover, the basic pilot program does not have the ability 
to determine when an individual's name and Social Security 
Number are being reported by several employers at the same 
time. Unfortunately the problem of identity theft is 
widespread, and, notwithstanding the extensive use of the basic 
pilot program by meat and poultry companies, it has resulted in 
continued disruption of AMI member companies.
    There have been a number of highly publicized raids of 
well-known meat packing companies that are participating in the 
program, that have worked closely with DHS in attempting to 
comply with the law. The raids of these companies have been 
devastating, resulting in significant disruptions of their 
operations and in some cases, losses in the tens of millions of 
dollars.
    Unfortunately, the basic pilot program will continue as an 
inadequate system until Congress takes the steps to correct its 
deficiencies.
    Mr. Chairman, AMI believes it is imperative that Congress 
undertake the effort to improve the program now, as it is set 
to expire in September of 2008. We have less than a year to 
work on this problem. Extension and improvement of the basic 
pilot program, consistent with the following four principles, 
is among the American Meat Institute's highest legislative 
priorities.
    One, individuals engaged in identity theft must be detected 
at the time of hire. It is essential that a biometric 
technology be included on documents to determine whether the 
person presenting a work authorization and identity document is 
in fact the person to whom the document relates.
    Two, the number of documents that an employer must accept 
for purposes of determining whether a person is authorized must 
be reduced. Currently, we have to accept one of any 29 document 
combinations.
    Three, DHS and the Social Security Administration must be 
given the resources to ensure that individual's status changes 
are current so that verification checks will have real time 
accuracy.
    Four, employers that comply with the electronic eligibility 
verification requirements under the basic pilot program must be 
provided adequate protection from both the Department of 
Homeland Security enforcement actions as well as discrimination 
lawsuits. AMI urges the introduction of legislation this year 
which will achieve the above described objectives.
    Mr. Chairman and Members of the Committee, AMI and its 
members look forward to working with you to find an immediate 
legislative solution to the critical challenges that our broken 
immigration system poses to the meat and poultry processing 
sector.
    I will be happy to answer any questions that the Members of 
the Committee may have as time allows. Thank you very much.
    [The prepared statement of Mr. Brown follows:]

    Prepared Statement of Michael J. Brown, Senior Vice President, 
     Legislative Affairs, American Meat Institute, Washington, D.C.
    Mr. Chairman, Ranking Member, and Members of the Committee, thank 
you for the opportunity to appear before this Committee. My name is 
Mike Brown and I am Senior Vice President for Legislative Affairs of 
the American Meat Institute (AMI). AMI has provided service for more 
than 100 years to America's meat and poultry industry--an industry that 
employs more than 500,000 individuals and provides more than $100 
billion dollars in sales to the nation's economy.
    AMI's members include America's most well-known meat and poultry 
manufacturers. Collectively, they produce more than ninety percent of 
the beef, veal, pork and lamb food products and seventy-five percent of 
the turkey food products in the U.S. Among AMI's member companies, over 
sixty percent are small family-owned businesses employing fewer than a 
hundred individuals and some are publicly traded and employ tens of 
thousands. These companies operate, compete, sometimes struggle and 
mostly thrive in one of the toughest, most competitive and certainly 
the most scrutinized sectors of our economy--meat and poultry packing 
and processing.
    AMI would like to express its appreciation to the Committee for 
holding this hearing on the critical issue of agricultural labor. This 
is one of the most important issues facing AMI members. AMI has 
actively supported comprehensive immigration reform during the past 
several Congresses. The employment and immigration laws that govern the 
hiring and employment process are dysfunctional and in urgent need of 
reform. The lack of viable legal channels for workers to enter the U.S. 
to work in industries that have demonstrable shortages of U.S. workers 
contributes to the illegal immigration problem facing this country and 
restricts the growth of our economy.
    For employers in the nation's meat and poultry industry, the 
Federal Government's failure to enact legislation solving this problem 
is especially frustrating. AMI's members have been in the forefront of 
the efforts to bring integrity to employment authorization verification 
process enacted by Congress in the Immigration Reform and Control Act 
(IRCA) in 1986. After it became apparent that the paper-based 
employment authorization process was woefully inadequate to screen out 
fraudulent employment documents, Congress enacted the Illegal 
Immigration Reform and Immigrant Responsibility Act (IIRIRA) in 1996, 
establishing the Basic Pilot telephonic and electronic employment 
verification program. This program was voluntary and was intended to 
screen out fraudulent Social Security Numbers and alien work 
authorization documents provided by job applicants to employers at the 
time of hire.
    In the mid-1990's, AMI members in the Midwest had their meatpacking 
operations disrupted when they were audited by the Immigration and 
Naturalization Service (INS) and informed that many of their 
experienced employees who were vital to their operations had provided 
fraudulent documents. These employers, in compliance with the paper-
based employment verification procedures enforced by INS, were unable 
to screen out those who provided invalid work authorization documents. 
While AMI members typically were not cited by INS for violating the 
immigration laws, they had to terminate large numbers of employees in 
whom they had invested substantial training costs, they also suffered 
economic losses due to worker shortages.
    Given these enforcement efforts, many AMI members took steps to 
more carefully scrutinize employment authorization documents and, 
ironically, faced discrimination charges under the unfair immigration-
related employment practice provisions of IRCA for being too vigilant 
in seeking to employ legally authorized workers. Needless to say, AMI 
members were and continue to be frustrated by the vice in which they 
find themselves in trying to comply with IRCA's inherently 
contradictory provisions. Employers are required to walk an impossible 
legal tightrope due to the law's failure to provide ``bright lines'' 
for compliance.
    AMI and its members took the initiative to address this problem by 
successfully urging Congress in 1999 to extend the scope of the Basic 
Pilot program beyond the original five pilot states to include the 
State of Nebraska, where many AMI members are located. This enabled a 
number of meatpacking companies to enter into agreements with INS to 
participate in the Basic Pilot program.
    Let me briefly describe how the voluntary Basic Pilot program 
works. The Basic Pilot recently has been renamed as E-Verify by the 
Department of Homeland Security (DHS), which now is responsible for 
administering it as the successor agency to INS. Participants are 
required to complete I-9 Forms for all newly hired workers. Upon 
receipt of identity and work authorization documents, employers seek 
confirmation of the documents through the pilot program's automated 
system by entering employee information, such as a Social Security 
Number or alien registration document number, into the pilot website 
within 3 days of the employee's hire. The program electronically 
matches that information against information in the Social Security 
Administration (SSA) database, and if an alien document is used, a 
match is attempted against DHS databases, to determine if the employee 
is authorized to work. The Basic Pilot then notifies the employer 
whether the employee is authorized to work. If the employee's 
information cannot be confirmed, the employee is given several days to 
contact SSA or DHS to resolve any inaccuracies in his/her records and 
to contest the non-confirmation. Employers are required to terminate 
employees who do not contest or cannot successfully resolve their non-
confirmation status.
    The experience of AMI members participating in the Basic Pilot 
program has been mixed. The electronic verification mechanisms of the 
Basic Pilot have screened out a number of unauthorized workers at the 
point of hire and the mere fact that a company is participating in the 
program deters many individuals from even applying for work. The 
program, nonetheless, is only partially effective. It does not 
effectively solve the problem of identity theft, through which 
individuals who have stolen the name and Social Security or alien 
document numbers from their rightful owners who are authorized to work 
use the stolen information to gain employment. The system cannot 
determine whether the person presenting the name and document number is 
the person to whom they relate.
    In addition, there are delays by DHS in updating its databases to 
include the most recent change in status of aliens. These delays can 
result in an employer receiving false information regarding whether an 
individual is or is not authorized to work. ``Real time'' updating of 
alien status information is critical to the effective functioning of 
the Basic Pilot program. It is costly and administratively burdensome 
for employers to hire and train an individual whom it believes is 
authorized to work, only to be later informed that a mistake was made 
and to have to terminate the individual.
    Moreover, the Basic Pilot program does not have the ability to 
determine through its access to the Social Security Administration's 
(SSA) database when an individual's name and Social Security Number are 
being reported by several employers at the same time, especially when 
the employers are not located in close proximity to each other. Such 
information should be more effectively acquired and used to target 
individuals seeking employment who are engaged in identity fraud.
    Unfortunately, the problem of identity theft is widespread and, 
notwithstanding the extensive use of the Basic Pilot program by meat 
and poultry processing companies, it has resulted in the continued 
disruption of AMI member companies. There have been a number of highly 
publicized raids of well-known meat packing companies, including AMI 
member companies, that are participating in the Basic Pilot program and 
that have worked closely with DHS in attempting to comply with the law. 
DHS apparently targeted these companies upon receipt of information 
that a number of employees had engaged in identity theft. The raids of 
these companies have been devastating, resulting in significant 
disruptions of their operations and losses in the millions of dollars. 
The use of the Basic Pilot program by law-abiding companies that went 
the extra mile to seek a legal workforce has not served them well. It 
will continue as an inadequate system until Congress takes steps to 
correct its deficiencies.
    Mr. Chairman, AMI is committed to improving the Basic Pilot program 
under which its members operate. We seek the support of the Members of 
this Committee in our efforts to extend and improve the Basic Pilot 
program so that it will better serve its intended purpose of screening 
out fraudulent documents and imposters using stolen identity and work 
authorization documents. It is imperative that Congress undertake this 
effort now, as the Basic Pilot expires in a year (September 2008) and 
the problems associated with its failures are accelerating as DHS 
increases its worksite enforcement activities.
    Extension and improvement of the Basic Pilot program consistent 
with the following four principles is among AMI's highest legislative 
priorities:

    1. Individuals engaged in identity theft must be detected at the 
        time of hire. The program must be improved to detect when there 
        are duplicate active records in the SSA database evidencing 
        that an employee's name and Social Security Number are being 
        used in multiple places at the same time. In addition to the 
        current Basic Pilot program, employers should be allowed to 
        participate on a voluntary basis in a separate verification 
        program that uses a biometric technology to determine whether 
        the person presenting a work authorization and identity 
        document is in fact the person to whom the document relates. 
        The technology exists and should be used in a pilot program 
        targeted at identity fraud.

    2. The number of documents that an employer must accept for 
        purposes of determining whether a person is authorized to work 
        and their identity must be reduced to avoid confusion and 
        identity fraud.

    3. DHS and SSA must be given the resources to ensure that 
        individual status changes are current so that verification 
        checks will have ``real time'' accuracy and avoid the delays 
        and administrative burdens that accompany non-confirmation or 
        incorrect confirmation of worker eligibility.

    4. Employers that comply with electronic eligibility verification 
        requirements under the Basic Pilot program must be provided 
        adequate protection from both DHS enforcement actions, as well 
        as discrimination lawsuits that may result if employees are 
        terminated after employers have properly complied with program 
        requirements.

    AMI urges the introduction of legislation this year that will 
achieve the above-described objectives by extending the Basic Pilot 
program for an additional 5 years beyond its current expiration date. 
As in past extensions of the Basic Pilot program, we anticipate that 
the legislation will enjoy broad bipartisan support. AMI believes that 
an improved program must remain voluntary until such time as Congress 
enacts broad comprehensive immigration reform that allows adequate 
legal channels for foreign workers when there are shortages of U.S. 
workers and effectively addresses the undocumented worker population 
already working in this country.
    As with the current Basic Pilot program, we believe that new 
legislation should apply to only the persons who are newly hired after 
the program is enacted. Consistent with the principles that we have 
outlined, we also feel that it is imperative that the Basic Pilot 
program provide, in addition to its current verification model, an 
option that employers may elect that has a biometric component. Through 
biometric technology, fingerprint, retina and other comparisons can be 
made at the time of hire that will enable employers to ascertain the 
identity of persons presenting documents to ensure that they are who 
they say they are. To the extent there are concerns about the 
government's capacity to administer such a system on a universal level, 
a voluntary system based on biometrics would provide an opportunity to 
test and perfect such a system on a more limited basis in anticipation 
of broader application in the future.
    Mr. Chairman and Members of the Committee, we appreciate very much 
the opportunity to testify this afternoon. We look forward to working 
with you to find an immediate legislative solution to the critical 
challenges that our broken immigration system poses to the meat and 
poultry processing industry. While we recognize that immigration reform 
is inherently controversial and politically challenging, we believe 
that your support of the extension and improvement of the Basic Pilot 
program so that it more effectively solves the problem of illegal 
immigration in the work place is sound public policy. It also is the 
fair thing to do for those employers that have gone the extra mile to 
comply with our laws by using the Basic Pilot program, as well as 
consistent with the will of the American people who want our laws 
effectively enforced.

    The Chairman. Thank you very much, and I want to thank the 
panel for that excellent testimony. And we will move to 
questions, and I am going to yield my time to the gentleman 
from Florida, Mr. Mahoney.
    Mr. Mahoney. Thank you, Mr. Chairman. And thank you, 
panelists, for being here today discussing this important 
issue.
    You know we have some very interesting statistics that Dr. 
Holt provided us at the very beginning in terms of the 
magnitude of the problem, the number of illegals that are 
working on our farms and in our processing plants, and the 
dependency of the whole industry on an illegal workforce.
    I guess my first question is that, about a month ago, 
Social Security Administration and Department of Homeland 
Security decided that they were going to change their policy 
and start to enforce the No-Match letters. In my district, this 
created quite an uproar on the part of my citrus growers and my 
specialty crop folks. That was the impetus for this hearing 
today because of the anger that my growers and farmers felt 
about this change in policy.
    And I would be interested to hear from each of you what 
your view would be if the Administration moves forward on this 
decision of change in policy. Dr. Holt?
    Dr. Holt. Congressman, clearly the mismatch regulation will 
have a tremendous impact because the statistics speak for 
themselves. And unless there is an option for employers to 
obtain legal workers, then enforcing the law with respect to 
illegal workers simply leaves them with no alternative.
    And so it is kind of as simple as that in my view. It might 
be interesting. The latest statistics I have seen are that 17 
percent of all of the mismatches in the United States are 
attributable to agricultural employers. You compare that with 
the fact that 1.2 percent of the workforce is in agriculture, 
and it gives you an idea of the magnitude of the problem.
    Mr. Mahoney. Thank you, Dr. Holt. Mr. Stallman?
    Mr. Stallman. Well, I will certainly concur with what Dr. 
Holt said. In our submission, we provided a letter that we sent 
to DHS about the middle of August, detailing all of the 
problems with that including some suggestions for some changes 
to make the rule work better but----
    Mr. Mahoney. Will this be an immediate problem?
    Mr. Stallman. Yes, as soon as it is fully implemented, it 
will be an immediate problem.
    Mr. Mahoney. Okay, and the result of which would be what? A 
lack of----
    Mr. Stallman. Well, everything from a lack of workers to 
legal prosecution. I mean the range of things that will occur 
for producers are all in the negative category.
    Mr. Mahoney. Mr. Wicker?
    Mr. Wicker. It would have zero impact on our growers. Our 
growers are in the H-2A Program. Their workers are legal.
    Mr. Mahoney. And so all of your growers fall into the 2 
percent of the American----
    Mr. Wicker. Correct.
    Mr. Mahoney. And the H-2A Program works perfectly fine for 
your growers?
    Mr. Wicker. No, I would not say that it works perfectly 
fine.
    Mr. Mahoney. I have to tell you. I don't know too many 
people that have participated in the H-2A Program in my 
district who think that it is a very good program.
    Mr. Wicker. It is a very expensive and painful program, and 
the growers are afraid to use it because it is too expensive. 
And they are afraid they are going to get sued.
    Mr. Mahoney. Okay, Mr. Herring?
    Mr. Herring. It would probably be one of the things that 
starts the disruption. I mean people will have difficulty 
having the labor on the farms and in the processing and market 
aspects of their business. And they will begin to make 
decisions on what to do next.
    Mr. Mahoney. Mr. Goldstein?
    Mr. Goldstein. In addition to what has been said already, 
it is going to exacerbate some developments. More and more 
employers are probably going to resort to hiring farm labor 
contractors to hire their farm workers in an effort to say the 
labor contractors are responsible for dealing with immigration; 
``I don't employ any of those farm workers on my fields.''
    Mr. Mahoney. Right, so they are going to move the liability 
to somebody else who is willing to take on the legal risk?
    Mr. Goldstein. Right. I mean while the workers go more and 
more underground and live in fear, and families get broken up, 
and the farmers lose their workforce.
    Mr. Mahoney. Mr. Brown?
    Mr. Brown. Mr. Mahoney, it would have zero impact on our 
plants, but I think it just highlights the fact that this 21-
year-old immigration law is broken and needs fixing.
    Mr. Mahoney. Now, one of the questions--we are running out 
of time here. But one of the other questions is that there are 
a lot of people that are excited about doing AgJOBS, and if we 
are serious about securing the country's borders, wouldn't 
AgJOBS actually be just another highway for people to come into 
this country initially legally: like they are doing through JFK 
Airport right now on tourist visas and end up, when they have 
the opportunity to get a better job in the construction trades 
or the housing industry to make more money. It would just be an 
opportunity for them to opt out of the program, so to speak, 
and go work some place else illegally? Mr. Stallman?
    Mr. Stallman. We view the AgJOBS bill as being a partial 
solution to some of the issues we are facing. Short term, you 
are right in the characterization that over the longer term 
from 3 to 5 years, those workers which would get blue cards 
would transition into green cards, and then move into other 
employment sectors. That was the result that we experienced 
with the 1986 law, so we would expect the same thing to happen. 
So it is sort of a short-term solution, but we need a guest 
worker program for the long term once we get through that 
initial period. And that is why we think the H-2A Program, if 
significantly reformed, could play that role.
    Mr. Mahoney. So what you are saying is if we do AgJOBS, the 
only way that you could see that it would work is that there 
would have to be a clear path to citizenship going from the 
AgJOBS to a green card situation in order to prevent people 
from----
    Mr. Stallman. Well, I am not sure about the citizenship 
part of it. I don't know that that would solve the problem.
    Mr. Mahoney. And the green card.
    Mr. Stallman. The issue is that the blue card workers would 
be required to remain in agriculture, unless they move into 
green card, they can go into other industries. And we have no 
further avenue for workers to come after that.
    Mr. Mahoney. Okay, Mr. Wicker, one quick question for you. 
I mean one of the concerns that I have about what I see going 
on in the Administration as a result of a lot of these policies 
regarding homeland security is a tax, a hidden tax on business. 
Do you think it is the responsibility of your growers in North 
Carolina to have to be responsible for immigration and 
naturalization in your industry in terms of being able to 
monitor and manage these problems?
    Mr. Wicker. No, I don't, but that is not an issue for us 
because all of our growers come on H-2A visas and are legal.
    Mr. Mahoney. And how much does that cost your growers to 
participate in H-2A?
    Mr. Wicker. It varies from farm to farm, but I think the 
range is going to go from $11 to $14, $15 an hour when you 
factor in the wage rate, the housing, the transportation, the 
visa cost. It goes on.
    Mr. Mahoney. And do you think that the cost that you are 
bearing to participate in the program is something that your 
growers should be responsible for?
    Mr. Wicker. Well, I think we have to pay workers for 
working, but I think that the wage and benefit package is so 
expensive that our growers are going to quit using the program. 
And they are either going to turn back to illegal workers, or 
they are going to quit production all together. And I think 
both those----
    Mr. Mahoney. So what you are saying is that given the 
options today, that it is the best option. But in a perfect 
world, do you think that you your growers should be responsible 
for the immigration policies of the United States?
    Mr. Wicker. No.
    Mr. Mahoney. How about you, Mr. Herring? What do you think, 
being from New York State?
    Mr. Herring. Well, being from New York State, but not being 
the labor expert that the others are, here on the panel, I 
don't have a real good answer for what the solution is. I do 
know that when it comes to what happens on the farm from a 
financial standpoint, and what they have to deal with in that 
market, this will be a disruption. And it will be very 
difficult for them to get through if there was a labor 
shortage, and it happened immediately.
    Mr. Mahoney. Yeah, just before I turn it back over, I would 
just like to say I appreciate you taking these questions. And I 
just want you to know that there are different kinds of taxes, 
and this immigration issue has become a hidden tax on 
agriculture.
    And when I take a look at the profitability of the 
agriculture industry, and I take a look at the risks of the 
people that are participating in it, I think it is unreasonable 
for the Federal Government to ask the industry to bear that 
burden. And with that, Mr. Chairman, I will turn back my time 
to you.
    The Chairman. I thank the gentleman. I am pleased to 
recognize the Ranking Member, Mr. Goodlatte, from Virginia.
    Mr. Goodlatte. Thank you, Mr. Chairman. Back when the last 
amnesty bill was passed by the Congress in 1986, I was an 
immigration lawyer, and at the time, I was pretty appalled and 
concerned by the results that occurred, which I think we are 
still paying for today. In fact, what Mr. Stallman just 
indicated was indeed the case for many farmers. What they found 
was that if they had an individual who was working on that 
farm, sometimes for many years, and they suddenly were able to 
get a green card, even though they had entered the country 
illegally, they were off to find employment in sectors of our 
economy where the work is not as hard and is not as difficult 
as farm work is.
    And yet, we also know that this is a tremendous opportunity 
for foreign workers. I don't think there is anybody in this 
room, with maybe one or two exceptions, who doesn't acknowledge 
that it is very, very hard to find sufficient American workers 
to do what needs to be done on our farms. This is tough, hard, 
backbreaking work, and Americans often choose many, many other 
options.
    So I have never been a fan of the Adverse Effect Wage Rate 
that is in the H-2A Program because that program really sets an 
artificial barrier to its usage, and I am very proud of the 
fact Mr. Wicker and a number of other people do use it. But 
they constitute only about 2 percent of farm workers in the 
country.
    And so it seems to me to address this problem is to have a 
guest worker program that works, not one that provides what has 
been referred to as a pathway to citizenship. The foreign 
worker benefits tremendously because the wages that are paid 
under any wage rate that will competitively draw them to work, 
in my legislation, is the prevailing wage that I think makes 
the most sense. But no matter what that wage rate is, it is far 
superior to what most of these individuals are getting in the 
country from which they have come.
    And if you had a program that worked where they could come 
into the country for the better part of a year, maybe even 
extend that so 2 years could be linked together, but then 
return to their own country for 20 or 25 percent of the time 
and then come back again, many would like to avail themselves 
of that. Their native language and culture and customs, the 
cost of living, their extended family are all back home.
    But under the current situation with an unworkable H-2A 
Program and the tremendous need that we have in this country 
for agricultural workers, they come across the border 
illegally, or they may come legally and then overstay their 
visa. I suspect most of the agricultural workers have come 
across the border illegally.
    And then they are not going back again. In fact, they are 
going to bring their family with them because they are not 
planning on ever trying to do that again. It is very risky. It 
is expensive to hire the coyotes that bring them into the 
country. They risk dying of thirst in the desert or suffocating 
in the back of a tractor trailer, and they are not going to do 
it again.
    We have developed this underclass in our society that has 
become a security risk. It is not advantageous to them, but it 
is also not a good thing for our society. So it seems to me 
that the best way to solve this problem is to correct the 
deficiencies in the current H-2A Program and not to reinvent 
it.
    So, Mr. Goldstein, if I might ask: The H-2A provisions the 
AgJOBS bill would maintain nearly all of the current 
requirements with which the H-2A employers must comply, such as 
paying mandatory guaranteed wages far above those prevailing in 
the area, providing free housing to workers, and guaranteeing 
payment for 75 percent of the work hours promised at the time 
of hire, to mention a few.
    H-2A workers are not particularly different from other farm 
workers, except that they came here legally. But under the 
proposal you support, a million legalized farm workers would be 
afforded none of those benefits, which you deem to be in need 
of protection because the law would still require that only H-
2A employers provide such things.
    It seems that if undocumented workers have been exploited 
for years by low wages and a lack of safe housing and other 
protections, you would want to ensure that inferior pay and 
working conditions would be addressed before they are legally 
available to the same growers you contend exploit them. So why 
does the proposal you support require only H-2A employers to 
provide such additional protections? And would you oppose a 
plan that would convert illegal workers into H-2A workers 
instead of permanent residents? And if so, why?
    Mr. Goldstein. Thank you for the opportunity to answer a 
series of very good questions that require some complex 
answers, but the bottom line is this. First of all, we could 
have a country in which we decide that a lot of low-wage 
industries really don't attract many Americans anymore, and we 
could have a long list of occupations that could add up to 
several million people doing those jobs.
    We in America need to ask ourselves--let us say it is five 
million for all those occupations including agriculture, but 
could be building service workers, whatever. It could be ten 
million people. Do you want----
    Mr. Goodlatte. But let me note a difference between 
building service workers and agricultural workers. Building 
service workers are not affected by international competition 
that American farmers and ranchers have to compete in an 
international environment. And therefore, you could make a much 
stronger argument that the pay scale that is offered in 
industries that are not affected by this can be treated very 
differently under the law than in industries like agriculture 
where it is clear that almost any amount you pay, you can't get 
the workers for this very hard, difficult, back-breaking work.
    Mr. Goldstein. Okay, my question is this. Do we want 
millions of people in this country who may only work for the 
one employer that got them the visa for that job and can only 
stay in that job and have to go home at the end of that job? 
Because that is the way the H-2A Program works. You have no 
ability to switch employers, and you are dependent upon the 
employer to give you that visa in the following year.
    Mr. Goodlatte. Well, let me make----
    Mr. Goldstein. And as a result of being so dependent upon 
the employer to get that visa, you are really not capable of 
asking for more money in wages. And you never get the right to 
vote because under H-2A right now, there is no path to 
permanent immigration status or to citizenship. Do we want 
millions of people in this country to have a non-immigrant 
guest worker status where they never get the right to vote?
    And as far as the Adverse Effect Wage Rate, the Adverse 
Effect Wage Rate under the H-2A Program, the phrase comes from 
the statute. The law says you shall not bring in guest workers 
under wages and working conditions that will adversely affect 
similarly employed U.S. workers. Between 20 percent and 40 
percent of farm workers in this country are legal immigrants or 
U.S. citizens.
    Mr. Goodlatte. Let me----
    Mr. Goldstein. They make a certain amount of money.
    Mr. Goodlatte. Let me cut you off right there.
    Mr. Goldstein. Two more sentences.
    Mr. Goodlatte. Mr. Goldstein, now let me----
    Mr. Goldstein. Two more sentences.
    Mr. Goodlatte. No, my time has already expired. I am, by 
the good graces of the Chairman, going to make this point. The 
situation you described is the situation that we have right now 
because 98 percent of the workers are working here illegally in 
the conditions that you describe. Improvements to the guest 
worker program will assure them that they are getting 
prevailing wages, will assure them that they are treated fairly 
in the process. And what you have described does not address 
the concern that Mr. Stallman just raised, which is that if you 
put all of these people who are working right now on a pathway 
to citizenship, you are then going to be very shortly 
confronted with the problem of replacing all of them.
    Mr. Goldstein. Every commission that has looked at this 
issue----
    Mr. Goodlatte. This is my time, not the gentleman's.
    Mr. Goldstein. Every commission and government study and--
--
    Mr. Goodlatte. Mr. Chairman.
    Mr. Goldstein.--academic study has concluded for the last 
70 years that the way to stop the flow outside of agriculture 
is to improve wages and working conditions to stabilize the 
workforce. We are a capitalist country. If you are afraid that 
the workers will go to other industries, then that means that 
employers in agriculture need to compete for those workers by 
improving wages and working conditions.
    Mr. Goodlatte. We are allowing people into our country in 
what is a great opportunity for them to earn far more than they 
earn in their own country, and they are happy to take those 
jobs. And they would be happier still if they had the ability 
to transit across our border with a secure identification 
system and not be faced with the current environment that they 
are in and our economy is in.
    Mr. Goldstein, your time is finished, and I am going to 
finish up my time so the Chairman can go on to recognize 
another individual. But the situation that you describe is an 
unworkable one because it will increase the flow of individuals 
coming into this country. It will not decrease it because you 
will transit people out of this work area.
    Now, the law is the same for everybody. If you come into 
this country and you are a college student, and you then 
subsequently gain a new job skill or you marry a United States 
citizen or you have a family member that can petition for you, 
you can then transit out of that. But we do not create a 
special category that says if you have been working here for a 
limited period of time, you can then suddenly avail yourselves 
of things that other people, who have lawfully entered this 
country and sometimes wait in line for decades to accomplish, 
simply by virtue of the fact that you originally came here 
illegally and now you want to transit out.
    We need to address this problem from the standpoint of our 
farmers and ranchers. We need to address it from the standpoint 
of the workers being treated fairly under a legal, workable 
system. And we need to address it from the standpoint of what 
is in the best national and security interest of the country. 
And I don't think your approach does it. Thank you, Mr. 
Chairman.
    The Chairman. I thank the gentleman. And I am pleased to 
recognize one of our Subcommittee Chairmen, Mr. Etheridge, from 
North Carolina.
    Mr. Etheridge. Thank you, Mr. Chairman. Mr. Chairman, I 
would ask unanimous consent that the document from Ms. Herseth 
Sandlin be entered into the record.
    The Chairman. Without objection, so ordered.
    [The document referred to is at the end of the hearing on 
p. 136.]
    Mr. Etheridge. Thank you, Mr. Chairman. Let me thank you 
for holding this hearing and for our panelists for being here. 
This is critically important certainly to this whole country, 
and very much so to my district and my state.
    Mr. Stallman, I appreciate you highlighting the problems 
our producers are facing in making and planning a decision 
because of a need of labor. I have probably one of the most 
diverse agriculture districts in America. Sweet potatoes, 
poultry, pork, watermelons, you name the products, we have them 
to include all the things that you are here with, tobacco, et 
cetera.
    My question is this though. I talked with a fellow that 
grows a lot of cucumbers. We do a lot of pickling right outside 
the district. Is it fair to say that what we do about 
immigration and labor reform, whatever you call that, really 
presents a choice as to whether we want to grow food here in 
the United States or allowing imports as we do with oil? Would 
you elaborate on that point please, sir?
    Mr. Stallman. Well, specifically with respect to pickling 
cucumbers, it is my understanding that plants are having to 
import----
    Mr. Etheridge. That is correct.
    Mr. Stallman.--cucumbers from India at this point.
    Mr. Etheridge. That is correct.
    Mr. Stallman. I was discussing that subject 2 weeks ago, 
and that is what we are facing if we don't provide adequate 
labor for our farms and ranches. Our own study shows that we 
will have that production moving outside the borders of this 
country, and we will be sourcing product from outside the 
borders of this country. And I am not sure the American 
citizens are really ready for that to happen.
    Mr. Etheridge. Well, I wanted to get that on the record 
because I am not sure people understand what is at stake. Mr. 
Wicker, since you are from my district and I think you 
indicated that we have one of the highest state-to-labor 
numbers in the country.
    My question is as one of the highest users of it, you 
testified earlier that your association facilitated the 
employment of about 7,500 legal H-2A workers for the seasonal 
employment of 2007. How does this number compare with previous 
years?
    Mr. Wicker. It has dropped from about 1,100 growers, 10,000 
workers in 2001, and the problem is that every time the wage 
rate goes up or we provide more benefits, more growers quit. 
They quit production, or they move back to illegal workers to 
source their labor.
    Mr. Etheridge. Let me follow up very quickly because I have 
one more question, Mr. Stallman. And you would understand this 
better than anybody sitting at the table. Some of those deal 
with tobacco, and a lot of that has gone to mechanization. Now, 
I know a lot of the other--because a farmer may have sweet 
potatoes; he may have tobacco; he may have cucumbers; he may 
have a variety of things. Would that have had any impact 
because the mechanization in one area or not? Do you know that, 
Mr. Wicker?
    Mr. Wicker. I am sorry. I did not understand your question.
    Mr. Etheridge. Well, if you are a farmer, a lot of our 
farmers in North Carolina and certainly in our district may 
have cucumbers----
    Mr. Wicker. Yes.
    Mr. Etheridge.--tobacco, sweet potatoes, peanuts, a host of 
those where they would use the same laborers. Has the fact that 
a lot of that has gone to mechanization had any impact on the 
H-2A numbers?
    Mr. Wicker. I would say that it obviously has to have some 
impact, but not significantly.
    Mr. Etheridge. Okay, thank you. Mr. Stallman, you touched 
on something that I heard recently from a number of our folks 
at home, and when I talk about the farm, please understand I am 
talking about that whole stream all the way to the packing 
operation because it is a continuous stream.
    Regarding the No-Match letters that they have heard of from 
producers getting. They are not so clear about what they are 
supposed to do when they receive one of them, and it has them 
quite alarmed. Could you elaborate on this a little further? 
You touched on it earlier. Do you have any specific examples of 
this occurring across the country? Because you would be in the 
unique position to share that with this Committee.
    Mr. Stallman. Well, with regard specifically to the 
proposed DHS No-Match letters, right now, that is in 
litigation, and so we haven't had to face the situation in the 
country under the new regime where employers will be expected, 
in essence, to become enforcement agents to a certain extent on 
the immigration issue when they receive these No-Match letters.
    The thing that really concerns us is the liability that 
exists for not following the DHS procedures when they receive 
the No-Match letter. It puts them in jeopardy because if they 
follow them and discharge an employee on the basis of that No-
Match letter after they go through a series of steps, then they 
are subject to being sued by employment attorneys on the basis 
of a wrongful discharge. And so I mean it is catch-22. You 
can't win, and that is what we are concerned about.
    The full impact hasn't hit yet. It won't until we actually 
get into that after the litigation is settled. But when it 
hits, I suspect it is going to have a broad reaching impact 
that will be negative for producers.
    Mr. Etheridge. I know my time has expired, but with the 
Chairman's indulgence, I want to ask Dr. Holt one question 
because I think it gets to the heart of some of this.
    You touched in your testimony, and in your written 
testimony, about no matter what we do here, we still have a 
number of jobs out there that we don't have people to fill in 
agricultural, in that whole vast agricultural area. Would you, 
for the record, expand on that just a little bit more, please, 
sir?
    Dr. Holt. Well, I might point out that this is an economy-
wide problem, not just an agricultural problem.
    Mr. Etheridge. I understand that, but if you----
    Dr. Holt. We are simply not--the other places it will be 
exacerbated in----
    Mr. Etheridge. Agriculture.
    Mr. Holt.--the rate of job creation in this country. We are 
creating jobs in this country more rapidly than we are, if you 
will, creating workers to fill the jobs through natural birth 
and through legal immigration. And, in fact, that has gone on 
long enough now that we have probably somewhere in the 
magnitude of ten million more jobs in this economy than we have 
native-born and legally admitted workers to fill them.
    And every year, that continues. Secretary Gutierrez the 
other day pointed out that the growth in the labor force 
currently is something like 0.2 percent a year. Our average 
rate of job creation is 1.2 percent a year. Now, it is first 
grade arithmetic to subtract 0.2 from 1.2, and you have a 
shortfall. And that 1 percent shortfall amounts to over a 
million jobs a year, so we are creating more than a million 
jobs a year more than the people that we have to fill them.
    I haven't heard anybody in Congress advocate negative 
economic growth as the solution to the immigration problem. 
Therefore, the only other way--there are only two places these 
workers can come from--natural birth and immigration. We are 
simply going to have to have realistic immigration policies to 
allow people to fill these jobs.
    Mr. Etheridge. Thank you, Dr. Holt. I appreciate it. I 
yield back, Mr. Chairman. Thank you.
    The Chairman. I recognize the lady from North Carolina, Ms. 
Foxx.
    Ms. Foxx. Thank you, Mr. Chairman, I appreciate it, and I 
appreciate very much particularly Mr. Wicker being here from 
North Carolina to help us understand this problem better.
    I want to get a clarification from you because so much of 
what we have heard is that the H-2A Program is a good program. 
It works, but there are problems with it administratively, and 
I want to get something clear from you.
    You said that--my understanding is in the H-2A regulations, 
transportation reimbursement is already stipulated as being due 
to the worker upon completion of 50 percent of their contract. 
But in your point number three, you said a crucial change for 
the H-2A Program that inbound transportation should be 
reimbursed upon the completion of 50 percent of the contract.
    Since the regulations already stipulate that it is due upon 
completion of 50 percent of the contract, what exactly are you 
saying that needs to be changed in the way it is being 
administered?
    Mr. Wicker. We were sued by lawyers several years ago under 
the Fair Labor Standards Act, and their legal argument is that 
we are required to reimburse these costs to the worker during 
the first week to make sure that it doesn't cut in to their 
minimum wage. And so activist lawyers pursue changes through 
litigation, and while the regulations clearly state that 
transportation reimbursement is due at 50 percent of the 
contract period, the courts have held that growers have to 
reimburse it in the first week. And that is not consistent with 
the Department of Labor's enforcement posture over the last 20 
years. We have been investigated since 1989 every year by wage 
and hour auditors, and we have never been cited for failure to 
pay the wages under this legal theory.
    And we have been asking for an opinion letter from the U.S. 
Department of Labor since 1994. We initially asked for that 
through Congressman Lancaster's office, and so the courts have 
held something different than the Department of Labor. And it 
has increased our growers cost by about $200--well, $350 per 
worker.
    Ms. Foxx. Mr. Chairman, one more quick comment. Having 
learned a lot about the H-2A Program, having used the H-2A 
Program a long time ago in my own family business and being 
familiar with Mr. Yates and other people who--Mr. Yates is 
going to testify shortly about the program. Would it be fair to 
say that we could help solve a lot of the problems that we are 
having with matching willing workers to willing employers if we 
would simplify this program and make it a lot easier for 
employers to use. Could you see us bringing many of these 
people who are here illegally now into the program as Ranking 
Member Goodlatte has recommended? Do you see that helping us 
fill that tremendous gap? And having a program that protects 
workers. I want a program that protects the people who come 
here to work. I want to treat them fairly and give them an 
opportunity for this. Do you think we can make it happen?
    Mr. Wicker. Yes, Congressman, we can. I agree. I want to 
protect workers too. Our workers are legal so they are not 
afraid to talk to lawyers or to union representatives or to 
worker advocates. Illegal workers are afraid to talk, but 
growers are afraid. Growers are afraid to use this program 
because they don't want to get sued. And they don't want to go 
to court, and so, yes, the answer to your question is if we 
make improvements, growers and workers will benefit from a 
better program.
    Ms. Foxx. Thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady. The gentleman from 
California, Mr. Baca.
    Mr. Baca. Thank you very much, and thank you, Mr. Chairman, 
for having this hearing today, which I feel is very important 
to a lot of us as we look at the needs of our agriculture in 
reference to jobs. I think I have everything that is going on. 
Excuse me a second.
    The Chairman. Well, we are short of time here, and we have 
to go, folks.
    Mr. Baca. Yes, let me ask this quick question of the 
panelists that are here right now. And one of the questions 
that I want to ask--and I know because of the bullying, the 
fear that has been going on in the creation of the immigration 
issue by a lot of the Republicans.
    And they have been creating fear amongst many individuals, 
and it has been a bully syndrome that they have done. If we 
didn't have the immigration crisis that they have created right 
now or the problems, and we would just allow human beings 
wanting jobs to come out and apply for jobs, would we still 
have--if we didn't have all of this, would we still have the 
labor crisis? I would like to start with Dr. Holt. If we just 
allowed farmers and others to hire individuals without any of 
these other kinds of regulations in meeting the demands of our 
labor needs, would we be able to do that?
    Dr. Holt. Essentially that is what is happening now with 98 
percent of the workforce. Only 2 percent of it is coming 
through the regulated program. But we have to recognize that 
there are----
    Mr. Baca. I am saying the law is in place. You know, we 
don't have to worry about whether you are legal, illegal. We 
are just talking about having bodies, people, to harvest our 
crops. Would we be able to have the labor force that is 
necessary if we didn't have all of these bully syndromes that 
are still there right now?
    Dr. Holt. We would not be able to have that labor force 
without workers coming from outside the United States, and that 
raises the security issues that require a structure for these 
workers to come into the United States legally so that we know 
who they are.
    Mr. Baca. Okay, thank you. Let me ask this quick question 
if I can of Mr. Goldstein. We are hearing a lot of complaints 
today about the H-2A Program. What do farm worker advocate's 
think about the way that H-2A is being administered, the 
program?
    Mr. Goldstein. Well, we have a lot of concerns about the 
way the H-2A Program operates. In our view, the Department of 
Labor consistently approves H-2A applications for employers 
when U.S. workers have applied for those jobs, that is legal 
immigrants or U.S. citizens have applied for those jobs, and 
the employers turn them away because they prefer guest workers. 
And the Department of Labor still certifies them and allows 
them to bring in guest workers. We have concerns that the 
Department of Labor routinely approves job offers that violate 
the requirements of the H-2A Program by not offering the wages 
and working conditions required.
    We think there needs to be a lot more oversight and 
enforcement of the H-2A Program. Our view is that the wages are 
not too high. In fact, they are too low. H-2A wage rate, all it 
is is you have to pay last year's average hourly wage rate paid 
to field and livestock workers combined, non-supervisory farm 
workers. It is just the average. By definition, an average 
means some employers are paying more, and some are paying less.
    If you claim that you can't find any U.S. workers to work 
for you, shouldn't you be competing with some other employers 
that are paying more before you are allowed to bring in foreign 
workers based on a labor shortage?
    The bottom line is this: AgJOBS contains a compromise that 
we can live with. It is very hard fought. There is a lot of 
controversy to it. There are a lot of concessions, that both we 
made and employers made. And some people want more. They just 
say, ``It is not good enough for the employers. We want the 
wages even lower. We want less protections.''
    AgJOBS is a balance we can live with and so can most of the 
grower groups. That is what we should do.
    Mr. Baca. Mr. Stallman, one quick question. Can machines 
replace human beings in doing the job?
    Mr. Stallman. Well, I am a believer in technology, and I 
believe in the long term that could be the case. There is a 
question of cost. And frankly that is what the industry will be 
driven to if we are going to maintain an industry here if we 
don't have an adequate guest worker program. But right now, 
that is not the case.
    Mr. Baca. Would it be cost effective if we went in that 
direction? Would we be able to harvest and pick the crops 
versus a human being that notices it, picks it up, versus a 
machine that may destroy it?
    Mr. Stallman. Maybe over the long term it could be cost 
effective but not anywhere in the near term.
    The Chairman. Gentlemen, I have to go vote, or we are going 
to miss it. So I thank the gentlemen. Panel I, I am going to 
have to ask you to stay because there are some Members that 
want to ask questions if that works for you. We only have two 
votes, so we should be back shortly.
    [Recess.]
    The Chairman. The Committee will come back to order. I 
recognize the gentleman from Michigan, Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman. I guess it pays to be 
a good student and get back to class early after you have 
missed the first part of it. I apologize if, due to the fact of 
missing preceding section here, that some of these questions 
may have been addressed. But these were concerns that we have 
taken from constituents on this issue and would like to address 
them as well.
    The first question I would ask, and let me ask that to Dr. 
Holt. Mechanization on farm operations has improved greatly all 
that goes on in agricultural life. For the record, why is hand 
labor still of such great importance in the general agriculture 
community?
    Dr. Holt. Well, you are right. Mechanization in particular, 
and various labor productivity enhancing technologies, in 
general, have been adopted at a very rapid rate in agriculture. 
Labor productivity in agriculture, even in the current 
environment, has been increasing at a rate equivalent to, and 
in many cases in excess of, labor productivity in the 
nonagricultural industry.
    But there are many jobs involved with growing plants and 
very perishable commodities that still require the careful 
attention of the human hand, I guess is about the best way to 
describe it. And while there are technologies that are being 
worked on even for those activities, for a lot of tree fruit 
harvesting activities, strawberries, asparagus, and so forth, 
we are simply not there yet and may never get there in terms of 
mechanizing those kind of activities.
    I would also point out, however, that even if we do 
mechanize, that doesn't necessarily solve the problem. There is 
nothing more mechanized than the combining of grain, and yet 
the entire grain crop in the Great Plains States, all the 
custom combine crew workers are alien workers coming into the 
United States under the H-2A Program. That is one of the bigger 
users of H-2A. So even when you do mechanize, that doesn't 
necessarily solve the problem.
    Mr. Walberg. Okay, thank you. Second question: Let me 
address this to Mr. Stallman. In the State of Michigan, many 
of, let us say my district in Michigan, which is probably 
arguably the most diverse agricultural area of the State of 
Michigan. Many of the producers there are frustrated 
significantly, to say the least, with the H-2A Program. What 
core provisions within the program need to be addressed in 
order to make the program work; and in fact, even more than 
just work? A program that would give incentive to agriculture 
and farmers and agricultural producers using the H-2A Program?
    Mr. Stallman. Well, that list is long, but we do believe 
that H-2A could be a viable program for the long term if we 
made significant changes. The first is reverting to a 
Prevailing Wage as opposed to the Adverse Effect Wage Rate. We 
need to expand the coverage, and particularly dairy doesn't 
qualify in some states as seasonal work. And there is a lot of 
need for labor on dairy farms. Just less bureaucracy, all the 
steps that a producer has to go through, and the timelines, 
make it very difficult to get the labor when they need it under 
the H-2A Program.
    And greater flexibility, and just one example of that would 
be using a housing voucher instead of mandated housing. You 
know, solve the problem but provide some flexibility to do it, 
and those are just some things.
    One of the real issues for border states, which perhaps 
doesn't affect Michigan as much in this regard though, is the 
commuter program where workers come across the border on a 
daily basis to work and go back, such as in Arizona. That 
flexibility to allow that kind of work needs to occur also.
    Mr. Walberg. Okay, thank you. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. The gentleman from 
Colorado, Mr. Salazar.
    Mr. Salazar. Thank you, Mr. Chairman. I don't know if some 
of these questions were asked. I had to step out for a little 
bit. But, Mr. Wicker, in your testimony, you stated that you 
were fine with some of the provisions of AgJOBS, however you 
were concerned about amnesty. Could you define ``amnesty'' or 
your definition of ``amnesty'' to me?
    Mr. Wicker. I really don't support any of the provisions of 
AgJOBS. We would like to see the prevailing wage, less 
litigation, and less bureaucracy.
    Mr. Salazar. Could you define ``amnesty?'' You mentioned 
that amnesty is something that you couldn't support?
    Mr. Wicker. Well, I am not prepared to define ``amnesty.'' 
That is a big part of the public debate, but I can tell you 
that amnesty doesn't put workers on the farm to harvest crops 
that we can feed our country.
    Mr. Salazar. Well amnesty to me, and when you look at the 
definition in the dictionary, it means total forgiveness for a 
wrongdoing of some kind and--I know that in the STRIVE Act, for 
example, there are issues there that talk about heavy fines for 
those who have broken the law, meaning that they would go back 
to the back of the line if there is a path to citizenship. To 
me, that is not amnesty, but that is where the big debate comes 
in is how you define amnesty.
    Mr. Goldstein, could you comment on my question, please?
    Mr. Goldstein. Yes, thanks. We obviously think that 
``amnesty'' is not a word that applies to AgJOBS. Under AgJOBS 
is the earned legalization program. Farm workers who have been 
working here in the United States would have to come forward 
and report themselves as having been undocumented and prove 
that they have been working in American agriculture during the 
last 2 years, 150 days, in agriculture.
    Then they would get a temporary status. In a temporary 
status, they would have to continue to work in American 
agriculture for 3 to 5 years, a certain number of days per year 
depending. And they would have to pay fees. They would have to 
pass security checks and meet other obstacles. It is a very 
arduous process of earning legal immigration status. We don't 
see how that should be called amnesty.
    Mr. Salazar. I appreciate your comments, Mr. Goldstein. Mr. 
Brown, I am sure you are aware of the almost bankruptcy of 
Swift & Co. meatpacking plant in Greeley, Colorado in Mrs. 
Musgrave's district when the raid occurred last year.
    That plant was sold to an Argentinean family because of the 
heavy fines imposed in Colorado. I understand what is going on, 
and the labor force is not there. You talked about a biometric 
ID system, which I tend to agree with you on. I believe that 
that is the only way that you can ever enforce any kind of 
immigration law, but if that happens, it has to be some kind of 
a National ID System. Would you be willing to carry one of 
these biometric IDs with you as well? Because otherwise, you 
wouldn't be able to apply for a job?
    Mr. Brown. If the question is would I personally be willing 
to carry one, yes, I would.
    Mr. Salazar. And do you agree with me that that is the only 
way to really be able to enforce immigration law, if you have 
some kind of tamper-proof ID system in place? Anyone can 
comment on that.
    Mr. Brown. In my view, the only way to deal with true 
identity theft, whether that has to do with immigration law or 
any of our domestic laws, the only way to deal with that is to 
have a biometric and to have the Federal agencies, the various 
Federal agencies be able to communicate with each other.
    For instance, we used a basic pilot program. We submit the 
name of the employee, the new employee, and their Social 
Security to DHS. The Department of Homeland Security will then 
get back to Swift or any other number of employers that use the 
program, and they will verify yes, John Smith's Social Security 
is X. What it does not verify is if there is a number of other 
people using the name John Smith and the same Social Security 
Number. That problem does not present itself until the end of 
the year when employers are paying Social Security taxes on 
employees, and you file your W-2 forms. Then you find out that 
there are a number of John Smiths using the same number.
    That is why if we had up-front biometric as well as the 
Department of Homeland Security and the Social Security 
Administration sharing information, we could reduce that 
problem and, in essence, develop a border within a border and 
allow employers to comply with the laws and to prevent raids 
such as we had at Swift.
    Mr. Salazar. Thank you. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. The gentleman from 
Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman. I appreciate you holding 
this hearing and the gathering of testimony that we have 
received here. I hear the discussion about the definition of 
``amnesty,'' and we have discussed that considerably over in 
the Judiciary Committee and in the Immigration Subcommittee. 
And the definition that I have consistently used, and one that 
many of my colleagues consistently use, is this: that to grant 
amnesty is to pardon immigration lawbreakers and reward them 
with the objective of their crime.
    I think that definition upholds against the rational 
criticism that might come, unless one wanted to advocate for 
amnesty, and in that case one might try to change that 
definition. But we have laws, and if we enforce those laws, 
that is my stand.
    If you give someone legal status after having broken the 
law, then you have granted them an amnesty for the law that 
they have broken. So, I wanted to make that point.
    And then I think maybe the subject matter that needs to be 
explored in significant depth here is that each of us can 
advocate for more access to higher quality and cheaper labor. I 
have been an employer for 28 years, met payroll over 1,400 and 
some consecutive weeks. So, I have always wanted more and 
better employees that would actually work for an even cheaper 
rate. But certainly I don't want to pay more than what they are 
worth in the marketplace.
    So it is a natural thing in business to be advocating for 
that, and I understand that. We have a broader issue here, and 
that is that this is a sovereign nation, and the borders of 
this nation define the nation itself. And, of course, we must 
defend those borders. But from a macroeconomic perspective, the 
issues boil down to this for me. We have a workforce, according 
the U.S. Department of Labor, of about 142 million workers. And 
out of that 142 million workers, then we have an illegal 
workforce in America--now, some of these statistics come from 
different organizations, none from my calculations beyond the 
math itself--that 4.7 percent of our workforce is the illegal 
labor that we have. That 4.7 represents 6.9 million illegal 
workers in America.
    Now, if we have 12 million illegals--and I think it is 
actually 20 million or more, but I am working with the 12--7 of 
the 12 million from round figures are those that are working. 
At any rate, you get a 58 percent employment rate out of those 
numbers that come into the United States illegally: 6.9 million 
workers out of a workforce of 142 million, representing 4.7 
percent of the workforce, but being low skilled, only produce 
2.2 percent of the actual GDP.
    If they are doing 2.2 percent of the work, production, and 
you came into the factory in the morning and you found out that 
2.2 percent of your production workforce wasn't going to clock 
in that morning, that amounts to, if you are going to do all 
the work in America in an 8 hour day 7 days every week, that 
would be 11 minutes out of each 8 hour day.
    So, we have 69 million Americans of working age who are not 
in the workforce. All we would have to do is hire one out of 
every ten of those to replace those that are illegally working 
in the United States, and we will have solved this labor 
shortage problem.
    Now, I understand you have to set up recruitment lines and 
do different training and people want to do different things, 
and there are industries that are far more dependent and far 
more critical than others. But if we never had this universe of 
employees to go to across our borders of that labor, we would 
have found other solutions. We have evolved into a dependency.
    So, I would ask Dr. Holt to comment on those macro numbers 
and tell me if it is in your estimation that it would be wise 
for us to want to improve the average productivity of each 
American who is lawfully present in the United States as a 
priority. I would leave that question to you, Dr. Holt.
    Dr. Holt. Well, if your question is improving productivity 
of American workers, I think you need to look at the 
statistics, the record of how the productivity of American 
workers has increased. We have been increasing the productivity 
of American workers. We have been increasing the productivity 
both in agriculture and non-agriculture.
    Mr. King. Excuse me. We agree on that then, and so, yes, we 
agree on that point. But what are your comments with regard to 
that macro equation that I have given about hiring one in ten 
non-working Americans to replace those who are unlawfully 
present in the United State or not legal to work.
    Dr. Holt. Well, you ran through those statistics rather 
quickly, and that was a complicated analysis. And I am not sure 
I agree with all of those statistics. I am not prepared to 
debate them at the moment until I would analyze them. With 
respect to the agricultural situation, which is what we are 
here discussing today, the question is do we have 800,000 to a 
million persons in the United States who are not currently 
working who are willing to become migrant workers, to leave 
their places of residence, to go to the farms of the United 
States, and to perform manual agricultural labor: I think the 
answer to that question is clearly no, and in the----
    Mr. King. I think, Dr. Holt, the question of 800,000 is 
still a question. And the question of recruitment from other 
professions is a subject matter that should be before this 
Committee as well. But I recognize that I have run out of time, 
and I appreciate your response and your testimony. I yield 
back, Mr. Chairman.
    The Chairman. Thank you very much. I think we are going to 
go now to Mr. Pomeroy.
    Mr. Pomeroy. Thank you, Mr. Chairman. I want to thank the 
panel. I have found this to be an extremely informative 
hearing, even though many of the issues are not of immediate 
and significant impact in my district as they are others, given 
the nature of agriculture up in the Great Plains. But obviously 
it is a topic of urgent national importance.
    Dr. Holt, I was quite astounded by some of the statistics 
you quote in your testimony. What percentage of farm labor in 
the U.S. do you believe is here on an undocumented basis?
    Dr. Holt. Well, Congressman, interestingly enough, 
agriculture is the one sector of our economy in which the U.S. 
Government actually produces official statistics on illegal 
alien employment. The Labor Department conducts something 
called the National Agricultural Worker Survey on a biannual 
basis where they go out, and our own government asks a large 
sample of seasonal agricultural workers, among other things, 
whether they are legally entitled to work in the United States. 
The most recently published survey, 53 percent of the 
respondents to that survey said they were not legally entitled 
to work in the United States.
    Out of the newcomers in any given year--and agriculture is 
seasonal work--it is work in which workers move up and out into 
better jobs. So \1/6\ of the agricultural workforce each year 
are newcomers working their first year in agricultural work in 
the United States. In the most recent survey, 99 percent of 
those newcomers responded that they were not legally entitled 
to work in the United States. These figures are not 
speculative. These are official figures produced by the U.S. 
Department of Labor.
    Mr. Pomeroy. Your testimony notes that often the amount of 
migrant labor involved in farming, those from other countries, 
that would go through the H-2A visa process, would represent 2 
percent of the labor actually required to produce today's 
product.
    Dr. Holt. We have approximately 3.1 million job 
opportunities in agriculture for hired agricultural workers 
each year. Last year, which was the peak year for H-2A 
employment, 59,000 of those jobs opportunities were H-2A 
certified. That is 1.9 percent of all of the agricultural job 
opportunities in the U.S. were H-2A certified.
    Mr. Pomeroy. 1.9 percent. So the thing that we have that 
deals with farm labor, other than a citizenship route, is 
clearly not even making a token contribution to the overall 
workforce need.
    Now, you note in your testimony the imminent impact of the 
immigration enforcement authorities, Social Security match 
issue. Would you care to expand on that?
    Dr. Holt. Well, what the Social Security mismatch 
regulation will require is for employers who receive mismatch 
notices to confront the employees in question and ask them ``to 
correct the data.'' Well, of course, with very few exceptions, 
the problem is not incorrect data. It is the fact that the 
individual is not legally entitled to work in the United 
States. They don't have a Social Security Number. The number is 
either fraudulent, or it has been appropriated from someone 
else. And so if the individual is unable to correct that 
information within 90 days, the employer is required to 
terminate them.
    Mr. Pomeroy. Now, the Administration is announcing this 
significant crackdown, which will have a potentially dramatic 
impact on the identification of farm workers, working without 
documentation, has said, ``Well, they are going to run this 
program that presently deals with 1.9 percent of folks coming 
in from outside the country in farm labor.'' Do you believe 
there is any way they can ramp up the H-2A process sufficiently 
to deal with the number of workers that will potentially be 
identified and sent home under the enforcement crackdown?
    Dr. Holt. Well, bear in mind that the mismatch regulations 
aren't necessarily an enforcement crackdown. I mean the irony 
is the employer will have to terminate workers who are unable 
to correct their information, but nobody is going to go out and 
pick these workers up and do anything with them.
    What it is going to do is to churn the agricultural 
workforce. The worker that I have to terminate is going to go 
down the road and apply to work for Bob Stallman, and it is 
going to have a document that appears on its face to be 
genuine. So Bob is going to have to hire him. The worker that 
Bob terminates is going to come down the road and apply to work 
for me. And because he is going to have a document that appears 
on its face to be genuine, I am going to have to hire him.
    And then next year, there will be another round of mismatch 
letters, and Bob will get the names I sent down the road to 
him. And I will get the names that he sent down the road to me, 
and we will churn it all over again. And we will send them down 
to Lee Wicker and so forth and so on.
    Mr. Pomeroy. Right.
    Dr. Holt. We will just pass them up and down the table. 
Nobody is actually going to go and pick these workers up and 
remove them. So the mismatch regulation in and of itself 
doesn't solve anything.
    Mr. Pomeroy. It compounds the farce that we all have.
    Dr. Holt. Exactly.
    Mr. Pomeroy. I know my time is up, but I would like to ask 
one more question. Mr. Goldstein, in the back and forth with 
the Ranking Member, it appeared to me you had thoughts to 
further express, but I would like you to speak specifically to 
this. A concern that many of us have about guest workers is 
that essentially these people never have status that is going 
to get them out from under really a potentially exploitive 
labor circumstance. Would you address that and talk about how 
AgJOBS changes that?
    Mr. Goldstein. Right, some of the proposals are just to 
transform the entire agricultural workforce into a guest worker 
system that is where the workers only hold a nonimmigrant 
status, and they can only work for the one employer that got 
them the visa. The minimum standards that are required by the 
H-2A Program, as long as they are offered, have to be accepted. 
Under H-2A, the employer has to offer these minimums, but if 
the U.S. worker or foreign worker says I will work for 10 cents 
more an hour, legally the employer can say no, I am not going 
to do that and can go get another guest worker because that is 
just the way that the system works.
    So, under these programs, the workers really don't have any 
bargaining power. They don't have a path to immigration status 
or citizenship. They will never have the right to vote, and it 
creates a real imbalance in the political representation 
because the growers, their employers reside in those local 
areas, and they vote. Their workers have interests too, but 
they don't vote.
    AgJOBS would allow currently undocumented farm workers in 
the United States to, over a multiyear arduous process, to earn 
legal immigration status, and at the same time, provide 
employers with a stable workforce that they could then choose 
to--in our private marketplace--they are supposed to compete 
for the workers by improving wages and working conditions.
    So that is the first part of AgJOBS. The second part would 
reform the H-2A Program. It would make it easier to use. It 
would reduce red tape. It would lower the wage rates by over a 
dollar an hour and freeze them for 3 years while two studies 
are done for Congress by the GAO and a special commission to 
tell Congress about H-2A wage rates and let Congress then 
decide how to approach the wage rates. There are a number of 
other reforms to the H-2A Program. That would really be the 
future program for the United States----
    Mr. Pomeroy. Thank you.
    Mr. Goldstein.--to bring in new agricultural workers.
    The Chairman. The chair recognizes Mr. Fortenberry, 5 
minutes.
    Mr. Fortenberry. Thank you, Mr. Chairman. Thank you, 
panelists, for the engaging discussion particularly some of the 
insights of the inherent problems from Mr. Wicker and Mr. 
Goldstein both have pointed out in the H-2A Program.
    At the outset, I would recommend, as a part of having a 
responsible policy discussion about the appropriate needs of 
the agricultural labor supply, that we take off the table a 
blanket accommodation of illegal behavior or the hint of it as 
a policy option. We must uphold the rule of law. We must 
promote responsible citizenship and orderly immigration.
    Now, to that end, we have heard a lot of the complexities 
today, and I do appreciate your insights. My colleague from 
North Dakota anticipated some of my questions regarding the 
statistics. But I would like to further unpack some of those 
statistics. Dr. Holt, you pointed out that approximately 53 
percent of seasonal workers have illegal status here. But 
overall agricultural workers, what is the division between 
citizens and non-citizen? Then I want to ask the question, and 
perhaps it is better asked sector by sector, as to whether or 
not real wages have fallen or risen.
    Dr. Holt. Well, the first question first. First of all, let 
me mention that the 53 percent illegal is the number of people 
who were responding in the survey that they were illegal. I 
don't think anybody believes that the number is really that 
low. These are simply the people that were willing to admit it.
    Mr. Fortenberry. What is the extrapolated figure through 
probability?
    Dr. Holt. When workplace audits are conducted on the ground 
and the authenticity of documents are examined, the typical 
experience is that more like 75 percent or so.
    Mr. Fortenberry. Okay.
    Dr. Holt. I have seen figures in some instances in places 
that you would not imagine are hotbeds of illegal immigration 
like the upper Midwest as high as 90 percent. So \3/4\ is 
probably--78 percent of the seasonal agricultural workforce are 
foreign born. Now, some of those individuals may have become 
citizens since--may have legally immigrated to the United 
States and become citizens and are engaged in farm work. I 
suspect the proportion of that 78 percent that that would 
describe is probably quite low.
    So 78 percent of our agricultural workforce in this country 
came here from outside the United States originally.
    Mr. Fortenberry. Seasonal agricultural workforce.
    Dr. Holt. This is the seasonal agricultural workforce. 
That's correct. Your second question, and I am sorry now, I 
have forgotten what it was.
    Mr. Fortenberry. Well, first of all, backing up. In terms 
of overall agricultural labor, what is the percent of American 
citizens versus non-citizens in the total workforce?
    Dr. Holt. Well, the 23 percent that were born here 
obviously are citizens.
    Mr. Fortenberry. Getting away from the seasonal parameters.
    Dr. Holt. Well, more than 80 percent of the agricultural 
workforce is seasonal. We know that a substantial number of the 
year round workers in agriculture are also illegal. That is one 
of the concerns about simply saying that reforming the H-2A 
Program solves the problem. It doesn't solve the problem 
because a small but key component of our agricultural workforce 
are workers that are no longer temporary or seasonal, are not 
eligible for the H-2A Program, no matter how streamlined it 
becomes.
    H-2A only permits, under current law, the admission of 
workers into temporary or seasonal occupations. And one of the 
reforms that is needed is to broaden that into, for example, 
the livestock sector. But the----
    Mr. Fortenberry. Real wages. We have to get that before we 
run out of time.
    Dr. Holt. Real wages, right. Real wages in agriculture have 
increased. They have increased--I can't right off the top of my 
head cite the statistics. Nominal wages, money wages, the rate 
of increase in the hourly rate for field and livestock workers 
compared to non-supervisory, non-agricultural workers--over the 
past 20 years, agricultural wages have actually increased at a 
more rapid rate. My recollection is roughly 39 percent more 
rapidly.
    Now, the actual wage in agriculture is still below the non-
agriculture wage because the skill range of workers in 
agriculture is much narrower than the skill range of 
nonagricultural workers.
    Mr. Fortenberry. Okay, but with any statistical discussion, 
you have to continue to unpack to understand clearly the 
parameters, but it would be good to see what that trend is 
versus non-skilled agricultural workers.
    Dr. Holt. And I would be happy to try to provide----
    Mr. Fortenberry. The point is to try to get to what was 
intimated earlier in some of the earlier testimony about how 
the impact of additional supply of agricultural labor, whether 
it is legal or in our regulated programs, is impacting wage 
growth. Because we do not, cannot advocate policies that would 
simply increase the supply of labor in order to bring down 
wages and pushing, of course, added social cost onto the rest 
of society.
    Dr. Holt. Well, I understand that, Congressman, but it is 
hard to argue that the presence of foreign workers in 
agriculture is having that impact, given the fact that the 
agricultural workforce is overwhelmingly foreign and illegal, 
and yet the nominal wage rate is rising, and the real wage rate 
is rising more rapidly in agriculture than it is in non-
agriculture, which is less impacted overall by the employment 
of illegal aliens.
    Mr. Fortenberry. Indulge me for 15 more seconds. Let us 
find out what the differential is that you are not able to 
recall off the top of your head.
    Dr. Holt. I will.
    Mr. Fortenberry. I think that would be helpful statistic as 
well.
    Dr. Holt. I will do that. My recollection, as I say, is 
that over the 20 year period that I recently looked at these 
statistics for, the relative rate of increase was about 39 
percent higher in agriculture than in non-agriculture. I will 
provide you with those.
    Mr. Fortenberry. Thank you.
    Mr. Mahoney [presiding.] Thank you very much. The chair 
recognizes Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman. To follow up, 
Mr. Holt, and I thought all the testimony provides a basis for 
more information for the Committee and the Congress to try to 
address this issue. I have told some of my colleagues on the 
floor when previous solutions were being offered that it 
reminds me of denial, and denial is not a river in Egypt. 
Denial is ignoring the numbers, Dr. Holt, that you have 
explained in great detail.
    When 1.5 percent of the total workforce is able to take 
advantage of H-2A nationwide--and in California, I believe, the 
number is 0.4--clearly this program doesn't address the needs 
of the totality of the issue.
    When you look at the total workforce here that is here 
illegally today, it is also, I think it is important to note 
that less than 20 percent is engaged in agriculture. So your 
statistics stipulating that, in fact, we have more jobs today 
in the economy and we are creating more jobs than we have 
workers, I think we need to take note of.
    Whether or not we support some version of guest worker 
program or not, not to address it is to be in denial in some 
legally fashionable way that protects employers and protects 
employees and is fair. So why do you believe--and I am going to 
make a point here--Dr. Holt, that the H-2A Program just doesn't 
work?
    Dr. Holt. The question is why do I believe it doesn't work?
    Mr. Costa. Right.
    Dr. Holt. Well, clearly it does work for a very small 
percentage of----
    Mr. Costa. One and a half percent.
    Dr. Holt.--employers.
    Mr. Costa. I would stipulate that that is not solving a 
problem.
    Dr. Holt. The detailed answer to that would be complicated, 
but in general, the terms and conditions that it imposes on 
many job opportunities simply are not competitive. So employers 
can't afford to use it. Number two, the administrative 
procedures of the program are too complicated to permit 
employers to work with. And number three, at the present time, 
the litigation and enforcement risks entailed with the program 
are so high that many employers----
    Mr. Costa. So notwithstanding the good idea, it just 
doesn't work.
    Dr. Holt. It is a mechanism that could work.
    Mr. Costa. Well----
    Dr. Holt. It doesn't work.
    Mr. Costa. But it would need significant changes to work.
    Dr. Holt. It would need significant changes----
    Mr. Costa. All right.
    Dr. Holt.--including statutory changes.
    Mr. Costa. Right, absolutely. I don't want to belabor the 
issue of comprehensive reform, which I support, that has three 
legs of the stool to stand on. Which is first, border security, 
meaning increased border security, which we are doing some of 
now today. But the second part is the status of those that are 
presently here illegally today. And the third element of that 
leg of the stool is a legitimate, fair, guest worker program 
that I think is replicated in the AgJOBS proposal.
    For those who argue that what we really need to do is to 
correct the deficiencies in H-2A, I would stipulate that is 
what the AgJOBS Program is. I think people need to understand. 
First, it is a pilot project. The first step is that it 
requires 150 days within the previous 2 years before you could 
receive a blue card.
    Second step would require that the 150 days per year for 3 
years be substantiated before you would be eligible to apply 
after 5 years for a green card.
    Third, it would require an employer to verify that all of 
these statements, pay stubs, W-2 forms are legitimized to prove 
the previous work.
    Fourth, it would be capped at 1\1/2\ million workers. I 
mean that is a pilot project. That is an attempt to address the 
issue within agriculture.
    It would also, because of the seasonal nature of 
agriculture, allow people after 100 to 150 workdays in each 
year to then work another type of work that is non-seasonable 
for that period of time.
    It would also allow for those workers to travel within the 
United States and to go back to their countries. It would 
require a fine. It wouldn't be for free. It would require a 
$500 fine for those that apply for it, and that you would have 
to pay any previous taxes that were owed. And then it would 
require, something very important, a biometric type 
identification that Homeland Security would develop because 
part of the issue is security, as we all agree upon. And this 
would become very real.
    This is an attempt to take the H-2A Program, in my view, 
and make real modifications to it to make it work. I mean we 
are calling it AgJOBS, but you could call it a modification of 
the H-2A Program if you contain these elements in it. Do you 
think those would go along the way, Dr. Holt, of working, Mr. 
Stallman? Both of you, please.
    Dr. Holt. Well, yes, I do. There are two critical 
components to AgJOBS, and those two critical components both 
have to be addressed for legislation to be effective. One is to 
reform the mechanics of the requirements of the H-2A Program, 
and probably 65 pages of the 104 pages of AgJOBS is focused on 
those kind of reforms.
    And the other is we have to address the resident illegal 
agricultural workforce that is here that we frankly cannot do 
without. That is the part of AgJOBS you have just described. 
The adjustment of status does that in a humane way that does 
require workers to pay a price if you will. What I like to 
compare it to is sort of work release. That is a well-honored 
tradition within our law enforcement system. Workers work off, 
if you will, their having been here, having come into this 
country in illegal status. And that is why you don't think you 
could call this an amnesty.
    Mr. Costa. You know the numbers with the employment 
development departments in California and those that have 
sought agricultural work?
    Dr. Holt. Well, there was a--before Senator Feinstein 
really became hands-on active in AgJOBS, she really put the 
test to California farmers. She said I want you to go out. I 
want you to work with EDD and really mount a serious effort to 
try to recruit domestic workers. EDD offices up and down the 
valley participated in this. There was all kinds of recruitment 
efforts and so forth made. At the end of the day, that whole 
effort produced three workers. And that is what caused Senator 
Feinstein to say we need to do something statutorily about this 
program.
    Mr. Stallman. Very briefly, I suppose, AgJOBS does help 
with the short-term problem. What AgJOBS does not do is provide 
that longer-term guest worker program.
    Mr. Costa. Well, that is why I am supportive of the 
comprehensive effort clearly.
    Mr. Stallman. But concerning the Senate bill, we had some 
real problems with the H-2A section in there because it 
actually--well, the wage issue was one----
    Mr. Costa. No, I understand.
    Mr. Stallman. And, until we have an adequate guest worker 
program, the temporary solution is fine, but we are going to be 
right back dealing with the same issue.
    Mr. Costa. My time has expired, Mr. Chairman. I have some 
other questions I will submit, but if you bear with me for a 
moment, I would like to recognize, and I will submit a written 
statement in a memorial and Congressional record reflecting, 
for those of us from California, Mr. Roy Gabriel who, for 35 
years, worked for the California Farm Bureau on labor relations 
issues. He would have probably been here in the audience today. 
Came here 2 days ago and suddenly passed away, but he was a 
passionate advocate on behalf of not just California 
agriculture but solving these labor issues and worked closely 
with not just farmers but farm workers. And we will miss Roy 
Gabriel, and we will submit an appropriate statement.
    Mr. Mahoney. Thank you, Mr. Costa. The chair recognizes the 
gentlewoman from Kansas.
    Mrs. Boyda. Thank you, Mr. Chairman. Thank you for being 
here. I represent the eastern part of Kansas, which is 
different than the western part of Kansas. I represent 26 
counties that go from Nebraska down to Oklahoma. Clearly, Mr. 
Moran, I get to serve on the Committee with him, and the issues 
in western Kansas are just flat out a little different than the 
ones in eastern Kansas.
    What I would like to do is just to give you--you all have 
been in my office and talking about some things. The one thing 
that keeps us from moving forward, and you spoke about it, 
Mike, and that was how do we decide who has been here legally. 
We are talking about it, and I have heard it talked about. How 
do we enforce any law that we put together?
    So in the Second District, I don't mind saying the words 
comprehensive immigration reform. I like throwing fuel on the 
fire. I got into an elevator last week with the postman and 
said what is on people's minds. Want to guess what it was? 
Illegal immigration.
    It is almost to the point where on a given day, it is 
becoming quite uncomfortable. It has gone from a fairly 
rational discussion into something that on a given day can be 
not very--I don't know what words I want to have in the record, 
so I just won't go any further than that. But it is getting 
worse, not better.
    And what their main message is that I would like to share 
again with you is we are not interested in putting all kinds of 
penalties on people, whether they are the employers or the 
people that are working here, until you can show me how you can 
enforce this. Just show me how you can enforce it. Show me how 
you intend to enforce it. Give me some idea that you might 
enforce it. That is where the sticking point is.
    So I would just offer with you to see if there is any way 
that we can help come together. You all have, especially the 
Farm Bureau, within the State of Kansas and in my district, you 
have a great deal of trust, a great deal of respect. You have a 
network all put together of people who will listen. So we have 
to come back down off of this ledge.
    But what they are going to be listening for is just show me 
that you have some intention of enforcing it. Show me. Don't 
tell me. I have had a good conversation with somebody when we 
were talking about comprehensive immigration reform. So I came 
back to just the issues that you were talking about and how do 
we enforce it. And they said, ``Well, that is the problem. The 
devil is in the details.'' Until we have those details worked 
out, comprehensive immigration reform--the CBO judge said that 
it wasn't going to do anything to substantially change illegal 
immigration, less than 20 percent of it because the people in 
Kansas' Second District didn't need any CBO report to tell them 
that.
    People in my district are people who are good people. They 
are also part of why things aren't moving forward and part of 
why we aren't stuck because they have ground in and said, 
``Until you can let me have some sense of faith that you are 
going to enforce this, we are going to dig our heels in even 
stronger.''
    So I don't know whether you have any comments on that, but 
my office would be more than willing to work with you in 
helping to get out a message and shape a message and shape 
those kinds of real solutions. We all talk about some kind of 
biometrics, knowing that it is that issue that is holding a 
bunch of things up.
    Well, we have to get it off of the dime and move it forward 
and have what could be a very complicated and maybe even 
uncomfortable conversation. But it has to be moved forward, and 
I would just offer our support from the office to do anything 
we can to help you all move that forward. And I will take any 
comments on that. Yes, Dr. Holt.
    Dr. Holt. Congresswoman, may I suggest that this is perhaps 
not as complicated as we think it is. We clearly can't have 
effective enforcement without a labor supply, a guest worker 
program along with it. We clearly don't want to have a guest 
worker program without effective enforcement, and the thing we 
seem to be stuck on is the advocates of enforcement before 
guest worker and maybe the advocates of guest worker before 
enforcement. I think that is where the comprehensive is so 
critical.
    Mrs. Boyda. Yes.
    Dr. Holt. Is that both of these comments have to be done 
together, and when we do that, then, as the gentleman at the 
end of the table testified earlier, biometrics has to be part 
of it. We need to know that when somebody presents a document, 
that that document can be verified as being authentic and that 
it belongs to the person presenting it.
    The technology, DHS has the technology for doing that. It 
exists. It is a matter of the will to implement it.
    Mrs. Boyda. I couldn't agree with you more. Yes?
    Mr. Goldstein. And just from a non-technical point of view, 
I mean we farm worker advocates, the farm worker organizations 
have the goal of ensuring that the farm labor force is legally 
here.
    Mrs. Boyda. Yes, it is good for everybody.
    Mr. Goldstein. Exactly, and we believe that AgJOBS would 
accomplish that goal. We are convinced that the percentage of 
undocumented workers would go down to close to zero initially 
and that would stay very low into the future.
    By the same token, however, we don't want to just transform 
the farm workers into a system of guest workers because frankly 
if you start weighing who is better off, a guest worker with 
kind of no labor protections versus an undocumented worker, 
that is not a debate we want to be involved in because under 
neither situation is a farm worker going to be treated fairly. 
And that is our goal here.
    Mrs. Boyda. I would just say again in the district that I 
represent, no one believes that there is a decision on how to 
implement all of those. I know I represent somebody who is 
going to stand and dig in the heels with the people of the 
Second District of Kansas. So showing them what a system looks 
like would be a good thing. Thank you so much.
    Mr. Mahoney. Thank you very much. That concludes our first 
panel. I want to thank the panel very much for being here. It 
was very informative, and your testimony is very important in 
establishing a baseline for what the situation is in 
agriculture. So thank you very much. If we could bring the 
second panel on, we have votes coming up here very quickly, and 
I would like to get through the initial opening statements 
before the votes happen. Thank you very much. Will the panel 
take their seats please so we can get started? Any private 
conversations, please take them outside the Committee room.
    I would like to welcome our second panel. The first panel 
we had sort of the industry experts talking a little bit about 
the impact of the labor situation, and now we are going to be 
honored to listen to the gentlemen who actually has the 
responsibility for actually farming and having to deal with the 
problem. And I would like to turn over to Mr. Cuellar the 
opportunity to introduce one of the panel members.
    Mr. Cuellar. Thank you very much, Mr. Chairman. I also have 
a statement that I will go ahead and introduce for the record. 
But it is my pleasure to welcome somebody from Texas. A special 
welcome to J Allen Carnes, a south Texas vegetable producer who 
is here to testify. J Allen is Vice President of Carnes Farms 
Inc., President of the Texas Vegetable Association, Director of 
the Texas Produce Association, Director of the South Texas 
Onion Committee. He has a lot of experience, being from the 
border, and I was listening to the conversation on immigration.
    Being from right along the border, it is a topic that we 
can go on and on. But certainly it is an issue that we need to 
look at, and certainly need to look at H-2A and how we can make 
that more efficient and more effective. Thank you, Mr. 
Chairman.
    Mr. Mahoney. Thank you, Mr. Cuellar. I would like to 
introduce somebody from my home district, Mr. Mason Smoak, born 
and raised in Lake Placid, Florida, a little piece of heaven 
right in central Florida. And he is a third generation citrus 
grower from Highlands and Hardy County.
    Mason is active in managing over 3,000 acres, and that 
includes citrus care taking and harvesting and hauling 
operations. Mason and his family also manage 13,500 acres where 
they run 2,300 head of cows--that is about 2,290 more than me--
in a commercial cow-calf operation. Mason is an active member 
of Florida Citrus Mutual, Florida Farm Bureau, Federal and 
Highlands County Citrus Growers Association. I am glad to have 
you here, Mason.
    I would like to also introduce Mr. Harry B. Yates, Board 
Member of the National Christmas Tree Association and Christmas 
Tree Producer, Boon County, Boon, North Carolina. I would like 
to also introduce Mr. Randy Mouw from the Misty Morning Dairy 
from Ontario, California. Mr. Keith Atkinson, tobacco producer 
from Java, Virginia.
    And I have another gentleman that is not quite in my 
district, but we like him just the same. It is Mr. Rick Roth 
who is a third generation farmer from Bell Glade, Florida and 
is President and Principal Owner of Roth Farms, which is the 
most diversified farming operation in the Everglades 
agricultural area. The Roth family owns over 4,000 acres and 
leases another 1,000 acres. They grow lettuce and leafy 
vegetables, radishes, sugar cane, sod, sweet corn, green beans, 
field grown palm trees, and rice, just about everything that 
grows in Florida. Rick currently serves on the Board of 
Directors of the Florida Farm Bureau and Florida Fruit and 
Vegetable Association, Sugar Cane Growers Cooperative of 
Florida. It is nice to have you here, Rick. With that, let us 
start----
    Ms. Foxx. Mr. Chairman.
    Mr. Mahoney. I am sorry. I didn't see you there.
    Ms. Foxx. That is okay. Just one quick correction for the 
record. Harry Yates is from the Fifth District of North 
Carolina, my district.
    Mr. Mahoney. Did you want to introduce him?
    Ms. Foxx. Well, if I could just say that it is Watonga 
County and the town of Boon. Harry has been a leader in 
agriculture, and particularly in the growing of Christmas 
trees, and a good friend for a long time. He is very well 
versed in the issues that he is going to be presenting. He is a 
former high school teacher, and I am just thrilled that he has 
been able to come up today to be with us. Thank you.
    Mr. Mahoney. Yeah, I am sorry I didn't see you down there. 
My contacts don't go that far up here. I am usually a lot 
closer to the action, being the most junior Member of the 
Committee. With that, let us start with the testimony if Mr. 
Carnes could go ahead and start.

         STATEMENT OF J ALLEN CARNES, PRESIDENT, WINTER
           GARDEN PRODUCE; CHAIRMAN, TEXAS VEGETABLE
            ASSOCIATION; DIRECTOR, SOUTH TEXAS ONION
           COMMITTEE, TEXAS PRODUCE ASSOCIATION; VICE
           PRESIDENT, CARNES FARMS, INC., UVALDE, TX

    Mr. Carnes. Yes, thank you Members of the Committee, and 
thank you for the opportunity to testify before you and express 
my perspectives on the labor shortage as it relates to my 
business and as it relates to Texas vegetable industry as a 
whole.
    Sitting here and listening to some of the debate going back 
and forth, I hope that this Committee will truly take the 
perspectives of this panel because we are the on-the-ground 
people. We have experienced this problem firsthand, and 
whatever the political realities of fixing this problem, we 
have a problem. And we need to fix it fast, or we are going to 
sufficiently damage the oldest institution in the United States 
of agriculture. And agriculture in Texas and the U.S. as we 
know it will no longer exist.
    Once again, my name is J Allen Carnes. I am the President 
of Winter Garden Produce, the Vice President of our family 
farming operation, and the current Chair and President of the 
Texas Vegetable Association. We currently farm over 3,000 acres 
in the south Texas area and ship over 2,000 acres of fresh 
fruits and vegetables, amounting to 1.2 million packages.
    I am going to go straight into my experiences with the 
problem, and then I will expound on our workforce and how it 
relates to Texas and where the shortages are coming from.
    In 2004 and 2005, we began to see a major problem. Crews 
became short, and those 2 years by themselves, we ended up 
getting the crops harvested. It took a lot of doing and a lot 
of jockeying back and forth amongst sheds, offering more money 
here, more money there, but at the end of the day, it got 
harvested.
    Now, we came to 2006, and we saw a major labor shortage. We 
saw, to my knowledge, the first direct, out-of-the-pocket 
expense to Winter Garden Produce based on that year. We had 
direct losses of $75,000 based on solely shelf life and arrival 
value of our produce. We also had to abandon 35 acres of 
cabbage that we left unpicked, unharvested almost completely 
because we didn't have the crews to do it. And the sales value 
on that field alone was $150,000.
    Now, sitting and seeing my family and my father particular 
faced with the daily problem of not having a crew to harvest 
our crops and seeing our crops affected by this. If you know 
many farmers, sometimes watching a crop for 4 or 5 months grow 
and come to fruition, they look on that crop and have as much 
adoration for that crop as sometimes their firstborn child. So 
it was a real heartbreaking experience to see my family deal 
with the loss of a crop that we couldn't get harvested solely 
because of labor.
    We came to 2007, and every indication pointed towards a 
much larger problem than we had in 2006. According to a study 
at Texas A&M, the overall numbers in the spring onion 
harvesting crews alone were down 21 percent from the last year. 
So we expected to have a real storm.
    Beginning in some of the harvest in May of 2007, we were 
running already 4 and 5 days behind, and unfortunately then we 
hit a major weather event. And some of the shortages were 
unknown to us. We did lose a field of onions that, because we 
were running 4 and 5 days behind, and then we hit so much rain 
and so much weather, that we were unable to harvest. And the 
sales value on that field alone was over $250,000.
    We have a problem with not only a local labor force--and 
that is kind of strange in itself that we are basically 50 
miles from the border of Mexico, and we have a labor problem.
    Right now, the unemployment in Texas has fallen to 4.2 
percent. Texas employers are adding--they have added so far 
this year 230,000 jobs. The economy in Texas and especially 
along the border is growing at a substantial rate. In our 
county, we saw these numbers dip to 5.2 percent. These are some 
of the lowest numbers we have ever experienced.
    The workforce numbers in Uvalde County of 18 years and 
older that are authorized to work are at just over 10,000. The 
job opportunities in Uvalde County are approaching 12,000. So 
we have a huge imbalance, and being in agriculture and just the 
nature of agriculture, it is hard to compete against that. 
Being less attractive, it is very hard for an employer to 
compete against those numbers.
    So because of that, we have always relied somewhat on 
Mexico and Mexican labor that cross using legal channels, and I 
hopefully will have a later chance to expound on that.
    But to finish my testimony, I would like to give you some 
of the effects that this country and Congress has had over not 
solving the immigration and the workforce shortage problem that 
we have had since 1986. In the last 10 years, the onion acreage 
alone in Mexico--which we have experienced a lot of shortages 
on our onion harvest crews. The onion acreage in Mexico alone 
has risen 12,000 acres. On cabbage, broccoli, spinach, and 
carrots, some of my top crops and some of the top crops of 
Texas, it has risen 28,000 acres.
    In roughly that same time period, the shipments of Texas 
products around the nation are down 77 million pounds. Our 
agriculture is going into Mexico, and the logjam that we are 
seeing on the Federal level on this issue is increasing how 
fast it is going into Mexico. The question is not whether our 
crops will be harvested by Mexican labor. The question is will 
they be harvested in the United States, or will they be 
harvested in Mexico?
    And we all know that because of some of the concerns, food 
safety, bioterrorism, and so forth that we are dealing with, 
that we need a national food supply.
    [The prepared statement of Mr. Carnes follows:]

Prepared Statement of J Allen Carnes, President, Winter Garden Produce; 
   Chairman, Texas Vegetable Association; Director, South Texas Onion
  Committee, Texas Produce Association; Vice President, Carnes Farms, 
                            Inc., Uvalde, TX
    Chairman Peterson and Members of the Committee, thank you for the 
opportunity to testify before the House Agricultural Committee to share 
with you my perspectives on the labor shortage as it relates to my 
business and to the Texas vegetable and citrus industries as a whole.
    My name is J Allen Carnes. I am the President of Winter Garden 
Produce, Inc., Vice President of our family farming operation, Carnes 
Farms Inc., and the current Chair of the Texas Vegetable Association. 
My family has been in the agriculture and produce industry in Texas 
since 1950. We currently farm over 3000 acres around the Uvalde area in 
south Texas. On those farms, we have grown a wide range of agricultural 
products, one of the most important being vegetables. My family began 
marketing and shipping a select group of those in 1992. My father, Eddy 
Carnes, along with his father and brother formed Winter Garden Produce 
to ship product grown on our farms. In addition, we contracted with 
other farms in the area to harvest sell and ship their commodities. I 
began working for Winter Garden Produce full time in 1997 and became 
President of the company in 2006. At the present time, we harvest and 
ship over 2000 acres of fresh fruits and vegetables. This translates 
into approximately 1.2 million packages per year and over 10 million in 
annual gross sales.
    Due to the amount of product that we ship, we require a large 
workforce. This workforce is very unique because of the seasonal nature 
and the labor requirements of growing, harvesting, and packing our 
various products. Our labor needs often vary widely from one day to the 
next. Because of these factors, we see a large fluctuation in the 
number of people we employ on a daily bases. Winter Garden Produce 
begins harvest season in late October. During this time we employ 80-
120 people per day. At the peak point of harvest season, May through 
June, we employ 400-450 people per day.
    To satisfy the large and varying workforce we utilize several 
channels, most of which are through contract labor. We use between four 
and eight different labor contractors. These contractors provide us 
with harvest crews ranging from 25-100 people. Our area uses a large 
amount of Mexican labor that commutes on a daily or weekly basis to 
fill a portion of these crews. To the best of our knowledge, these are 
legal immigrant workers. A variety of legal channels allow them to work 
and live in the U.S., but they choose to live in Mexico and commute 
into the area on a daily or weekly basis. Many ``illegals'' were given 
a legal right to work and reside under the 1986 IRCA legislation. Most 
workers who could prove they were living in the U.S. at that time were 
given identification cards. Workers who could prove they were working 
in agriculture and crossing the border on a regular basis were given an 
Agricultural ID card. During harvest season, on a given day, 15-50 
people will cross out of Mexico with one of these cards to work for 
Winter Garden Produce. At peak harvest time, we use 50-100 people who 
have these documents and cross from Mexico each day. Also during peak 
harvest time, our company and other companies around us use migrant 
labor that comes up out of the Rio Grande Valley. Vans of family and 
friends follow the onion harvest. They start in the valley, then come 
and work in our area, and then move on to work in New Mexico and 
Colorado. These two groups of workers, along with a diminishing number 
of local workers, make up the vast majority of our harvesting crews.
    The natural U.S. based labor force in our area has been in short 
supply for as long as I can remember. In the last 2 years, we have seen 
our labor shortage become much more severe. The Texas unemployment 
numbers fell to 4.2 during the month of August. One year ago, the rate 
was 4.9%. So far this year, employers in Texas have added 229,000 jobs, 
up 2%. In Uvalde County, the labor force was estimated at 11,476 with 
594 unemployed. This rate is at 5.2% down .6% from where it was last 
month. We have an imbalance between our local population and our 
workforce needs. The total population of people 18 years and older in 
Uvalde County is only 10,094 and our civilian workforce is 11,476. We 
have a junior college and some of those over 18 are in school. We have 
more people in our workforce than are in the working age population. We 
have to attract people from outside our county to meet our workforce 
needs. Given this huge imbalance between jobs and workers, it is not 
surprising that ``American workers'' gravitate to the more attractive 
jobs, leaving the less attractive jobs (agriculture) to be filled by 
immigrant workers. Second, our industry in Texas is presently in its 
``off-season.'' Our shipping season begins in October and lasts until 
July of the following year. Many of my workers are employed 9 to 10 
months out of the year and then collect unemployment the other two. 
These August 2007 unemployment numbers include a big portion of the 
local agricultural labor force. We see a local labor force that cannot 
fill all of our harvest labor force needs. We must have outside labor 
in order to survive.
    Because of our close proximity to Mexico, our area has always been 
able to meet our additional labor needs during the spring onion harvest 
by drawing workers out of Mexico. As a result of the IRCA legislation 
of 1986, an estimated 1.2 million farm workers were legalized, many of 
which had been working in the fields around Uvalde since the 1940's and 
1950's. Some of the workforce that was legalized in 1986 is still being 
utilized today. According to a Texas A&M University survey done in the 
spring of 2007, an average of 48% of all labor used to harvest spring 
onions is estimated to come from Mexico and is utilized by about \2/3\ 
of the firms shipping onions. Approximately 39% of the workers coming 
from Mexico cross daily and 61% of those who cross weekly remain in the 
United States for the duration of the harvest. But as I note that IRCA 
provided some short term relief of worker shortages, I would be remiss 
if I did not tell you that IRCA did not come close to solving the long-
term labor woes in the agricultural field. In the late 1980's after 
IRCA, as few as 5% of agricultural workers were in the country 
illegally, and according to the National Agricultural Worker Survey, by 
2005 that number had risen to 76%. By some counts there are as many as 
1.5 million illegal workers in the agricultural industry. Looking at 
the numbers, IRCA legislation did nothing to provide a long term legal 
workforce in agriculture. Within the last few years, this supply of 
legal Mexican workers has been on steady decline, and companies such as 
ours struggle to secure a legal workforce to survive. The legal 
workforce out of Mexico that the agriculture industry in Texas employs 
is declining. These workers are becoming older and older and there is 
currently no viable legal way to replace them with younger workers. The 
workforce that still exists is having an increasingly difficult time 
crossing the border in a legal manner. Crossing time has tripled. Three 
to 4 years ago, it took half an hour to cross the border legally to 
work every day. Now it takes this legal workforce as much as 3 hours to 
cross the border.
    Another portion of our workforce is made up of migrant labor. Many 
migrant harvesting crews are not coming to the Winter Garden area like 
they have in the past. There is much speculation as to why this is 
happening, but the most likely reason is that they have something to 
hide and don't want to risk being in our area. Increased border 
security, workplace raids, and the fear of raids are making the labor 
shortages in south Texas worse every day. We have had an explosion of 
Border Patrol agents in and around Uvalde. Apprehensions of illegal 
aliens are down 44% along our stretch of the border. According to local 
crew leaders, the amount of illegal aliens that are applying for jobs 
in our area has dropped to almost 0%.
    The biggest issue that Texas may face with ``illegal'' or 
``undocumented workers'' is Social Security No-Match. Based on data 
Texas Employers for Immigration Reform has compiled, there are 8.1 
million employees who would face No-Match letters and potential 
problems. Texas is figured to shoulder much of the problem with an 
estimate 780,840 employees being targeted by No-Match. Winter Garden 
Produce does everything in its power to have a legal workforce. For all 
labor contractors we use, we require that they submit all I-9's and 
copies of all documentation to verify their I-9's. Employers just 
cannot be sure this is enough. For the record, the vast majority of 
agricultural employers ARE playing by the current rules. We are 
interviewing workers, reviewing documents that appear legitimate on 
their face, filling out the Form I-9, withholding taxes and social 
security, and complying with the wage laws. Yet, the simple fact is 
that based on national estimates, at least 70% of the agricultural 
labor force is working under fraudulent documents. In fact, I would 
speculate that Texas has lived in denial about the extent of this 
problem for a long time, under what might best be described as ``don't 
ask, don't tell.'' So, the ``70% or more farm workers are illegal'' 
statistic is likely accurate in Texas.
    Just as I have discussed that the IRCA legislation or ``Amnesty'' 
did little to solve the long-term needs of Agriculture, neither will a 
reformed H-2A program by itself solve the problem, for the opposite 
reason. At the present time H-2A fills fewer than 60,000 jobs out of a 
total of over 3,030,000 jobs in agriculture. This translates into less 
than 2% of the total job opportunities. The numbers are even less in 
Texas. Currently only 1500 in Texas jobs are filled by H-2A. We have a 
total of 166,117 agricultural job opportunities in Texas. This is less 
than 1%. There is no possible way in a short period of time that 
producers can go from less than 1% of the workforce to having a most of 
the it met by this or any other guest worker program. Besides this, 
there are many jobs in agriculture that cannot be filled by H-2A 
workers. Under H-2A, both the worker and the job must be temporary or 
seasonal (10 months or less). This precludes us from filling key 
positions that are year round and cannot be filled by H-2A. Many 
producers, ourselves included, lack the housing needed to participate 
on H-2A. It will take time to work through the capital investment and 
approvals needed to acquire housing. Also, it is imperative that we as 
employers have an opportunity to retain key, experienced employees that 
have been employed for many years with fraudulent documents that 
employers had no way of knowing the status of these employees.
    The labor shortage problem in our area reached a climax in the 
spring of 2006 and shows signs of becoming worse, as a result of the 
increased emphasis on workplace enforcement, border security, and the 
lack of comprehensive immigration reform. During the spring, Winter 
Garden Produce may employ as many as 400-450 workers, 200 of whom 
harvest (clip onions) in the field. In May 2006, our harvesting crews 
were down to 80-100 laborers. Most, if not all, of the decrease in 
labor workforce includes daily crossers and migrant workers that come 
from the Rio Grande Valley. Because of this shortage, we were running 2 
weeks behind in harvest and it was affecting shelf life and arrival 
value of onions at the direct cost to Winter Garden Produce of over 
$75,000. Winter Garden Produce also had to abandon 35 acres of cabbage 
because some of the cabbage harvesting workforce switched to onion 
clipping crews because of the shortage of workers. The sales value on 
that field alone was over $175,000. That field along with the onion 
harvest being 2 weeks behind schedule cost our company over a quarter 
of a million dollars in 2006.
    This past season had every sign pointing toward a larger labor 
shortage than the year before. Early in May of 2007, Winter Garden 
Produce was running 4-5 days behind on our harvest schedule and then 
the rains came. We completely lost an onion field that had a sales 
value of $250,000. In the same study mentioned above conducted by Texas 
A&M University, the total onion industry in Texas experienced around a 
21 percent decrease, or 1051 workers, from the 2006 season. The 
economic impact from the labor shortage during the 2007 spring onion 
season in Texas was very substantial. Texas losses in business activity 
related to agricultural support such as field operation, harvesting and 
packing, pesticides and chemical manufacturing, and farm machinery and 
equipment were estimated at $15 million, while associated income losses 
are an additional $7.2 million and additional job losses were estimated 
to be 310.
    Timing is crucial. Farmers, growers, and producers need help now, 
not when Congress feels like they can get to it. Texas has always 
relied on a legal guest worker supply from Mexico. That labor force is 
becoming smaller and smaller and there is currently no measurable way 
to replace it. Every year the shortage becomes worse and worse. If we 
continue down this same path the agricultural industry in Texas as we 
know it will no longer exist.
    We have to have major immigration reform on the Federal level, or 
we are going to see an accelerated decline of our labor intensive 
agriculture including the fruit and vegetable business. Local workers 
simply are not available to do this work; it is not a matter of wages. 
We must have a legal means to secure this workforce. Because of the 
seasonality and perishable nature of our industry, we are at a greater 
risk than most sectors of the U.S. economy. Texas agriculture simply 
cannot endure a large scale work shortage and additional loss of our 
labor force. Mexican workers will harvest much of Texas produce for 
U.S. consumers; it is simply a question of whether they will harvest 
crop in U.S. or Mexico. According to the Texas Produce Association half 
of the fruits and vegetables being shipped in Texas are already being 
grown across the border. The crop which I have experienced the greatest 
labor shortage, onions, has increased in Mexico by 12,304 acres since 
1996. Cabbage, spinach, broccoli and carrot acreage has also increased 
by over 26,000 acres during the sane time frame. During roughly the 
same time period (1999-2006) shipments from Texas decreased by 77 
million pounds of the same commodities. As you can see a large potion 
of the Texas industry has already shifted into Mexico and it will 
continue to do so until we fix problems here on U.S. soil. Not only am 
I concerned about my own business, I am worried that all domestic 
agriculture will have to follow this trend of going abroad and 
overseas. We are already dependent on foreign oil imports and if we 
become reliant on food imports, we are in grave danger.
    Clear, sensible workplace enforcement combined with a temporary 
guest worker program and a realistic way to retain our existing, 
experienced workers would better secure our borders since fewer people 
would try to come in illegally. It would restore law and order by 
giving employers incentives and tools to reliably verify an employee's 
legal status and avoid undeserved criminalization. In addition, it 
would make sure we avoid a disastrous labor shortage which would, in 
turn, jeopardize skilled jobs filled by Americans, and possibly disrupt 
the food supply which could lead to higher prices for American 
families.
    A comprehensive approach, including AgJOBS which is gaining 
momentum in the Senate and a sensible Daily Crossing Program which 
Texas along with Arizona and California are exploring, is the only way 
to strengthen our border and increase homeland security. Continuing 
with the ``Border security only'' policy with out addressing all facets 
of the issue will be disastrous. A guest worker program, including a 
legal path for the workers that are already here, coupled with 
workplace screening, will provide an orderly, legal process for making 
sure employers and needed workers are matched. This will give our 
border patrol agents the ability to focus on terrorists, drug 
traffickers and other criminals.

J Allen Carnes,
President, Winter Garden Produce, Inc.;
Vice President, Carnes Farms, Inc.;
Chairman, Texas Vegetable Association;
Director, Texas Produce Association;
Director, South Texas Onion Committee.

    Mr. Mahoney. Thank you very much. Mr. Smoak, please try 
to--because we have another vote coming up here, let us try to 
get through. If you can be as precise as possible, but I want 
to give you your opportunity to talk since you've been so 
patient to wait. So let us see if we can't get through this 
efficiently. Mason.

    STATEMENT OF MASON G. SMOAK, CITRUS PRODUCER AND CATTLE 
                    RANCHER, LAKE PLACID, FL

    Mr. Smoak. Thank you, Mr. Chairman. I sincerely appreciate 
the opportunity to testify in front of this esteemed Committee 
today on behalf of my fellow citrus growers in the great State 
of Florida. I want to thank Congressman Tim Mahoney who 
represents my hometown, Lake Placid, for his steadfast support 
of agriculture, specifically specialty crops such as citrus, 
which is a major economic engine in our rural Florida 
community.
    Our industry generates a statewide economic impact of close 
to $9 billion a year and is the heart of my family's operation. 
In Florida, we produce almost 80 percent of all orange juice 
consumed in the United States. We supply a wholesome product 
that provides our fellow citizens with essential vitamins and 
nutrients.
    My grandfather started our business back in 1933 with a 
fourth grade education and 10 acres of thrown away orange 
grove. Through many years of hard work and many blessings from 
the good Lord above, that business has grown to over 3,100 
acres of citrus and 13,000 plus acres of cattle and ranchland 
and wildlife conservation areas.
    As a third generation Florida citrus grower, the issue of 
ag labor is critical to my family's business. The importance of 
maintaining a safe, affordable and abundant domestic food 
supply is something many Americans care deeply about and is 
something I know growers care deeply about as well. Shifting 
food production from our shores to overseas could compromise 
food security and in turn homeland security.
    If our citrus crop is left in the grove to rot because of 
labor shortages, then our nation's citrus production will 
eventually shift entirely to Central and South America. This is 
not an attempt by me to paint a doomsday scenario. It is a 
reality of fruit and vegetable production in this country and 
specifically the Florida citrus industry.
    I have heard and read many criticisms directed at farmers 
that say the solution to our labor issue lies in either paying 
workers more or turning to mechanical harvesting. I am proud of 
the rates we pay our workers in Florida. A Florida harvester in 
the citrus business averages close to $10 an hour, and I think 
that is good.
    As for mechanical harvesting, it is something we are 
interested in using, and I hope the industry's mechanical 
harvesting program continues to receive support from Congress. 
It sure is a lot easier to manage a few machines than it is a 
large harvesting crew. As growers, we have taxed ourselves and 
actively worked through our trade associations to lobby our 
State and Federal Representatives for research funds to study 
mechanical harvesting and abscission chemicals to make the 
process easier. However, these machines are multi-million 
dollar pieces of equipment that are not financially feasible 
for all growers to use at this time.
    More importantly is the fact that the machines are not 
technologically to the point where we can harvest fruit without 
causing long-term tree damage as well as fruit damage. Even if 
we could, mechanical harvesting still requires a crew of 
workers to glean what fruit is left behind after the machines 
have passed.
    Mechanical harvesting provides Florida growers with hope; 
however, the process still has a long way to go before it 
becomes an industry standard. So in the current environment, 
growers have two options. We either have to try to find 
domestic workers through traditional methods or use the costly 
and cumbersome H-2A Agricultural Guest Worker Program.
    Please believe me when I tell you that we want legal 
workers. The last thing a grower wants to do is lay in bed at 
night and stay awake wondering if his workforce is legal. We 
have plenty of other things to worry about, including weather, 
plant pests and diseases and energy costs. We want legal 
workers.
    In conclusion, we have worked very hard as an industry with 
our partners in the agricultural community to push Congress to 
create an efficient guest worker program that serves us better 
than the current H-2A Program. As an industry, we are 
disappointed that our best efforts toward comprehensive 
immigration reform failed to pass this year. We are going to 
continue to work hard until some kind of solution is eventually 
crafted.
    The future sustainability of American agriculture is very 
important to me as a farmer raising three children with my wife 
Tracee. My family understands it is essential to have legal, 
reliable workers harvesting our crops and helping put orange 
juice on the breakfast tables across America. We also 
understand that without these legal reliable workers, Florida 
citrus industry will be another closed chapter in the history 
of U.S. agriculture.
    I thank the Committee for your time and look forward to 
your questions.
    [The prepared statement of Mr. Smoak follows:]

   Prepared Statement of Mason G. Smoak, Citrus Producer and Cattle 
                        Rancher, Lake Placid, FL
    Thank you Mr. Chairman.
    I sincerely appreciate the opportunity to testify in front of this 
esteemed Committee today on behalf of my fellow citrus growers in the 
great State of Florida.
    I want to thank Congressman Tim Mahoney who represents my hometown 
of Lake Placid for his steadfast support of agriculture, specifically 
Specialty Crops such as Citrus, which is a major economic engine in 
rural Central Florida.
    The Florida citrus industry generates a statewide economic impact 
of close to $9 Billion a year and is the heart of my family's business. 
In Florida we produce almost 80% of all orange juice consumed in the 
United States. We supply a wholesome product that provides our fellow 
citizens with essential vitamins and nutrients.
    My grandfather started our family business in 1933 with a fourth 
grade education and 10 acres of thrown away grove. Through years of 
hard work along with countless blessings from the Lord, that business 
has grown to over 3,100 acres of citrus and 13,000 acres of cattle 
ranchland and wildlife conservation areas. As a 3rd generation Florida 
citrus grower the issue of ag labor is critical to my family's 
business.
    The importance of maintaining a safe, affordable and abundant 
domestic food supply is something many Americans care deeply about and 
is something I know growers care deeply about also.
    Shifting food production from our shores to overseas could 
compromise food security and in-turn homeland security.
    If Florida's citrus crop is left in the grove to rot because of a 
labor shortage then our Nation's citrus production will eventually 
shift entirely to Central and South America.
    This is not an attempt by me to paint a doomsday scenario, it is 
the reality of fruit and vegetable production in this country and 
specifically the Florida citrus industry.
    I've heard and read many criticisms directed at farmers that say 
the solution to our labor issue lies in either paying workers more or 
turning to mechanical harvesting equipment.
    But I'm here to tell you that the minimum wage rate in Florida is 
$6.67 an hour which is higher than the Federal wage rate of $5.85. In 
Florida a worker harvesting citrus averages close to $10.00 an hour.
    I'm proud of the salaries we pay our employees.
    As for mechanical harvesting it is something we are very interested 
in using and I hope the industry's mechanical harvesting program 
continues to receive support from Congress. It sure is a lot easier to 
manage a few harvesting machines than a large workforce. As growers we 
have actively worked through our trade associations such as Florida 
Citrus Mutual to lobby our State and Federal Representatives for 
research funds to study mechanical harvesting and abscission chemicals 
to make the process easier.
    However, these machines are multi-million dollar pieces of 
equipment that are not financially feasible for medium and small 
growers to use at this time. More importantly is the fact that the 
machines are not technologically to the point where we can harvest 
fruit without causing long term tree and fruit damage.
    Even if we could, mechanical harvesting still requires a crew of 
workers to glean what fruit is left on the tree and ground.
    Mechanical harvesting provides Florida growers with hope, however, 
the process still has a long way to go before it becomes an industry 
standard.
    So in the current environment growers have two options:
    We either have to try to find legal domestic workers through 
traditional methods or use the costly and cumbersome H-2A Agricultural 
guest-worker program.
    Please, believe me when I tell you that we want legal workers.
    The last thing that a grower wants to keeping him awake at night is 
wondering about the legal status of his workforce.
    We have plenty of other things to worry about with weather, plant 
pests and diseases, and energy costs.
    I'll reiterate: We want legal workers.
    In conclusion we have worked very hard as an industry with our 
partners in the agricultural community to push Congress to create an 
efficient guest worker program that serves us better than the current 
H-2A process.
    As an industry we are disappointed that our best efforts toward 
comprehensive immigration reform failed to pass this year.
    We are going to continue to work hard so that some kind of solution 
is eventually crafted.
    The future sustainability of American agriculture is very important 
to me as a farmer raising three children alongside my wife Tracee. My 
family understands it is essential to have legal, reliable workers 
harvesting our crops and helping put orange juice on breakfast tables 
across America. We also understand that without legal, reliable 
workers, Florida's citrus industry will be another closed chapter in 
the history of U.S. agriculture.
    I thank the Committee for your time.

    Mr. Mahoney. Thank you, Mr. Smoak. We have time for one 
more 5 minute presentation. Mr. Yates.

  STATEMENT OF HARRY B. YATES, PAST-PRESIDENT, NORTH CAROLINA 
    CHRISTMAS TREE ASSOCIATION; MEMBER, BOARD OF DIRECTORS, 
                    NATIONAL CHRISTMAS TREE
                     ASSOCIATION, BOONE, NC

    Mr. Yates. Thank you. I am extremely honored and humbled 
that you have asked me to speak before this esteemed Committee. 
I farm and live in beautiful Boon, North Carolina. I began 
growing Christmas trees 32 years ago in the rugged mountains of 
western North Carolina. I have served the Christmas tree 
industry as President of the North Carolina Christmas Tree 
Association and on the Board of Directors of the National 
Christmas Tree Association.
    This is my tenth year using H-2A employees. I employ seven 
men for 9\1/2\ months and three to six additional men for the 
harvest season. Christmas trees are an extremely labor 
intensive agricultural crop. Each tree receives eight to ten 
visits per year from a farm worker for the 8 to 10 year life 
cycle of that tree. Each activity requires physical labor and 
challenging geographic conditions. These challenges, along with 
the seasonality of the job, mean the Christmas tree industry 
must have guest workers.
    I made the decision 10 years ago to participate in the H-2A 
Program because it was impossible to find legal workers seeking 
agricultural employment. I also strongly believe that workers 
should be documented. However, when I made my decision to 
participate in H-2A, little did I know that I was putting 
myself in a serious competitive disadvantage in the Christmas 
tree industry.
    The national real Christmas tree industry faces severe 
economic challenges with the Chinese-produced artificial tree. 
We are losing market share every year. Labor is our single 
largest production expense. I am one of the few Christmas tree 
growers who use H-2A. Most growers don't use H-2A because it is 
too expensive and too burdened with regulations.
    Some quick examples: By using H-2A, I pay $1,000 per year 
per man, which covers visa fees, transportation costs, 
association fees, et cetera. By law, the U.S. Department of 
Labor tells me that I have to pay an Adverse Effect Wage Rate, 
which is $9.02 for 2007 in North Carolina. This wage rate has 
increased 76 percent in the last 16 years. I now know why they 
call it Adverse Effect Wage Rate because it is certainly 
adversely affecting my family farm.
    By law, I am required to provide free of charge government-
inspected housing, transportation, utility costs, and all other 
costs that go along with housing and transportation. Non-H-2A 
growers don't provide these benefits to their workers. They 
provide it for themselves, just like most Americans do. I also 
pay workman's compensation.
    When you total these expenses, my labor cost is $14 an hour 
and climbing every year through H-2A. My competitors pay $7.50 
to $8 an hour. It is extremely difficult to farm profitably at 
these costs. It is truly contrary to the American way that 
farmers who do things the legal and proper way are punished 
economically.
    What should Congress do to make the H-2A Program more 
workable? I have three basic concepts here. Number one, entry 
level wages should be prevailing and should be ``flexibility''-
allowed so that we may reward our long-term key employees with 
higher rates of pay. Our wage rate now is so high that we don't 
have that flexibility.
    Growers and workers should be required to resolve legal 
issues through mediation and arbitration. And number three, the 
bureaucratic processes at the Department of Labor, Homeland 
Security, and State Department must be streamlined and 
simplified. Given the current delays with only 50,000 H-2A 
workers nationally, drastic reforms must be made if we are to 
provide upwards of one million workers per year.
    I truly appreciate the H-2A Program and the continuity and 
the stability it provides on my small family farm. However, I 
do understand why many growers are afraid to use the program. 
It is too expensive. It is too complicated. It is too slow, and 
it is too likely to land you in court.
    Please fix H-2A with prevailing wage, required mediation, 
and streamline the process. Agriculture, our nation's food 
supply, and in fact the very security of our nation depends on 
Congress getting this one right. Thank you.
    [The prepared statement of Mr. Yates follows:]

 Prepared Statement of Harry B. Yates, Past-President, North Carolina 
    Christmas Tree Association; Member, Board of Directors, National
                 Christmas Tree Association, Boone, NC
    I would like to thank the Committee for holding this important 
hearing on agricultural labor. My name is Harry Yates. I farm and live 
in beautiful Boone, North Carolina. I began growing trees 32 years ago 
in the mountains of western North Carolina. I have served the Christmas 
Tree industry as President of the North Carolina Christmas Tree 
Association, and as a Member of the National Christmas Tree Association 
Board of Directors.
    This is my 10th year using H-2A and I employ seven workers for 9\1/
2\ months and three to six additional workers for the Christmas tree 
harvest season.
    Christmas trees are an extremely labor intensive agricultural crop. 
Each tree receives eight to ten visits per year from a farmworker to 
complete various treatments. This occurs each season during the 8 to 10 
year life of the tree from planting to harvest. Each activity requires 
physical labor in challenging geographic and climatic conditions. These 
challenges, along with the seasonality of the job mean that the 
Christmas tree industry needs temporary, seasonal workers.
    I made the decision 10 years ago to participate in the H-2A program 
because it was impossible to find legal workers seeking agricultural 
employment and I strongly believe that workers should be properly 
documented. However, when I made my decision to go H-2A, little did I 
know that I was putting myself at a serious competitive disadvantage in 
the industry.
    The real Christmas Tree industry faces serious economic challenges 
with Chinese produced artificial trees. Labor is the single largest 
production expense. I'm one of the few growers who use the H-2A 
program--most don't use it because it is too expensive, too litigious 
and too burdened with regulations. For example:

    1. By using H-2A, I have to pay almost $1,000.00 a year per man, 
        which covers visa fees, transportation, association costs and 
        other government fees.

    2. By law, the U.S. Department of Labor tells me I have to pay an 
        ``Adverse Effect Wage Rate'', which is $9.02 per hour for 2007. 
        DOL has raised this wage rate 76% over the last 16 years. I 
        know now why they call it the ``Adverse Effect'' wage rate--
        because it certainly is ``Adversely Effecting'' my family farm. 
        Non H-2A growers pay around $7.50 per hour!

    3. By law, I am required to provide (free of charge) government 
        inspected housing (including all utilities and repair costs) 
        and all local transportation. Non H-2A growers don't have to 
        provide these benefits, their worker's provide it for 
        themselves--just like American workers have to do every day!

    4. By law, I have to pay for workman's compensation insurance for 
        all employees.

    When you total these expenses my labor cost is at least $14.00 per 
hour and climbing every year (and again my competitor pays around $7.50 
per hour). It is extremely difficult to farm profitably at these costs.
    It is truly contrary to the American way that the farmers who do 
things the legal and proper way are punished economically. We should be 
heralded, not sued.
    What should Congress do to make the H-2A program more workable for 
ag?

    1. Entry-level wages for first time workers should be prevailing 
        wage and flexibility should be allowed so that loyal, long-term 
        employees can be rewarded with a higher pay rate set by the 
        farmer.

    2. Growers and workers should be required to resolve legal issues 
        through mediation and arbitration before going to court. This 
        is nothing new--Americans sign these type of contracts every 
        day, why can't H-2A workers.

    3. The bureaucratic process at three Federal agencies (Labor, 
        Homeland Security, the State Department) must be streamlined & 
        simplified. Given the current delays with only 50,000 H-2A 
        workers nationally, drastic structural reforms must be made if 
        the program is to provide upwards of 1,000,000 workers per year 
        in the future.

    I appreciate the H-2A program and the continuity/stability it 
provides on my small family farm. But, I understand why so many growers 
are afraid to use this program--it is too expensive, too complicated, 
too slow, and too likely to land you in court. Please fix it with true 
prevailing wage, required mediation and a streamlined process. 
Agriculture, our nation's food supply, and in fact the very security of 
our nation depends on Congress getting this right.
            Thank you,

Harry B. Yates.

    Mr. Mahoney. And with that, we are going to unfortunately 
have to adjourn for probably--if you could, be back here in 
recess for how long? Two votes? If you could be back in 20 
minutes, and we will try to move on quickly. Thank you very 
much. We are going to be in recess.
    [Recess.]
    Mr. Mahoney. You want me to continue in the chair, Mr. 
Chair? Okay, this is putting a lot of pressure on a rookie. 
Okay, we have testimony of three additional people. Let us 
start with Mr. Mouw.

         STATEMENT OF RANDALL D. MOUW, DAIRY PRODUCER;
CHAIRMAN, DISTRICT 12, CALIFORNIA MILK ADVISORY BOARD, ONTARIO, 
  CA; ON BEHALF OF WESTERN UNITED DAIRYMEN; DAIRY FARMERS OF 
        AMERICA; AND NATIONAL MILK PRODUCERS FEDERATION

    Mr. Mouw. I want to thank you for holding this hearing and 
looking at the labor needs of our farms and ranches. My name is 
Randy Mouw. My wife Rose and I milk 1,400 cows in Ontario, 
California with 17 employees. One of our sons started his own 
dairy 2 years ago, and my other son works for us as Assistant 
Manager.
    I am here today on behalf of Western United Dairymen, which 
represents more than 1,100 of the 1,800 dairy families in the 
State of California, my cooperative, Dairy Farmers America, 
which markets \1/3\ of the milk in the U.S. and has member 
producers in 48 states and National Milk Producers Federation, 
which represents dairy producers and the cooperatives they 
collectively own.
    The availability of labor on this country's dairy farms is 
critical to those in our industry, but has far wider 
implications for so many other sectors of the economy. Large 
herds or small and in all parts of the country, dairies are 
family owned and operated, but additional labor is a must. 
Dairy farming is labor intensive, and well trained, outside 
labor is a necessity on most farms.
    All of the organizations I mentioned earlier are part of 
the Ag Coalition for Immigration Reform. This broader based 
coalition that has been seeking a fair, sensible, and workable 
program to provide labor to our nation's farmers and ranchers 
before it becomes a crisis.
    Like the Coalition, I believe this issue is about border 
security, food security, labor force security, and economic 
security. Immigration reform is a must for U.S. agriculture. I 
can tell you from my own experience that not one person that 
has worked on my dairy in the last 5 years has been born in 
America.
    And this is not a matter of cheap labor. I would invite any 
Member of Congress who believes that to come and walk just a 
day in my shoes. The jobs on my dairy are year round, 
relatively high paying, and we provide a number of benefits 
including health care, bonuses, and opportunities for 
advancement. No, it is not a matter of wanting cheap labor. It 
is a matter of having any labor at all.
    Let me add here early and emphatically that I am a strong 
supporter of the effective border security, as is every other 
dairy farmer I know. People should not be coming to this 
country illegally, but it is the responsibility of this 
Congress to find political, viable solutions and enact them.
    The farmers I know would also like to see recognition by 
the Congress that this is nothing less than a food security 
issue for our country. The headlines of the day tell us we are 
too dependent on other countries for oil, and we don't want to 
go down that road with being food dependent as well. Sure, our 
food can be produced elsewhere. The question is why would we 
make that choice?
    We also read about outsourcing and jobs leaving this 
country. I have already been asked to relocate to China with my 
business. Without sensible immigration reform, the outsourcing 
of our food production and processing is a very real 
possibility. Is that what consumers really want? By all 
accounts, border and port agents inspect only a very small 
percentage of food shipments coming into the country, while 
every tanker load of milk I ship is tested. Every animal I sell 
is inspected for safety and quality. Consumers can take a great 
amount of reassurance for so rigorous a system.
    Farmers all across the country have supported several 
attempts by the Congress to enact comprehensive immigration 
reform. For many reasons, that has not happened. I am here 
today to join with other witnesses at this hearing to encourage 
Congress to enact what is achievable: to improve labor force 
security by providing a sensible, fair, and workable program 
for a legal immigrant agricultural workforce.
    Jobs on dairies are year round. You have heard this before, 
but I am going to say it again. The H-2A Program does not work 
for dairy. Like many dairymen, I milk my cows three times a 
day, and that means there is a harvest on my farms three times 
a day, 365 days a year. The H-2A Program, on top of all the 
other issues raised today, requires both the worker and the job 
to be seasonal and temporary. We gave up seasonal dairy in this 
country 50 years ago, and that is part of why we are the most 
competitive volume milk producing country in the world.
    For dairy, there are three key principles that must be 
included in the legislation solution. One, an affordable and 
efficient guest worker program that ensures the continued 
availability of immigrant labor for all of agriculture, 
including dairies. Two, a provision that allows those currently 
employed or with recent employment history in the U.S. to earn 
the right to work here legally regardless of their current 
legal status. Three, a provision that specifies the 
responsibility for ultimate verification of legal status of a 
worker by the government, not with employers.
    I have workers at my dairy who have been with me for more 
than 15 years. In addition to enjoying relatively high paying, 
year round jobs with some benefits, many of them perform work 
that requires a significant amount of training and skill. The 
cows must be well cared for or milk quality suffers, and my 
culling rate goes up, both with negative effects on my bottom 
line.
    Milk is also one of the most perishable foods produced in 
this country. It cannot be stored for long periods on the farm 
or waiting for a better price or labor to harvest it. The jobs 
on my dairy working with cows and equipment are not for 
amateurs. Well trained workers are simply a necessity on my 
dairy, and nearly all other dairies in the country, every day 
of the year.
    Farms also provide open space, and that is very important 
in my part of southern California. When a dairy farm goes out, 
houses and parking lots come in. Milk production in California 
is the largest industry in the state. It has a farmgate value 
last year of nearly $5 billion and contributes $47.4 billion 
and 434,000 jobs to the California economy. Average herd size 
in California is now about 900 cows, and our dairy farms are 
large because there is a large population to supply.
    Farm land is expensive so economies of scale are the rule 
instead of the exception. Producing a lot of milk is a 
necessity in order to cash flow the cost of land, not to 
mention the cost of all that corn that California dairy farmers 
have to buy from the Midwest each day. That all adds up to the 
need for outside labor, but people who were born in this 
country do not seem to be interested in jobs on our dairy 
farms. So dairymen have turned to those who are willing to do 
this kind of work.
    Some of my employees have been with me for many years, and 
it is the same for most dairymen I know. Some of those 
employees are like family to us. I have had employees come to 
me for advice on family issues, like how to deal with certain 
situations for their kids and where to buy a house. Like all 
families, we are dedicated to one thing: getting the job done 
for ourselves and our children.
    Thank you again for the opportunity to be here today. And 
no one in the dairy business has set out to break the law. 
Dairy farmers need labor, and seeing an unmet need, workers 
have come here for an opportunity. What we need now is an 
enforceable law that provides a workable solution to this 
problem this year. Nothing less than the food security of this 
nation and the economic health of rural communities are at 
stake. Thank you.
    [The prepared statement of Mr. Mouw follows:]

    Prepared Statement of Randall D. Mouw, Dairy Producer; Chairman,
District 12, California Milk Advisory Board, Ontario, CA; on Behalf of 
 Western United Dairymen; Dairy Farmers of America; and National Milk 
                          Producers Federation
    Good afternoon Chairman Peterson, Ranking Member Goodlatte and 
Members of the House Agriculture Committee. I want to thank you for 
holding this hearing to look into the labor needs on our nation's farms 
and ranches. While I'm told we are not here to take an in-depth look at 
any specific legislation, I am happy to be here to add my voice to 
those calling for a Federal legislative solution to the single most 
difficult challenge facing food production in this country today.
    My name is Randy Mouw. My wife Rose and I milk 1,400 cows in 
Ontario, California with 17 employees. One of our sons started his own 
dairy 2 years ago and another son is the assistant manager on our 
dairy. I am here today on behalf of Western United Dairymen, which 
represents more than 1,100 of the 1,800 dairy families in the State of 
California; my cooperative, Dairy Farmers of America, which markets \1/
3\ of the milk in the U.S. and has Member producers in 48 states; and 
National Milk Producers Federation, which represents dairy producers 
and the cooperatives they collectively own. NMPF member cooperatives, 
including DFA, market about 70% of the milk in the country.
    The availability of labor on this country's dairy farms is critical 
to those in our industry, but it has far wider implications for so many 
other sectors of the economy. Large herds or small, and in all parts of 
the country, dairies are family owned and operated, but additional 
labor is a must. Dairy farming is labor intensive and well trained 
outside labor is a necessity on most farms.
    All of the organizations I mentioned earlier are part of the 
Agriculture Coalition for Immigration Reform, the broader-based 
coalition that has been seeking a fair, sensible and workable program 
to provide labor to our nation's farmers and ranchers before it becomes 
a crisis. Like the Coalition, I believe this issue is about border 
security, food security, labor force security and economic security.
    Immigration reform is a must for U.S. agriculture because I can 
tell you from my own experience that not one person who has walked on 
my dairy looking for work in the past 5 years is a person who was born 
in this country. And based on my conversations with other dairymen, 
they will tell you the same story.
    This is not a matter of cheap labor, either. I would invite any 
Member of Congress who believes that to come and walk just a day in my 
shoes. The jobs on my dairy are year-round, relatively high paying and 
we provide a number of benefits including--health care, bonuses, and 
opportunities for advancement. No, it's not a matter of us wanting 
cheap labor--it is a matter of us having any labor at all.
    Let me add here early and emphatically that I am a strong supporter 
of more effective border security as is every other dairy farmer I 
know. People should not be coming to this country illegally. But the 
fact is people are coming to this country, sometimes legally, sometimes 
not, in search of an opportunity for a better life. And ordinary U.S. 
citizens, including small businessmen like me, cannot be put in the 
position of being made ``la migra,'' or the ``immigration police,'' 
responsible for sorting the real documents from the fake ones. It is 
the responsibility of the Congress to find politically viable solutions 
and enact them.
    The farmers I know would also like to see recognition by the 
Congress that this is nothing less than a food security issue for our 
country. The headlines of the day tell us we're too dependent on other 
countries for oil; we don't want to go down the road of being food 
dependent as well. Sure, our food can be produced elsewhere. The 
question is why would we make that choice? We also read about 
outsourcing, and jobs leaving this country. I have already been asked 
to relocate to China, with my business. Without sensible immigration 
reform, the outsourcing of our food production and processing is a very 
real possibility. Is that what consumers really want?
    By all accounts border and port agents inspect only a very small 
percentage of food shipments coming into this country while every 
tanker load of milk I ship is tested and every animal I sell is 
inspected for safety and quality. Consumers can take a great amount of 
reassurance from so rigorous a system.
    Farmers all across the country have supported several attempts by 
the Congress to enact comprehensive immigration reform. For many 
reasons, that has not happened. I am here today to join with other 
witnesses at this hearing to encourage the Congress to enact what is 
achievable--to improve labor force security by providing a sensible, 
fair and workable program for a legal immigrant agricultural workforce.
    Jobs on dairies are year-round. You have doubtless heard this 
before but I must say it again--the H-2A program does not work for 
dairy. Like many dairymen, I milk my cows three times per day. That 
means there is a harvest on my farm three times a day 365 days a year, 
weekends and holidays included. The H-2A program, on top of all the 
issues others have raised about it here today, requires both the worker 
and the job to be seasonal and temporary. We gave up seasonal dairying 
in this country 50 years ago and that is part of why we are the most 
competitive volume milk producing country in the world.
    Something else we gave up in this country many years ago is asking 
job applicants certain questions because of what they look like. I 
don't know the residency status of my workers because our anti-
discrimination laws prevent me from asking. Let's not return to those 
bad old days now.
    For dairy, there are three key principles that must be included in 
a legislative solution: (1) an affordable and efficient guest worker 
program that ensures the continued availability of immigrant labor for 
all of agriculture, including dairies; (2) a provision that allows 
those currently employed or with recent employment history in the U.S. 
to earn the right to work here legally, regardless of their current 
legal status; and (3) a provision that specifies the responsibility for 
ultimate verification of the legal status of a worker lies with the 
government, not with employers.
    I have workers at my dairy who have been with me for more than 15 
years. In addition to enjoying relatively high paying year-round jobs 
with some benefits, many of them perform work that requires a 
significant amount of training and skill. The cows must be well cared 
for or my milk quality suffers and my culling rate goes up, both with 
negative effects on my bottom line. And mechanization is not an option 
for all jobs on dairies. Cows must be monitored at calving and young 
calves need specific kinds of care. Robotic milking machines may work 
for some operations but the technology still needs to be perfected and 
the cost to purchase and install them must come down significantly for 
them to be a viable option on a large dairy.
    Milk is also one of the most perishable foods produced in this 
country. It cannot be stored for long periods on the farm awaiting a 
better price or labor to harvest it. The jobs on my dairy, working with 
cows and equipment, are not for amateurs. Well-trained workers are 
simply a necessity on my dairy and nearly all other dairies in the 
country every day of the year. Farms also provide open space. That is 
very important in my part of southern California. When a dairy farm 
goes out, houses and parking lots come in.
    Milk production in California is the largest sector of the largest 
industry in the state. It had a farmgate value last year of nearly $5 
billion and contributes $47.4 billion and 434,000 jobs to the 
California economy. Average herd size in California is now about 900 
cows. Our dairy farms are large because there is a large population to 
supply. And farmland is expensive so economies of scale are the rule 
instead of the exception. Producing a lot of milk is a necessity in 
order to cash flow the cost of the land, not to mention the cost of all 
of that corn that California dairy farmers buy from the Midwest each 
day. That all adds up to the need for outside labor. But people who 
were born in this country do not seem to be interested in jobs on dairy 
farms so dairymen have turned to those who are willing to do this kind 
of work.
    Some of my employees have been with me for years. It's the same for 
most dairymen I know and some of those employees are like family to us. 
I have had employees come to me for advice on family issues like how to 
deal with certain situations with their kids and when and where to buy 
house. Like all families we're dedicated to one thing--getting the job 
done for ourselves and our children.
    Thank you again Chairman Peterson, Ranking Member Goodlatte, my 
Congressman, Representative Joe Baca, and the other Members of the 
Agriculture Committee. No one in the dairy business has set out to 
break the law. Dairy farmers need labor and, seeing an unmet need, 
workers have come here for an opportunity. What we need now is an 
enforceable law that provides a workable solution to this problem this 
year. Nothing less than the food security of this nation and the 
economic health of rural communities are at stake.

    Mr. Mahoney. Thank you, Mr. Mouw. Mr. Atkinson.

        STATEMENT OF KEITH ATKINSON, PRESIDENT, VIRGINIA
          AGRICULTURAL GROWERS ASSOCIATION; APPLE AND
                   TOBACCO PRODUCER, JAVA, VA

    Mr. Atkinson. Good afternoon, Mr. Chairman, Ranking Member 
Goodlatte, and other Members of the Committee. My name is Keith 
Atkinson. Along with my wife and four children, two of whom are 
in college, two to enter college soon, I own and operate a 
family farm in Southside, Virginia.
    Were it not for the H-2A Program, we would be unable to 
farm at all. However, this program has become so burdensome and 
costly it is threatening our ability to continue.
    I am also President of the Virginia Agricultural Growers 
Association, an association of Southside, Virginia family farms 
formed nearly 30 years ago to share the expense of complying 
with the guest worker program. In 1998, our association has 579 
farm members. Today, we only have 270 left. Many of our farmers 
quit farming because they were unable to meet the H-2A Program 
burdens, among them, the so-called Adverse Effect Wage Rate.
    AEWR rates are much higher than area prevailing rates. 
Every year, the AEWR increases on a percentage basis. Our AEWR 
minimum wage went from $8.51 to $9.02 effective February 21, 
2007. That is 6 percent. Incidentally, this is over ten times 
the wage rate these H-2A guest workers could earn in Mexico. In 
the future, H.R. 1792 ties H-2A wages to actual prevailing 
wages in similar jobs. H.R. 1792 corrects an additional 
obligation several courts have imposed on agriculture, 
particularly guest worker programs.
    Under this erroneous view, when workers are paid their 
wages for the first week of employment after relocation to 
accept employment, they must be reimbursed their relocation 
transportation cost from their homes to the extent those costs 
would otherwise cut into the worker's minimum wages for that 
first week, as required by the Fair Labor Standards Act of 
1935. There is no principal reason, no applicable FLSA 
exemption, special clause to treat agriculture or the temporary 
worker program differently than any other employment.
    Current Internet advertisements for applicants for jobs 
with the United States Houses of Representative plainly state, 
``transportation and all related travel expenses associated 
with interview and hiring process must be paid by the 
applicant. Moving and related relocation expenses are not 
available.'' I am puzzled as to why farm operations are held to 
different standards than our own government is.
    Under the previous H-2A Programs, several courts ruled that 
the Department of Labor could only enforce a requirement still 
applicable in the H-2A Program that farmers reimburse 
relocation expenses once workers work 50 percent of the period 
they agree to work. You will see that nobody ever argued that 
FLSA requires first paycheck transportation reimbursement to 
avoid a minimum wage violation. Any adverse ruling, while not 
law, tends to have the same effect as law.
    Growers have been attempting to obtain an opinion letter 
from DOL's Wage and Hour Division on the transportation 
reimbursement and related issues since 1992. Without 
fulfillment of the Administrator's responsibility to issue 
formal opinions, and passage of H.R. 1792, that recognizes that 
jobs equally benefit workers and employers; the government and 
many employers including growers are in jeopardy of an adverse 
court ruling on the relocation expense issue.
    As small farmers with limited resources, we are totally 
defenseless against every non-meritorious lawsuit and wage hour 
claim, every unfairly changed legal interpretation of old rules 
by a DOL official.
    We therefore must turn to our elected representatives for 
help. H.R. 1792 also contributes to good immigration policy. 
Seventy-five percent or more of the workers our association 
members employ have been coming here for 10 years or more and 
returning home every year in accordance with H-2A regs. They 
are not part of an illegal workforce.
    The really hard question for this Committee and for the 
entire Congress is are we going to have labor-intense 
production agriculture that requires guest workers in America 
in the future? If so, the rest is easy. Congressman Goodlatte 
has already done it for you. If not, I feel this Committee owes 
us the courtesy of telling us so we can find another line of 
work.
    Mr. Chairman, I would invite every Member of this Congress 
to take a trip along the area just east and west of the 
Allegheny Mountain chain that extends from the Northeast 
through the Mid Atlantic to Florida and all of middle America. 
Take in all those beautiful vistas that you will see. The mix 
of hard woods and evergreens, neatly planted and maintained 
crops, vineyards, and orchards growing in geometric patterns on 
those gently rolling hills.
    I want you to take a close look, and I want you to take 
camera because if some serious changes are not made here in 
this Congress, I can assure you that view and that part of the 
American economy will be gone forever in a very few years. 
Thank you for your attention.
    [The prepared statement of Mr. Atkinson follows:]

Prepared Statement of Keith Atkinson, President, Virginia Agricultural 
       Growers Association; Apple and Tobacco Producer, Java, VA
    Good morning Mr. Chairman, Ranking Member Goodlatte, and other 
Members of the Committee:

    My name is Keith Atkinson. Along with my wife and four children, 
two of whom are in college, two to enter college soon, I own and 
operate a family farm in Southside, Virginia. Were it not for the H-2A 
guest worker program, broken, costly, and perilously litigation-prone 
as it is, we would be unable to farm at all.
    I also serve as President of the Virginia Agricultural Growers 
Association (VAGA), an association of Southside, Virginia family 
farmers formed nearly 30 years ago to share the expenses of completing 
legally required procedures to obtain temporary foreign workers. In our 
rural areas, we already could not locate enough U.S. workers--local 
workers or Americans from other areas--who were willing to work during 
our peak periods when we could not handle the intense labor needs of 
our farms with our families and a handful of year-round employees.
    When George Vanderbilt decided to build the grandest home ever 
built in America--The Biltmore--he needed guest workers from abroad. 
When Franklin Roosevelt learned there were not enough able workers left 
in America to produce the food we needed to feed our people at home and 
troops during World War II, he started what has become the critically 
needed, but very cumbersome, very burdensome guest worker program that 
today is known as the H-2A Program. I doubt either could have 
envisioned the quagmire that American agriculture and small family 
farms face with the red tape required in today's H-2A Program.
    We still need a guest worker program for agriculture, and I 
therefore urge the passage of the Temporary Agricultural Labor Reform 
Act of 2007, H.R. 1792, sponsored by Congressman Goodlatte and others 
whose efforts are much appreciated.
    Once a farmer goes out of business, our experience is that our 
local and national economies and our agricultural production capability 
have lost that farm capacity forever. Compared with 1998 when our 
Association had 579 farm members, today we have fewer than \1/2\--just 
270 farms. One of the most frequently cited reasons our region's 
farmers go out of business is that they simply cannot continue under 
the burdens of the current H-2A Program--among them the substantially 
higher hourly wage rates we must pay than prevail in our rural areas, 
even for skilled year-round jobs. For example, in my locale, skilled, 
year-round welders make $10.00 an hour, whereas I must pay $9.02. 
(Incidentally, this amount is more than ten (10) times the wage rate 
these H-2A workers could earn in Mexico.) Moreover, I know one day next 
February or March, the Department of Labor (DOL) will publish an 
immediately applicable new minimum wage--what's called an Adverse 
Effect Wage Rate or AEWR--that may be substantially higher. My farm's 
AEWR minimum wage went from $8.51 to $9.02 effective February 21, 2007, 
whereas the Fair Labor Standards Act (FLSA) minimum wage for the rest 
of America went from $5.15 to $5.85 in July--that's a difference of 
$3.17 an hour.
    I know you will understand the effect of percentage wage increases 
over time. The AEWR base and methodology for increases were established 
years ago. Over time, as the AEWR has been increased simply based on 
percentage increases in overall agricultural pay, the DOLLAR difference 
between actual prevailing wages and the AEWR has increased 
substantially. Just one of the important improvements H.R. 1792 makes 
is to tie H-2A wage rates to actual prevailing wage rates in similar 
jobs.
    On top of these wages, we also must provide free worker housing and 
utilities, bedding, and kitchen equipment, free transportation to and 
from work every day and to the grocery store, and many other employment 
benefits that no other American employers are required by law to 
provide their employees.
    Besides these terms and conditions that come from regulations 
adopted by the United States Department of Labor, there are additional 
obligations that courts have imposed that we believe are not required 
under the FLSA. One such requirement is that at the time workers are 
paid their wages for their first week of employment, they must be 
reimbursed their incoming transportation costs from their homes in 
Mexico, to the extent those costs would otherwise cut into the workers' 
FLSA minimum wages for the hours they worked that first week. This 
requirement has been imposed even though the H-2A regulations expressly 
provide that such expenses are not owed unless and until workers 
complete \1/2\ of the period they have agreed to work for an employer. 
This so-called Arriaga requirement, named for the case holding that 
such an FLSA requirement exists, has not generally been applied yet 
outside agriculture or even outside the temporary worker program, but 
there is no principled reason--no applicable exemption or special 
clause--to treat agriculture or the temporary worker program 
differently under the FLSA. I am puzzled as to why farm operations are 
held to different standards than our own government is held under its 
official personnel policies.
    You may be interested to know that despite Congressional adoption 
of the FLSA requirements to employees of the Congress, the current 
Internet advertisements for applicants for jobs with the United States 
House of Representatives plainly state:

        ``Transportation and all related travel expenses associated 
        with the interview and hiring process must be paid by the 
        applicant. Moving and related relocation expenses are not 
        available.'' See http://www.house.gov/cao-hr/welcome.shtml 
        (copy attached).

    Indeed, the Federal Office of Personnel Management authorizes 
agencies of the United States government to offer relocation payment 
assistance to employees only in limited circumstances. When such 
payments are authorized, they are designated as a bonus, not as part of 
the regular wage. These extra payments to defray relocation expenses 
are not owed as a right under the FLSA at the same time an employee's 
wages are paid for the first workweek but only after the employee has 
entered ``into a written service agreement to complete a period of 
employment with the agency, not longer than 4 years.'' See 5 U.S.C.  
5753 (c)(1) and  5753 generally and 5 C.F.R. Parts 572 and 575. See 
also, www.usajobs.gov.
    I submit to you that these stated-written-policies of the House of 
Representatives are in compliance with the FLSA and with the employment 
policies of the vast majority of American employers who, like the House 
of Representatives, have no legal obligation to reimburse any 
relocation travel expenses.
    In numerous judicial proceedings under the predecessor H-2 Program, 
the Courts ruled that DOL could not require farmers to advance guest H-
2 workers the costs of transportation from their homes to their U.S. 
employers but could only enforce an existing requirement that farmers 
reimburse relocation expenses once workers had worked 50% of the period 
they had agreed to work. Growers had shown the courts data that 
demonstrate what we are experiencing--too many workers collect 
transportation reimbursement and disappear, thereby adding to the ranks 
of illegal workers. I will be glad to provide the case decisions, and 
if you study these cases, you will see that nobody ever argued that the 
FLSA requires first paycheck transportation reimbursement to avoid a 
minimum wage violation.
    H.R. 1792 also corrects this Arriaga problem.
    This matter is of critical importance to all employers. Growers 
have been attempting to obtain an authoritative Opinion Letter from the 
Administrator of DOL's Wage and Hour Division on the transportation 
reimbursement and related issues since 1992. We understand there have 
been other such requests in the last 15 years. A detailed analysis of 
the issues and law and a renewed request was submitted since last year. 
Besides favorable action on H.R. 1792, we also ask that this Committee 
use its good offices to encourage the Administrator to complete any 
necessary ``clearance review'' process on these issues that may include 
consultation with the Office of the Solicitor of Labor and issue an 
Opinion. Even if there are internal delays outside the Office of the 
Administrator, at some point the Administrator should fulfill the 
interpretative responsibility resident in that Office under statute and 
issue a formal Opinion. Without fulfillment of the Administrator's 
responsibility and passage of H.R. 1792, which recognizes that jobs 
equally benefit workers and employers, our government--including the 
Congress-growers, and in fact all employers are in jeopardy of a court 
ruling that their policies of not paying employees' relocation expenses 
are unlawful.
    In addition to urging adoption of H.R. 1792, I respectfully urge 
that this Committee restate its intent to retain a key requirement of 
the existing H-2A program: that the Department of Labor must consult 
with the United States Department of Agriculture and the United States 
Attorney General before issuing regulations to implement the H-2A 
Program. See Section 301(e) of P.L. 99-603, as amended, P.L. 100-525, 
Section 2(l)(4), October 24, 1988, 102 Stat. 2612. Meaningful 
consultation, of course, requires more than a delivered copy of what 
will be published in the Federal Register the next day; meaningful 
consultation requires a willingness to explain why a provision or 
change is necessary or desirable and to consider alternatives, among 
many other points.
    We also ask that this Committee express its concerns about the 
failure of the DOL to fulfill applicable statutory mandates. First, it 
must consult with the USDA and the Attorney General. Second, in 
accordance with the Administrative Procedure Act, it must and publish 
proposed new regulations and material changes in interpretations of old 
regulations in the Federal Register if it moves forward with what its 
representative announced to Florida farmers last week would be new 
requirements in a number of areas under the H-2A Program.
    Just one example is that in the future, DOL will take the position 
that a farmer has waived his right to enforce a minimum production work 
standard if it allows a worker who has not met the standard, but who is 
trying hard and getting better, to continue working.
    Another example: DOL will take the position that a friend or 
retiree who is willing to help out in an H-2A certified job 1 day a 
week or a few hours on Saturday must be treated as a full-time worker 
in all respects: that means that he and I would have to pretend that I 
had offered him work so many hours a day every day and that he had 
declined those hours; I would have to keep meticulous records of hours 
of work offered above and up to the guaranteed workday and undertake 
many other obligations as though he were a full-time worker OR ELSE, 
DOL will take the position that I owe that part-time--when he wants to 
or is willing to work--friend wages for \3/4\ of the work hours I have 
guaranteed H-2A and U.S. workers I have hired to work full-time for the 
season.
    There is simply not time to explain in detail the very complex 
rules we already operate under that no other employers must meet. H.R. 
1792 addresses some of these unnecessary rules that are unfair. Still, 
all of the work of the Congress can be subverted by such new 
interpretations and new rules as we understand were just announced last 
week in Florida. While those of us who had friends who were at the 
meeting may be able to learn what our friends heard and can tell us, 
that's just no way to announce public policy.
    As small farmers we cannot afford lawyers to help us resist--we are 
virtually defenseless against--every non-meritorious lawsuit and Wage-
Hour claim and every unfair, even unlawful, change in interpretation by 
a Department of Labor official who may not know how particular rules 
have been interpreted and applied--in many cases for decades. We 
therefore must turn to our elected representatives for help.
    The question that the Committee needs to ask and the decision it 
needs to make is whether or not we are going to have labor intense, 
production agriculture in America in the future. If we are to be able 
to do so, we need passage of H.R. 1792 as a step in the right 
direction. If not, then the Committee needs to tell us so we small 
farmers can look for other work and hope that we will be able to afford 
and find safe, imported food.
    There is another important part of H.R. 1792 that I believe would 
contribute to good immigration policy. About 75% of the workers our 
Association's members employ have been coming here for 10 years or more 
and returning home to Mexico every year. They are not part of an 
illegal workforce. These workers use the money they earn here to build 
homes in Mexico and to educate their children.
    Finally, even to achieve these high objectives, if these workers 
weren't being treated fairly in connection with their work, no 
reasonable person could think they would be coming here 10 and more 
years. A better H-2A Program is important to all of these workers as 
well as to farmers like me, who need it to be able to continue farming, 
as well as to our communities and our nation. Thank you very much for 
your attention.
                               Attachment
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Mahoney. Thank you very much, Mr. Atkinson. Mr. Roth.STATEMENT OF RICK 
 ROTH, PRESIDENT AND PRINCIPAL OWNER, ROTH FARMS, INC.; VICE PRESIDENT 
 AND MEMBER, BOARD OF DIRECTORS, FLORIDA FARM BUREAU; MEMBER, BOARD OF 
 DIRECTORS, FLORIDA FRUIT AND VEGETABLE ASSOCIATION; MEMBER, BOARD OF 
 DIRECTORS, SUGAR CANE GROWERS COOPERATIVE OF FLORIDA, BELLE GLADE, FL

    Mr. Roth. Yes, sir. Good afternoon. My name is Rick Roth. I am a 
third-generation farmer from Belle Glade, Florida. My father moved from 
Cleveland, Ohio in 1949. I farm the Everglades agricultural area, which 
is 800 square miles of some of the richest organic soils in the United 
States south of Lake Okeechobee.
    This region of Florida is first in the production of sugar, sweet 
corn, and radishes. Our family, as I mentioned before, owns over 4,000 
acres, leases another 1,000 acres, and we grow lettuce and leafy 
vegetables, radishes, sugar cane, sod, sweet corn, green beans, field-
grown palm trees, and rice. We employ 55 people full time, and plus we 
have another 220 seasonally.
    I serve on many boards, but I just really appreciate the 
opportunity to be here today. And I have enjoyed listening to some of 
the comments, but I would also like to explain why we must pass some 
meaningful immigration reform legislation immediately. And I ask you to 
please share this information that I am going to give you with your 
colleagues on both sides of the aisle so that we can get this done.
    We do live in perilous times. We are at war with terrorism, and we 
must prevent illegal immigration into this country. But just as 
important, we must also simultaneously give employers like me the 
ability to use legal, foreign workers.
    Why? Because domestic food protection is the other national 
security issue. Fruits and vegetables and other labor intensive crops 
make up over 50 percent of our agricultural production today. Foreign-
born workers will plant, cultivate, and harvest the crops that make up 
most of our food supply.
    So will they do it here using our food safety guidelines; or will 
they be in another country? So do you want to import labor to fill the 
jobs needed, or do you want to import just more food? We already import 
over 50 percent.
    I live in Florida. When you say Florida, most visitors think of 
Mickey Mouse, but if you want to see real-world marvels, you need to 
come to Belle Glade. You will see hi-tech agriculture that produces 
crops year round using fewer new nutrients, water, and chemicals per 
unit of production than any other place in the United States. And I 
will personally give you the farm tour, and my opening statement will 
be, ``Welcome to paradise.''
    One of the keys to the success of farming in the EAA is our ability 
to farm year round and to maximize production through crop rotation. 
Without an adequate legal labor force, we jeopardize that vegetable 
industry, which produces on 25,000 acres of sweet corn, 10,000 acres of 
green beans, 7,000 acres of lettuce, and 5,000 acres of radishes with 
an annual average net value of $150 million a year.
    Our family farm is one of 50 members of Sugar Cane Growers 
Cooperative, one of the most successful co-ops in the United States. 
And for the first 30 years of our 45 year existence, we relied 
primarily on H-2A workers to harvest our sugar cane. Now, all the 
burdensome regulations of the H-2A Program, including farm worker 
housing and higher labor costs make this program a matter of last 
resort.
    The most onerous part was the farm worker housing. Now, due to the 
current situation, capital costs, county zone and permitting 
requirements, and negative public opinion, it will take many years for 
employers to move to H-2A for their labor needs. So to use this 
program, we must have this meaningful reform, but it is clearly not 
enough.
    We must provide a means for the current, experienced, agricultural 
workers to earn legal status, subject to conditions that will require 
them to work in agriculture.
    Now, when we talk about jobs in Florida, we talk about the three-
legged stool: tourism, agriculture, and construction. Our economy in 
Florida is already in a recession due to the doubling of prices of 
houses, and I just cannot imagine what the degree of devastation to the 
economy will be in Florida, but I can assure you that you can send the 
U.S. economy into a depression if we deny employers access to a legal 
workforce.
    Please remember that agriculture is not the largest user of 
seasonal labor. We are just the most visible.
    As I complete my statement, I would like to change the focus 
towards you. In the past, legislation with H-2A reform and earn 
adjustment of status provisions have enjoyed broad bipartisan support. 
Today this issue is very emotional and controversial.
    Thank God that our founding fathers did not create a true democracy 
but instead a representative form of government. So it is your duty to 
ignore all the hype and emotion, sift through all the opposing ideas 
and options, and come up with a solution that will move this country 
forward.
    In closing, I say this. I play doubles tennis. The winning strategy 
there also applies here. Down the middle, solve the riddle. I want to 
thank you for this opportunity, and I look forward to answering any 
questions. Thank you.
    [The prepared statement of Mr. Roth follows:]

 Prepared Statement of Rick Roth, President and Principal Owner, Roth 
  Farms, Inc.; Vice President and Member, Board of Directors, Florida 
  Farm Bureau; Member, Board of Directors, Florida Fruit and Vegetable
      Association; Member, Board of Directors, Sugar Cane Growers
                Cooperative of Florida, Belle Glade, FL
    Good morning. My name is Rick Roth. I am a third generation farmer 
from Belle Glade, Florida. I have been the President and Principal 
Owner of Roth Farms, Inc. since 1986. I have the most diversified 
farming operation in the Everglades Agricultural Area, 800 square miles 
of rich organic soils south of Lake Okeechobee. This region of south 
Florida is first in the production of sugar, sweet corn, and radishes 
in the United States. Our family owns over 4,000 acres, and leases 
another 1000 acres. We grow lettuce and leafy vegetables, radishes, 
sugar cane, sod, sweet corn, green beans, field grown palm trees, and 
rice. We employ 55 people full-time, plus 220 seasonally.
    I currently serve on the Board of Directors of the Florida Farm 
Bureau (10 years), the Florida Fruit and Vegetable Association (21 
years), and Sugar Cane Growers Cooperative of Florida (13 years). I am 
the Vice President of Florida Farm Bureau, and this is my 7th year of 
service.
    I appreciate the opportunity to explain why we must pass 
immigration reform legislation immediately and ask that you share the 
information that you learn at this hearing with your colleagues on both 
sides of the aisle . . . We live in perilous times. We are at war 
against terrorism. We must prevent unwanted illegal migration into our 
country. But, just as important, we must simultaneously give employers 
like me the ability to use legal foreign workers. Why? Because domestic 
food production is the other national security issue.
    Fruits and vegetables and other labor-intensive crops make up 50% 
of our agricultural production today. Foreign born workers will plant, 
cultivate, and harvest the crops that make up most of our food supply. 
Will they do it here, using our food safety guidelines, or in another 
country? Do we want to import labor to fill unwanted farm labor jobs, 
or do we import more of our food supply. We already import over 50%.
    I live in Florida. When you say Florida, most visitors think 
Mickey. If you want to see real world marvels, come to Belle Glade. You 
will see high tech agriculture that produces crops year-round, using 
fewer nutrients, water, and chemicals per unit of production than 
anywhere in the United States. I will personally give you the tour, and 
my opening statement will be, ``Welcome to PARADISE''.
    One of our keys to success in the EAA is our ability to maximize 
production with fewer chemicals through crop rotation. Without an 
adequate legal labor force, we jeopardize our vegetable industry, which 
produces approximately 25,000 acres of sweet corn, 10,000 acres of 
green beans, 7,000 acres of lettuce, and 5,000 acres of radishes per 
year with an annual value of $150 million.
    Our family farm is one of 50 members who own one of the most 
successful cooperatives in this country, Sugar Cane Growers Cooperative 
of Florida. For the first 30 years of our 45 year existence, we relied 
primarily on H-2A workers to harvest sugar cane. All the burdensome 
regulations of the H-2A program, including farm-worker housing, and 
higher labor costs make this program a matter of last resort. The most 
onerous part of H-2A is farm-worker housing. Due to capital costs, 
county zoning and permitting, and negative public opinion, it will take 
many years for employers to move to H-2A for their labor needs. To use 
this program, we must have meaningful reform. But H-2A alone is clearly 
not enough. We must provide a means for the current experienced 
agricultural workforce to earn legal status subject to conditions 
including a future agricultural work requirement.
    Such a proposal is essential to solve both the short and long-term 
agricultural labor crisis. We need the earned status provisions as a 
bridge to greatly expanded use of the H-2A program. It will provide the 
much needed time to build the housing required of users of the H-2A 
program and will allow our government to expand its consular offices in 
foreign countries so that they can process foreign workers for 
admission in a timely manner. Currently, with less than 2% of the 
agricultural workforce entering under the H-2A program, growers are 
experiencing harmful delays in getting their workers in a timely manner 
to harvest highly perishable crops.
    When we talk about jobs in Florida, we talk about the three-legged 
stool: Tourism, agriculture, and construction. Our economy in Florida 
is in a recession due to the dramatic increase in housing prices. New 
home sales are at a standstill, and the forecast for over a year is it 
will take 2 years to work our way out of the over-supply. I feel the 
impact. Our wholesale sod sales are down 50% from a year ago. I can not 
imagine the degree of devastation that will occur in Florida, but I can 
assure you we can send the U.S. economy into a depression if you deny 
employers access to a legal workforce. Agriculture is not the largest 
user of seasonal labor; we are just the most visible.
    As I complete my statement I would like to change the focus of my 
remarks towards you. In the past, legislation with H-2A reform and 
earned adjustment of status provisions has enjoyed broad bipartisan 
support. Today, this issue is very emotional and controversial. Thank 
God that our founding fathers did not create a true democracy, but 
instead a representative form of government. It is your duty to ignore 
all the hype and emotion, sift through all the opposing ideas and 
options, and come up with a solution that will move this country 
forward.
    I play doubles tennis. The winning strategy there also applies 
here. ``Down the middle, solve the riddle''. Thank you for giving me 
this opportunity and I would be happy to answer questions later, if 
time permits.

    Mr. Mahoney. All right. Thank you, Mr. Roth. And as all the 
Members of Congress rush to the airport, I know that there are 
people that are here that have flights, but I do want to ask a 
question or two, and we can conclude this.
    You know at the beginning, we were talking about the fact 
that the Department of Homeland Security and the Social 
Security Administration are changing their policy with regards 
to these No-Match letters. And I would like to hear from the 
growers really quickly in a couple of sentences what the impact 
would be of this policy change to your businesses. We will 
start with Mr. Carnes.
    Mr. Carnes. Right now, the estimates are out that Texas has 
over \3/4\ of a million employees that are going to be affected 
by No-Match. The fact of the matter is for us as agricultural 
people, we have key experienced, trained personnel that we 
don't know. The fact is we really don't know what their status 
is. We----
    Mr. Mahoney. But the question I am asking you is that if 
they change this policy, does it impact your ability to get 
access to labor right away, or is this something that is going 
to----
    Mr. Carnes. I think it will affect our existing labor force 
right away. Yes, I think we will lose a lot of key personnel 
that we have no idea that the documents they have may not be 
entirely valid.
    Mr. Mahoney. Mr. Smoak?
    Mr. Smoak. The impact will be significant, and it will be 
immediate.
    Mr. Mahoney. Well, that was brief. He must have a flight. 
Mr. Yates.
    Mr. Yates. I am an H-2A user, so there would be no----
    Mr. Mahoney. No issue for you? Mr. Mouw?
    Mr. Mouw. Already with the letter that we get from Social 
Security saying they don't match already does things with the 
employees--I say you can't work here unless it is legal. If it 
matches--if it doesn't match, I can't have you. So I already do 
that.
    Mr. Mahoney. Yes, and Mr. Atkinson.
    Mr. Atkinson. There would be no impact. We use H-2A.
    Mr. Mahoney. H-2A, right. And, Mr. Roth?
    Mr. Roth. I have a couple of comments. The first one is----
    Mr. Mahoney. You get one comment.
    Mr. Roth. One comment, okay. The impact will be great. I do 
have very skilled workers in the lettuce business.
    Mr. Mahoney. But would it be immediate?
    Mr. Roth. So it would be immediate, but the thing you need 
to think about is that these employees will probably shift 
jobs, and it is very highly qualified. I can give you a perfect 
example back in 2005.
    Mr. Mahoney. That is okay. We don't have----
    Mr. Roth. You don't have time, okay.
    Mr. Mahoney. We don't have time. I am trying to respect 
their time. I have another question which is: we are looking at 
a couple of options. We have talked about two options today, 
the two things that are presented. One is the AgJOBS. Another 
is the H-2A Program of which we now know there is 2 percent of 
the labor force in agriculture participates in that program.
    And yet there is yet a potential third one, which is 
comprehensive immigration reform that did not pass out of the 
Senate and didn't even get to the House, which would be a 
national comprehensive approach to having these people identify 
themselves with a system where they could be here with a legal 
status in this country.
    If you take a look at where this legislation was going, 
they were talking about having a system where there would be 
the Department of Homeland Security responsibility to identify 
these workers and then have some form of biometric card that 
would be presented to you all for hiring.
    So my question for each of you is of the three choices in 
front of you, national comprehensive program, AgJOBS, or H-2A, 
what works best for your operations? Mr. Carnes?
    Mr. Carnes. I think we are here today to solely focus on 
agriculture, and the one reason that agriculture is still in 
this fight is because we have been forthright, and we have 
worked this issue hard. And we can't afford to quit. Right now, 
the best thing out there would be AgJOBS. I am not saying it is 
perfect, but we need a comprehensive agricultural solution.
    Mr. Mahoney. Okay, thank you.
    Mr. Carnes. We have to keep the workers that we have. We 
have to have a future path. I am sorry. I could go on.
    Mr. Mahoney. We have heard the arguments. Mr. Smoak?
    Mr. Smoak. I believe we need the long-term fix to get us 
legal workers. That is what we need.
    Mr. Mahoney. Mr. Yates.
    Mr. Yates. H-2A reform would be the best long-term fix.
    Mr. Mahoney. Okay, Mr. Mouw?
    Mr. Mouw. I think that H-2A wouldn't work at all. AgJOBS 
would be a possibility, but the long-term solution is complete 
immigration reform.
    Mr. Mahoney. Mr. Atkinson?
    Mr. Atkinson. H-2A reform.
    Mr. Mahoney. And Mr. Roth?
    Mr. Roth. We need the AgJOBS because we need to be able to 
transition.
    Mr. Mahoney. Okay, do any of the Members have any 
questions?
    The Chairman. If I could. Mr. Mouw, I was surprised to read 
that you had been approached to move your dairy to China. 
What----
    Mr. Mouw. I happen to live right on the edge of LA, and 
there are people that the first dairy they see when they come 
to LA to look at the dairies are mine, and they often stop. I 
have had people from China, New Zealand, many other countries, 
just stop.
    There just happened to be some people who stopped, an 
operator from Beijing and two mainland Chinese nationals, one 
who works in Chicago, one who works in Beijing, came by and 
spent half a day with me asking questions. They just stopped in 
and started talking, asking questions and said they really need 
producer know-how expertise out there. And they offered to move 
me out there because they are really looking to expand their 
dairy industry out there and not having very much success very 
quickly. But they are going to do it anyway.
    The Chairman. All right, thank you.
    Mr. Mahoney. Does anybody else have any questions? Let me 
just conclude by just taking the privilege of being the chair 
of saying that one of the things I love about agriculture is 
that the people that represent the industry are the very best 
that America has to offer. Hardworking, committed, law-abiding. 
And I really commend all of you for working very hard to try to 
deal with an impossible situation.
    My experience with agriculture amounts to about 40 cows, 
and I can tell you that talking to my neighbors what an 
impossible task you find yourselves having to deal with all the 
time. And I want you to know that you are probably the only 
industry that I could think of in America that would have been 
so willing to deal with this impossible situation; with an 
approach to immigration that has put you in a position of 
having to make tough choices between doing the right things, 
doing the things that are for the law, and trying to take care 
of your families.
    And I would just hope that, as an industry, you stand up 
for your rights, and you let people know that agriculture is 
important because the message here in Congress needs to get 
communicated as well.
    So I want to thank everybody for being here today. It was a 
long day, but your testimony is very critical, and it is going 
to be an important part of the debate as we move forward with 
what to do in this country with immigration.
    With that, I am going to declare this hearing adjourned. 
Thank you very much for your time.
    [Whereupon, at 3:46 p.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
      
            Farm Labor Crisis: A New York State Perspective
    New York is an agriculture state. Farms encompassed 25 percent of 
the state's landscape and generated $3.6 billion for our economy in 
2006. Currently, New York State has 7.5 million acres of farmland with 
35,000 farms producing a variety of products. New York's leading 
commodities include milk, apples, grapes, fresh vegetables, equine, and 
horticulture.
    New York's strong and diverse agricultural industry is dependent on 
a reliable workforce. According to the National Agricultural Statistics 
Service, in 2006 there were approximately 32,500 agricultural laborers 
hired in the Northeast. New York State employs a vast number of these 
workers.
    It is estimated that a significant and growing percentage of the 
workers who come to our farms are illegal and utilizing fraudulent 
documents to secure employment. Not only is it hard to distinguish a 
fraudulent document from a legitimate document but an employer who 
takes action against an individual based on an assumption of false 
documents or an illegal status may, in fact, violate the law and can 
face charges of discrimination.
    This situation puts farm businesses at an increased risk. A raid by 
Immigration and Customs Enforcement can cause financial devastation in 
an instant. If a labor force is not in place the entire harvest can be 
lost and animals' health and welfare compromised.
    When conducting immigration enforcement on a farm, agents may not 
be aware of sensitive issues like bio-security and animal health. ICE 
agents may unknowingly contaminate or spread disease between farms when 
bio-security protocols are not followed. Also, if an animal is not 
regularly milked on the established schedule it can lead to serious 
animal health consequences including disease and severe animal 
discomfort. For example, a dairy farm located in western New York had a 
worker picked up while he was milking cows during an early morning 
shift. Several hours later the farmer discovered the cows, still in the 
parlor, with the milking equipment still running and the cows in 
discomfort.
    There simply must be procedures put into place that provides for 
the notification of a farm operator if his or her workers are detained 
by ICE and animals are left unattended or workers disappear from the 
field.
    Farm raids have a human toll as well. Farm employers face possible 
fines and jail time if they are found to have knowingly hired illegal 
workers. Farm workers are also affected. Due to the fear of enforcement 
actions farm workers are driven into the shadows and they are afraid to 
access health clinics, child care, and other critical services. Some 
farm workers refuse to live in worker housing and choose instead to 
sleep in cars hidden in farm fields because of fear.
    When farm workers are picked up their children are sometimes left 
behind at child care centers. The ever present threat of parents being 
separated from their children places tremendous stress on these 
families. Parents leave their children in the mornings to go work in 
the fields and packing houses and worry every minute if they will be 
back together at the end of the day. Such elevated stress levels 
adversely impact children's overall health and development. Parents are 
avoiding parenting and ESL classes--the very things that can strengthen 
their families and communities. Children and families, documented and 
undocumented are suffering.
    Farmers are also put at risk by disgruntled neighbors. Due to the 
nature of a farm businesses and encroaching urban sprawl, neighbors, 
who do not always understand sound agricultural practices, may become 
disgruntled by the sights, sounds, and smells of a farm operation. ICE 
will conduct raids on farms if they are given an anonymous tip as this 
provides reasonable suspicion that illegal workers may be employed on 
such farm.
    This is no way for a farmer to run a business and it is simply no 
way for a farm worker to live.
    Because of this risk and the fact that many of our migrant farm 
workers are unwilling to return to New York because of increased 
immigration enforcement within our state, many employers are turning to 
the H-2A Agricultural Seasonal Worker Program. Data collected from the 
U.S. and N.Y. Departments of Labor shows that more and more farmers in 
New York are utilizing H-2A. In 2004 there were only 120 employers 
certified in the program who requested about 2,200 H-2A workers, by 
2006 that number had increased to over 200 employers requesting over 
3,100 workers. That number is expected to increase once again this 
year. Over 275 employers have requested almost 4,000 workers and we are 
just now entering our fall harvest season. This trend is likely to 
continue.
    The H-2A program is available to our seasonal growers but does not 
address the labor needs of our year round employers, e.g., dairy farms, 
vineyards, fisheries, and equine operations. Of even more concern is 
that fact that many of our members who do utilize H-2A have experienced 
extreme delays in the processing of their applications and in some 
instances gross negligence in the handling of their applications. One 
particular apple grower's application was lost twice and the farmer is 
concerned that his workers will not arrive in time for harvest. Many 
other growers have shared similar stories of workers arriving up to a 
month late.
    The H-2A program needs major reforms in order to meet the needs of 
New York's agricultural industry. Without H-2A reforms and/or a 
comprehensive immigration reform bill or single sector agricultural 
labor bill the future of farming in New York is insecure.
    A conservative estimate from the Farm Credit Associations of NY 
suggests that New York State will lose in excess of 900 farms, $195 
million, and 200,000 acres of agricultural production over the next 2 
years if current immigration policy is not changed.
    Farmers desire a safe and secure homeland, but are also an integral 
part of the security of our nation's food supply.
    All of the above examples' portray the urgency for immigration 
reform. This problem will only grow, and a solution must be found that 
recognizes the reality of the future workforce today. We need to set 
the politics aside and seek a bill that is bipartisan and solves the 
immigration problem for agriculture immediately.
    The strength of our family farms depends on immigration reform. Our 
farm workers deserve a chance at a better way of living and working. 
And the future of our safe, healthy, and local food supply depends upon 
a reliable and legal workforce.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Dear Committee Members:

    Enclosed are letters that our office has received from South Dakota 
agricultural producers and agricultural businesses, regarding the labor 
needs of American agriculture. Please consider these letters as written 
testimony for today's public hearing at 11 a.m. in the Longworth House 
Office Building, to review the labor needs of American agriculture.
    Agriculture needs a consistent, stable workforce. Thank you for 
your attention to this issue that plagues American agriculture. Please 
feel free to contact our office for any further information on this 
issue.
            Regards,

Amber S. Brady,
General Counsel/Director of Agricultural Policy,
South Dakota Department of Agriculture, Pierre, SD
                            Attached Letters
    Dear Committee Members:

    I am writing to tell you how important a dependable labor force is 
to my agricultural business. I own a large dairy-calf raising business 
that was started about 4 years ago. My farm receives about 30 newborn 
calves per day. These calves must be bottle fed their first weeks. 
Currently, I employ about 15 workers in two shifts per day. This is 
very physical hands-on work, and it goes on 16 hours per day, 365 days 
of the year.
    My community suffers from the lack of a workforce that is young and 
able to work in the livestock industry. There are few residents that 
are under 40 years of age. Our school had to consolidate 4 years ago 
due to lack of children. The majority of the people in my community are 
retired senior citizens.
    Perhaps you think I don't pay well, or I've never advertised for 
help. That's not true. I've advertised with job service and word of 
mouth, to no avail. My employees earn $30,000 or more a year. The pay 
scale is not what keeps them away. They want banker's hours and no 
weekends, and little physical outdoor work. But baby calves need to eat 
twice a day on Saturday & Sunday and Christmas Day, as well as the 
weekdays.
    Most of my workforce hold work visas and come from another country. 
My employees that come from other countries enjoy working with 
livestock. They take pride in doing their jobs well. I am proud to call 
anyone of them a friend and neighbor. If it were not for these people 
who work diligently and responsibly, I would not be in business. Yet 
the current H&2A visa process limits an ag employee to only 10 months 
employment in the United States. Then they must leave. It was developed 
for the fruit and vegetable growers. Not all agriculture involves 
growing and harvesting crops for a few months a year. Hogs, dairy, beef 
feedlots and livestock processing all have year-round labor needs. Many 
of these jobs take training and experience they gain with several 
months of work. I find I spend \1/2\ of that time training them, only 
to have their visa expire and they need to leave. Then, I start the 
process over.
    I have the opportunity to double the size of my calf raising 
business in the next few months. That means double the labor I will 
need to hire. My biggest obstacle is not the permitting process through 
the local and state agencies for a large livestock operation. My 
biggest nightmare is wondering if Congress will do something to allow 
willing, dedicated foreign workers to fill the jobs on my farm that 
people from my community can't or won't take. I need to be able to 
access these foreign workers in a timely manner. I need to be able to 
train these good people, and then keep them for more than 10 months. 
Turnover costs any employer money.
    I urge you to support the AgJOBS bill or similar legislation that 
addresses the foreign labor force that keeps this country humming. 
Support legislation that lets America produce and process its own food. 
Someone needs to raise livestock in America. Without the legal & 
workable means to utilize a foreign labor force for all types of 
agriculture, (when American citizens can't or won't do the work 
required to grow, care for, and process our food) we will be dependant 
on other countries to feed us and millions of farmers will be out of 
business in the United States.
            Sincerely,

Jay Hill,
Veblen, SD.
                                 ______
                                 
    Dear Committee Members:

    I am a grain and livestock farmer with a custom harvest business. 
My grandfather started the custom harvest business about 55 years ago. 
My son now takes a crew to run the wheat harvest from Oklahoma to 
Canada. For four generations, we have helped feed America. We also grow 
corn, soybeans and wheat on our own land.
    For the past 5 years, we have been unable to find enough seasonal 
farm labor to keep our farm business going. We now have to depend on 
H&2A visa labor, and most of them come from South Africa. Some of our 
competitors are hiring H&2A labor from Europe. Not many years ago, our 
labor force consisted of high school and college age young people. They 
are no longer interested in the physical outdoors jobs we need to fill. 
I'm not talking about pitching bundles into the threshing machine on 
110 degree days under the blazing sun. We teach our employees to 
operate combines, tractors, and trucks with state-of-the-art computer 
assisted, air conditioned, GPS equipped, air-ride seats--in machines 
that cost up to $250,000. I'm just asking for employees whom we will 
teach everything that they need to know on state-of-the-art machinery. 
I can't find any American workers to fill these positions.
    The H&2A visa process was a workable solution for us until this 
spring. I requested six visas to be approved, and at the last minute, 
the consulate in their home country failed to approve \1/3\ of the 
positions. My son had to leave for Oklahoma without a full crew.
    I urge you to support the AgJOBS bill or similar legislation that 
addresses the foreign labor force that keeps this country humming. 
Support legislation that lets America produce and process its own food. 
Without the legal & workable means to utilize a foreign labor force we 
will be dependant on other countries to feed us and millions of farmers 
will be out of business in the United States. Agriculture needs this.
            Sincerely,

Denny Pherson,
Veblen, SD.
                                 ______
                                 
    Dear Committee Members:

    The Midwest Dairy Institute is a 2,000 cow dairy farm in eastern 
South Dakota owned by the Milbank Community Foundation. We are charged 
with two missions: one is to operate this large commercial dairy farm, 
and the other is to provide educational services to dairy producers and 
dairy workers.
    Both as an employer and as educators, it has become obvious that 
the shortage of legal farm labor has become a crisis that threatens to 
destroy our industry. If we cannot find a legal source of quality 
employees to work on our farms, this modem and efficient dairy industry 
will cease to exist as we know it today.
    We offer good pay and benefits but U.S. workers are rarely, if 
ever, interested in working on a dairy farm. Our educational programs 
designed to train workers for dairy employment are finding no one 
interested in a future as a dairy employee. Every dairy producer I talk 
to tells me the same thing. There are few if any quality employees 
available from the U.S. workforce for employment on dairy farms.
    The only way we can staff our farms and keep milking cows is to 
hire foreign workers. We hire these workers taking their documentation 
at face value, but we know that when ICE raids a dairy farm, many of 
the workers assumed to be legal are deported. Every large dairy in the 
U.S. lives in fear of ICE coming in and removing enough of their 
workers to put them out of business.
    The political bickering and turmoil over comprehensive immigration 
reform is not even relative to the needs of the dairy industry. I, as a 
dairy producer, have no agenda for comprehensive immigration reform. I 
need to see an obsolete and unworkable agricultural guest worker 
program reformed to fit the needs of modern dairy farming. An H&2A 
temporary worker program does not work for an agricultural industry 
that harvests milk 24/7/365.
    Failure of the U.S. Congress to do something about this critical 
labor shortage coupled with increased ICE enforcement will lead to the 
destruction of the modern dairy industry. The economic disaster that 
will result from that will ripple through our agricultural industries 
all the way to the grocery store.

Howard Manlove,
Dairy Farm Complex Manager,
Midwest Dairy Institute.
                                 ______
                                 
    Dear Committee Members:

    I'm a dairyman, hoping to invest in a large dairy in South Dakota. 
At the moment, we hold both a county and state permit to build a 2,100 
cow dairy near Bruce, SD, in Brookings County.
    According to research from the University of Minnesota, (see web 
link below), the economic ripple effect of a dairy cow to the local 
economy is $13,737 per cow per year. Therefore a dairy of this size 
should create an economic ripple effect of $28,847,700 per year.
    My concern is that with unemployment so low in South Dakota and no 
reform in immigration law, I won't be able to get sufficient qualified 
staff for my dairy. This is especially true for veterinary staff. Last 
year, only 80 large animal vets graduated in the U.S. as a whole. If 
not enough vets are coming out of U.S. colleges we need to get them 
from somewhere else.

        http://www.ansci.umn.edu/dairy/dinews/12-1-economic_engines.htm

            Yours sincerely,

Michael.
                                 ______
                                 
    Dear Committee Members:

    We are dairy farmers who moved to Lake Norden, SD in February 2006 
from Co. Fermanagh, Northern Ireland. South Dakota has been recruiting 
dairy farmers from the United Kingdom, Ireland & Europe for a couple of 
years now and we decided to emigrate here in 2005 but took 6 months to 
complete U.S. Immigration through London (a much shorter process than 
any I have heard about here in the USA). We have invested millions of 
dollars in a brand new 1,400 cow dairy here in Hamlin County and have 
been milking since December 2006.
    I am writing to urge you to take action on an issue I am very 
concerned about and that is essential to the smooth operation of my 
farm--immigrant labor. We currently employ 22 people, 15 of whom are 
Milkers and stall management operators. It is extremely difficult to 
find local workers willing to do the hard work required to operate a 
successful dairy farm. As a result, significant numbers of dairy farms 
of all sizes across this country rely on immigrant labor to help 
efficiently run their operations. I have tried to employ as many local 
people as possible but 8 hour milking shifts are not popular and 
because we milk three times a day we need three shifts of four staff to 
cover a 24/7 operation. Currently all our Milkers are Hispanics with 
Permanent Resident cards and Social Security Numbers.
    The announcement by the Department of Homeland Security regarding 
increased enforcement actions is increasing the level of frustration 
and concern that I and my fellow dairy farmers feel at the government's 
inability to tackle this important issue in a reasonable way. Many 
long-standing employees that dairy farmers have employed in good faith 
may well have to be let go in light of these efforts. When taking on 
new staff they must have two forms of identification and we keep a copy 
of these forms, however I do not feel that I have any special knowledge 
or skills that allow me to screen employee's employment status. We are 
just so grateful to have people looking for work. We need a 
comprehensive solution to the challenge of immigration--not a one-sided 
attack focused solely on punitive enforcement policies.
    That is why I strongly urge you to actively support the passage of 
the AgJOBS legislation. AgJOBS provides for a badly-needed temporary 
worker program for agriculture and an orderly transition that 
encourages experienced farm workers to remain working in agriculture 
for a period of years. Equally important for dairy farmers, such as me, 
it also includes a provision addressing the unique needs of dairy 
farmers for a stable workforce.
    Please work with your fellow Members of Congress to enact AgJOBS 
without further delay. This carefully crafted compromise approach has 
been out there for some time now--it's well past time for Congress to 
put it into law!
            Sincerely,

Rodney & Dorothy Elliott,
Managing Partners,
Drumgoon Dairy LP.
                                 ______
                                 
    Dear Committee Members:

    We operate a 400 cow dairy and a crop farm in MN. On our dairy, we 
milk three times a day. We have a Spanish labor force. If we did not 
have them, there would be no dairy. Our Spanish laborers are dedicated, 
hard-working people. They will work 7 days a week when needed. They do 
their job well and are on time. They like rewards just like everyone 
else.
    In our area of MN, Spanish laborers work for other local 
businesses, including turkey processing, vegetable canning, 
landscaping, building, or construction. All of these jobs are jobs that 
white people don't want to do.
    Immigrant laborers, and their families, should be allowed to come 
to the U.S. to work. They invest a lot money back to local areas, as 
well. They like and purchase nice things, including homes, cars, & 
trucks.
            Sincerely,

George & Charlene Duban,
Duban Dairy.
                                 ______
                                 
    Dear Committee Members:

    My name is Amber, I am a resident of South Dakota, where 
agriculture has been my primary source of income for the better part of 
my life. During part of that time, I worked as an Assistant Herdsman 
for a 1,400 head dairy. At this dairy, I worked directly with both male 
and female immigrant workers who I found to be very pleasant and 
valuable employees. They worked harder than anyone else, they treated 
me with the utmost respect, and were always there to help me if I 
needed it. They were also great at working with me to break the 
language barrier and to develop an efficient workplace.
    Immigrant workers are a valuable asset to American agriculture and 
they should be treated like it.
            Thank you for your time and consideration,

Amber.
                                 ______
                                 
    Dear Committee Members:

    We represent the management company for five dairies in the I&29 
corridor. The dairy industry is extremely labor intensive. We cannot 
milk cows by computers and robots. There are a variety of tasks and 
jobs to be done on a dairy, and all of them are performed 365 days a 
year.
    Someone has to harvest the feed, mix the feed, deliver the feed, 
attend the cows that are calving, tend to the newborn calves, watch 
over the very fresh cows, treat the sick, clean the pens and stalls, 
milk the cows, haul the cows to market, manage the workers, pay the 
bills, market the milk, and the list goes on. It takes approximately 
one person for every 100 cows.
    Our company manages about 10,000 dairy cows, 3,000 dairy calves, 
and 5,000 dairy heifers. Those numbers require about 180 employees. 
While we have been able to hire employees for middle and upper 
management, we struggle with filling the technical positions 
(veterinarians & animal scientists) and of course, the people for the 
less technical, but very labor intensive positions.
    Whenever possible, we hire veterinarians through TN visas (NAFTA) 
and a few laborers through H&2A visas. TN visas are renewable annually 
for only 3 years, and H&2A visas are only for certain positions that 
are not year-round--only for 10 months.
    Our rural area would struggle if we only milked 500 cows. There 
just are not the people that are interested in working with livestock 
no matter what wage is paid. We have assisted people with housing, 
moving, schools for their children, anything that will make our area 
more attractive. We have few local residents that are under 40 years of 
age. Our schools have consolidated for lack of students, our churches 
have closed, main streets look like ghost towns. But in the communities 
where we manage dairies, the main streets are busy, the schools see an 
enrollment holding steady, and there is a feeling that maybe these 
little towns won't die. Farm managers come with their families and 
relocate into these rural communities.
    Animal agriculture is a huge economic development engine. With a 
workable & fair foreign labor immigration bill that addresses year-
round agriculture labor needs, we can continue to put people back into 
our local rural communities. If foreign labor and rural labor needs are 
not addressed ASAP, our food production and processing will move out of 
America, and we will soon import our food and lose millions of farmers.
    I urge you to support the AgJOBS bill or similar legislation that 
addresses the foreign labor force that keeps this country humming. 
Support legislation that lets America produce and process its own food. 
Without the legal & workable means to utilize a foreign labor force we 
will be dependant on other countries to feed us and millions of farmers 
will be out of business in the United States. Agriculture's future 
depends on this.

    Prairie Ridge Management Company, Veblen, SD

Rick Millner

Karen Hornseth

Lucas Mauch

Jamie Rein

Barb Clark

Kurt Meyer

Mike Stavick

Missy Rein

Darlene Hanson

Ronnie Lee

Jill Millner

  

                                 ------
    Dear Committee Members:

    Although I am not directly involved with the dairy industry, I 
understand that as production agriculturists, dairymen are tasked with 
running an operation that is an economic driver in rural America. They 
are also struggling to obtain a sufficient labor force and must turn to 
guest workers to keep the business running.
    As a member of the community, I see guest workers as an 
opportunity. True, they are able to save money and send it home to 
their families; but, these guest workers also buy gas, groceries, 
clothes, etc. from the communities in which they live. It is important 
to have this workforce available to help keep rural America running.
            Sincerely,

Samantha Quinn,
Quinn & Associates,
Farm Bureau Financial Services,
Watertown, SD.
                                 ______
                                 
    Dear Committee Members:

    We are partners in several large dairy operations in northeastern 
South Dakota. The dairy industry is extremely labor intensive.
    There are a variety of tasks and jobs to be done on a dairy, and 
all of them are performed 365 days a year. Operating a dairy farm 
requires one person per 100 cows. The work is quite physical. Someone 
has to harvest the feed, mix the feed, deliver the feed, attend the 
cows that are calving, tend to the newborn calves, watch over the very 
fresh cows, treat the sick, clean the pens and stalls, milk the cows, 
haul the cows to market, manage the workers, pay the bills, market the 
milk, and the list goes on.
    It is a daily struggle to fill the positions for these labor 
intensive positions. We have a few positions that can be filled with 
H&2A visas, but they are designed for seasonal farm labor only and do 
not come close to addressing the labor needs on a dairy farm. They only 
allow the employee to work for us for 10 months; then, they must return 
home.
    Our rural area would still struggle even if we only milked 500 
cows. There just are not the people that are interested in working with 
livestock no matter what wage is paid. We have assisted people with 
housing, moving, schools for their children, anything that will make 
our area more attractive. We have few local residents that are under 40 
years of age. Our schools have consolidated for lack of students, our 
churches have closed, main streets look like ghost towns.
    Animal agriculture is desperate to find employees. They are not 
here in rural America. Animal agriculture can be a huge economic 
development engine. Our worry is that if we cannot find labor for food 
production and food processing in this country, these industries will 
move out of America, and we will soon import our food and lose millions 
of farmers.
    We urge you to support the AgJOBS bill or similar legislation that 
addresses the foreign labor force that keeps this country humming. 
Support legislation that lets America produce and process its own food. 
Without the legal & workable means to utilize a foreign labor force, we 
will be dependent on other countries to feed us and millions of farmers 
will be out of business in the United States. Agriculture's future 
depends on this.
            Sincerely,

    MCC Dairy, Veblen, SD & Five Star Dairy, Milnor, ND

Jorden Hill
Wayne Viessman
Michael Wyum
Rick Millner
Duayne Baldwin
Denny Pherson
                                 ------
    Dear Committee Members:

    We own a family-run dairy farm in south-central South Dakota. We 
currently milk 240 cows, and we raise all of our own replacement cows, 
making a total of around 500 head of livestock. We are in our late 
30's/early 40's and have four kids--ages 10, 12, 14, 16. We farm 640 
acres and have our parents on the farm with us. Dad, at age 77, still 
puts in 10&12 hour days.
    We currently employ two full time people besides ourselves, and we 
employ our kids many hours each day. We have, in the past, employed 
high school students and a few farm wives to help cover milking shifts 
(a shift takes three people). However, due to the ``rain, snow or 
shine'' aspect of dairy farming, this labor structure was no longer 
working for us.
    We have seen a significant decline in the quality of labor over the 
years. Everyone wants to receive as much pay as possible for the least 
amount of work, and they don't want to be responsible for filling out a 
shift if it interferes with something more important--like a basketball 
game that they just want to see.
    Therefore, we have made a change to other labor sources. We 
currently have two Mexican workers. They are hard working, responsible, 
pay taxes, and are always looking for more work. They have a large 
family network, so if they need to take time off, or want to leave the 
position, there is always someone waiting to fill their shoes. The 
language barrier has been a problem, but we are working around it. We 
pay these laborers $10/hour (The starting rate is $8/hour in our local 
community businesses). We also provide housing, meat and milk.
    As far as we know, our help is in the country legally. However, 
after the ICE raids at a dairy in North Dakota, all dairy employers of 
any immigrant help are frightened. If we are to be responsible for the 
legality of the papers of our employees, then the government needs to 
provide training for employers to recognize proper legal documentation, 
and we need to have a work program that does not contradict itself. The 
current plan of ``No-Match'' letters is not adequate if that is the 
only way that we can find out if our employees are legal. And, as the 
letter states, we cannot fire them if they are legal, due to 
discrimination laws. Most importantly, if we find out our employees are 
not legal, how can we as employers go about getting valuable employees 
legalized?! The current system is BROKEN and must be fixed!
    We feel it is IMPERATIVE for some sort of AgJOBS provisions to 
allow for year-round farm labor. The seasonal worker program is not 
adequate to meet the needs of a 365 day per year profession.
    Thank you for your time and your attention to this matter.

Joel & Susan Sybesma,
Dutch Made Dairy,
Platte, SD.
                                 ______
                                 
    Dear Committee Members:

    We are a family dairy in South Dakota, and we depend on people from 
other countries to help us produce our milk. Our herd consists of 1,200 
milking cows. We have 16 full-time employees of which 12 are 
immigrants. They are hardworking, honest, and have restored our faith 
in knowing people that still want to work. In order to save our food 
processing industry, Congress must act quickly to ease the tightening 
labor crunch we face in American agriculture. Hiring immigrants is the 
only way of ensuring our food is produced on a daily basis. Our local 
labor force has been tried, but fails to have the work ethic and 
honesty that immigrants give to our industry. If immigrants are not 
given labor reform, food and food-related industries will be 
devastated.
    A high percentage of immigrants in this country do not want 
citizenship. They want to be able to work legally, have a better life 
for themselves and families, and then return to their home, after 
earning enough income to better themselves.
    As dairymen, we are faced with a year-round labor problem in rural 
South Dakota. The same is true for others involved in South Dakota's 
pork, beef, and meat processing industries. South Dakota also has a 
growing number of seasonal crop producers who need a part-time labor 
force. But, a worker program that only attacks the seasonal worker 
problem is not the answer. We need a year-round labor force. And, we 
need an immigration reform program that will assure us our workers are 
legal. The Department of Agriculture in each state could monitor the 
immigrant workers and issue an agricultural ``work permit.'' Congress 
needs to realize the amount of labor needed in our industries and what 
it takes to produce our food supply. We need to identify immigrant 
workers, give them a ``work permit'' to work in one state, giving our 
Labor Department the ability to track them and their employer, and give 
them a life here that we take for granted.
    This issue needs to be resolved soon and needs to be addressed in a 
practical means of keeping our food supply secure.
                                 ______
                                 
    Dear Committee Members:

    We operate a dairy in western South Dakota, and employ eight people 
full-time. The dairy runs 24 hours a day, so we need labor all day 
long. We do shift work labor, and workers rotate between working days 
and nights each month.
    Our largest problem is that when we try to find help, we can not 
get anyone to apply for the position. We have put ads in the local 
newspaper, and the jobs are listed with a job service, and still, we do 
not get anyone to apply. Generally, when we do get someone to apply, 
they are unreliable, do not have good work ethics, and have an 
undesirable background. Due to this, we have had to rely upon immigrant 
labor.

Dan and Wanda Dunn,
Dunn Dairy.
                                 ______
                                 
  Prepared Statement of Luawanna Hallstrom, Craig J. Regelbrugge, and 
   John Young, ACIR Co-Chairs, Agriculture Coalition for Immigration 
                                 Reform
    Chairman Peterson, Ranking Member Goodlatte, and Members of the 
Committee:

    The Agriculture Coalition for Immigration Reform (ACIR) appreciates 
the opportunity to submit a written statement to the U.S. House of 
Representatives, Committee on Agriculture. We appreciate the 
Committee's understanding that the agricultural labor crisis in America 
directly threatens the very survival, as well as the stability and 
growth, of the fruit and vegetable, dairy, livestock, nursery, 
greenhouse and Christmas tree industries.
    ACIR is comprised of several hundred national, regional, and state 
grower and producer organizations representing all facets of labor-
intensive agriculture in America. It was formed in 2001 to push for 
lasting immigration reforms needed to ensure a stable and legal 
agricultural labor force.
America Will Be More Secure With the Passage of Immigration Reform
    Every American supports secure and well-managed borders. Yet, every 
day the Border Patrol spends enormous resources attempting to apprehend 
economic migrants who only seek to cling to the bottom rung of our 
nation's economic ladder. And America needs them. Many find work in 
agriculture milking cows or picking peaches, since Americans are not 
raising their children to be farm laborers. Providing better legal 
channels for farm workers to enter, work, and return home when the 
season is over will free up Homeland Security resources to focus on 
true threats to America's well-being.
    Bipartisan legislation known as AgJOBS (H.R. 371) will facilitate 
the stabilization and proper documentation of the trained and trusted 
labor force here at work on America's farms and ranches. It will also 
facilitate an orderly transition to substantially wider use of an 
improved agricultural worker program, by reforming the decades-old and 
dysfunctional H&2A program, as capacity is built on the farm and at 
U.S. consulates abroad to enable wider use of the program. Presently, 
H&2A workers fill roughly 1.9% of the job opportunities in American 
agriculture. It will take at least several years to build the capacity 
needed for more reliance on H&2A.
    Immigrant farmworkers support American jobs. Agricultural 
economists estimate that every farm worker job supports three to four 
jobs in the surrounding economy. By and large these are good jobs, 
filled by Americans, in packaging, processing, distribution, equipment, 
other inputs, lending, and insurance. Most of these jobs will move 
offshore if our production moves offshore.
    Fruits, vegetables, and other labor-intensive specialty crops 
represent half the value of American crop production, and constitute 
much of America's food supply and a good diet. These industries, plus 
others like dairy, nursery and livestock, cannot survive in America 
without access to an adequate and affordable labor supply. Imagine a 
future in which America relies on sometimes hostile foreign countries 
for our food to the extend we do our oil today. Failure by Congress to 
enact timely and meaningful immigration reform will force farms to move 
out of the country, hastening American reliance on foreign countries to 
feed us.
Why Legislation like AgJOBS Is the Answer
    The Agricultural Job Opportunity, Benefits, and Security Act of 
2007 (AgJOBS) is equivalent to the agricultural provisions of S. 2611 
that passed the U.S. Senate on May 25, 2006. AgJOBS restructures and 
reforms the current H&2A temporary agricultural worker program. This is 
accomplished by substantially streamlining the program's administrative 
procedures, reforming the requirements of H&2A employers, streamlining 
the process for admission of H&2A aliens, and allowing aliens not 
currently in the program to acquire H&2A status. AgJOBS also creates a 
means for aliens who have made a substantial commitment to agricultural 
work in the United States, but do not have valid documentation, to earn 
adjustment to legal status by meeting strict conditions including 
specific pre- and post-enactment agricultural work requirements. The 
adjustment provision will provide an opportunity for agricultural 
employers to retain an experienced workforce while they anticipate and 
prepare for future participation in a reformed H&2A program.
    Proposals to solely reform H&2A, either legislatively or 
administratively, will not stabilize the current experienced workforce 
or provide essential transition time to wide reliance on H&2A. In 
excess of 70% of the agricultural labor force is believed to be 
unauthorized. The ``bandwidth'' does not exist for a large majority of 
this workforce to leave the country, be processed, and return in a 
seasonal context. While H&2A reform is essential as a long-term 
solution, it cannot stand alone.
The Farm Labor Crisis Is Immediate, and Congress Must Act Now
    Time is running out for family farms and businesses who cannot 
plant, tend and harvest their fruit, vegetables, and animals without a 
stable labor force. Hanging in the balance is our abundant, secure, 
domestically produced food supply. Also at risk are thousands of 
American jobs that depend on agriculture, jobs that will follow food 
production to foreign countries if that is where it goes.
    The labor force that sustains domestic agriculture was not born 
here. Over 80% of farmworkers are foreign-born. The lack of adequate 
legal ways for them to work here means that most are unauthorized under 
our immigration laws. Although these workers are having taxes, Social 
Security and Medicare withheld from their paychecks, increased 
enforcement of full implementation of the Department of Homeland 
Security's social security No-Match rule will cause employers to lose 
the trained, experienced, and available labor force.
    Few Americans are available or willing to do this work. Farm work 
tends to be in rural areas. It is out in the weather, physically 
demanding, often seasonal or intermittent, and sometimes even migrant. 
Most Americans are not attracted to opportunities that are labor-
intensive and seasonal by nature. Most wage earners choose 
opportunities with lower hourly pay than the $10.00 average for farm 
work for these reasons. Intense but failed domestic recruitment 
efforts, such as in California in the late 1990's, and last year in 
Washington State, demonstrate that foreign-born workers will tend and 
harvest America's livestock and crops. The question is, where will it 
be done?
    American agriculture needs and wants a stable, legal labor supply. 
The Agriculture Coalition for Immigration Reform respectfully urges 
Congress to finally act, and act wisely. Doing nothing simply 
perpetuates the silent amnesty that exists across the country today. 
AgJOBS is the bipartisan product of several years of negotiations among 
farm employer and farm worker representatives. It will provide the 
near-term and long-term workforce solution for the farm sector. The 
agricultural sector is the most vulnerable sector of the American 
economy. The failure of Congress to act will require farmers to force 
farmers not to plant or harvest, and will require force Americans to 
rely on foreign countries for their food supply--with dire economic and 
security implications.
    Thank you again for the opportunity to submit testimony to the 
hearing record. Please feel free to call upon the Agriculture Coalition 
for Immigration Reform as a partner and resource for information 
regarding the labor needs of American agriculture.
            Respectfully,
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
 ACIR Co-Chair,American Nursery & Landscape Assn., D.C.;
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
